<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, MARCH 19, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Domenici, Shelby, Hutchison, 
Inouye, Leahy, and Dorgan.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENTS OF:
        HON. THOMAS E. WHITE, SECRETARY OF THE ARMY
        GENERAL ERIC K. SHINSEKI, CHIEF OF STAFF, UNITED STATES ARMY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. We just received word that Senator Inouye 
is stuck in traffic, as many of us have been this week, and he 
asked us to proceed without him, so I am pleased to have a 
chance to hear testimony from the Secretary of the Army and the 
Army Chief of Staff for the fiscal year 2004 budget request. We 
welcome you, General Shinseki.
    General Shinseki. Thank you, Sir.
    Senator Stevens. I am informed that this may be your last 
time to come before us.
    General Shinseki. Very likely.
    Senator Stevens. Or at least this year will be your last 
time.
    General Shinseki. Yes, sir.
    Senator Stevens. With what is going down in Iraq we may see 
you again, but I do want to tell you it is just such a short 
time ago you came for the first time, General, and we have 
enjoyed very much, all of us, the chance to be with you and to 
have your vision on transformation of the Army, and we have 
done our best to pursue that. I am certain that Senator Inouye 
will have some statements when he comes, but I want to thank 
you on behalf of our committee for all your cooperation with 
us.
    And Mr. Secretary, nice to have you back with us again.
    Mr. White. Thank you, sir.
    Senator Stevens. We now find ourselves conducting a global 
war on terrorism, and quite close to war in Iraq, and we are 
obviously very much in need of a strong, modern, prepared 
military. It is important to us today, more important, 
probably, than it has been in many, many years to be sure that 
you have the resources that you need, and that we support the 
President and your men and women as they respond to the 
Commander in Chief's directions and commands.
    We have people from the Army deployed all over the world 
now. I am told that the Army has 262,000 soldiers now deployed 
somewhere in the world outside of our country.
    General Shinseki. That is correct.
    Senator Stevens. The Guard and Reserve now, under the total 
force concept, share this burden, with 139,000 Reservists and 
Guardsmen mobilized and on active duty. There are many issues 
that we face this year, there is no question about it, but we 
want to pursue today, if possible, the direction that we should 
go on Army Transformation.
    I think you have demonstrated to the Congress and the 
people of this country that the Transformation concept is not 
just simply a new weapons platform, but a new doctrine and 
organizational concept for the Army, and it is a whole new way 
of life for the Army and new way to fight and win wars. You 
have managed to shake up the industry and the military 
bureaucracy with your concepts, and Transformation has 
shattered the old paradigm of business as usual in the miliary, 
so we congratulate you.
    I think Congress must continue its commitment to this Army 
Transformation and continue the commitment we made to our 
soldiers in 1999, when you first brought us this new concept of 
Transformation, so it is the intention of this committee, at 
least for this chairman and I am certain Senator Inouye, to 
urge this committee to give you our full support to make 
certain that this goal is totally accomplished. We look forward 
to hearing your plans today not only on transformation, but to 
further strengthen the entire Army.
    I will put the balance of my comments in the record so that 
I do not prolong this, but I do thank each of you for visiting 
with me and my staff yesterday to make certain we had 
coordination of our concepts and our resolve to be certain that 
the Army of today and tomorrow will be the best that it can be.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    This morning the subcommittee will receive testimony from 
the Secretary of the Army and the Army Chief of Staff on their 
fiscal year 2004 budget request.
    General Shinseki, welcome to you. Unfortunately, this will 
be your last time testifying before the committee as the Chief 
of Staff.
    It seems like a very short time ago when you first 
testified before this committee and introduced us to your 
vision of transformation for the Army.
    The Army is well on its way towards the future. 
Transformation is a success. You have proven your critics 
wrong.
    Much has happened since our first meeting. As we find 
ourselves conducting a global war on terrorism, preparing for a 
possible war to disarm Iraq, America is reminded of the need 
for a strong, modern, prepared military.
    It is as important today as it ever was to have a military 
who has the resources it needs and the support of the President 
and the entire country.
    The United States Army is deployed all over the globe. 
Today, the Army has over 262,000 soldiers deployed or forward 
stationed.
    The Guard and Reserve are also sharing in this burden with 
more than 139,000 reservists and guardsmen mobilized and on 
active duty.
    While there are many important issues facing the Army, one 
of the most critical decisions Congress will make this year 
will be the direction we go on Army transformation.
    You have demonstrated to the Congress, and the country, 
that the transformation concept is not simply a new weapons 
platform, but a new doctrine and organizational concept for the 
Army. It is a whole new way for the Army to fight and win wars.
    You have managed to shake up industry and the military 
bureaucracy with your concepts. Transformation has shattered 
the old paradigm of ``business as usual''.
    Congress must continue its commitment to Army 
transformation and continue the commitment we made to our 
soldiers in 1999 when you introduced the concept of 
transformation.
    It is the intention of this committee to give you the 
resolve and support to see your goal through.
    I look forward to learning of your plans to not only 
continue transformation, but to further strengthen it, and the 
entire Army.
    This committee will continue to adamantly support your plan 
to deploy 6 Stryker brigades. In fact, I will seek your insight 
momentarily on how this committee can best protect that plan.
    In addition, I would welcome any comments you might have on 
current funding requirements for the Army for fiscal year 2004, 
and your views on the scope and timing of any needed 
supplemental appropriations for this fiscal year.
    Let me now turn to our mutual friend, and partner, the 
distinguished ranking member of the subcommittee, Senator 
Inouye.

    Senator Stevens. Senator Leahy, you are first.
    Senator Leahy. Mr. Chairman, are we going to questions now, 
or are these just----
    Senator Stevens. Opening statements, if you have them.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. No. I will put an opening statement in the 
record.
    I would just tell you, Mr. Chairman, what I had said to 
Secretary White and General Shinseki here earlier, right before 
this started, that no matter how anybody feels one way or the 
other on war, at least we can take comfort in the fact that our 
people, our troops in the field are the best-trained, best-
equipped in the world, and as I told both the Secretary and the 
General, what I have been saying to families in Vermont who 
have either members of their family who are already deployed or 
being called up to be deployed, take comfort in the fact that 
our people are so well-led, so well-trained, and so well-
equipped.
    And as the General pointed out to me, that is not something 
you do overnight. It requires years and years of preparation 
and Mr. Chairman, you and Senator Inouye and this committee 
have done a lot of that to make sure we bought a lot of 
equipment we hope we will never have to use, but when we have 
to use it, at least it is there, and so I compliment you both.
    Thank you, Mr. Chairman. I will put my whole statement in 
the record.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    I would like to welcome back General Shinseki and Secretary 
White to the Subcommittee. As U.S. forces are poised to enter 
Iraq, it is good to know that they have such competent, 
steadfast leadership back at the Pentagon. We face many 
challenges in the days and weeks ahead. The men and women of 
the U.S. Army and the entire armed forces are ready for any 
eventuality. I look forward to the question and answer period.

    Senator Stevens. My great friend from Hawaii, do you have 
an opening statement, Senator?

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Mr. Chairman, I thank you very much. I have 
the excuse that half of this city has, the traffic, but before 
I proceed, sir, I would like to, as a citizen of the United 
States, commend and thank the Secretary and General Shinseki 
for the service they have rendered us at this time in our 
history by preparing our men and women so that they are in full 
readiness upon the command of our Commander in Chief. I think 
this is very important, and for that we will be eternally 
grateful.
    Mr. Chairman, I have a prepared statement here, but since 
time may be of the essence, may I put this in the record, sir?
    Senator Stevens. Without objection, it will be put in the 
record as though read.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Secretary White, General Shinseki, I would like to welcome 
you once again, as we consider the fiscal year 2004 Defense 
appropriations request for the Army. General Shinseki, since 
this will probably be your last appearance before this 
committee as Chief of Staff of the Army, I would like to take 
this opportunity to recognize your invaluable contributions to 
the U.S. Army.
    General Shinseki assumed his duties as the 34th Chief of 
Staff of the U.S. Army on June 22, 1999. Just three months 
later, he announced his plans to transform the Army into a 
force that could better meet future defense requirements to be 
both rapidly deployable and lethal.
    During your tenure, General, you institutionalized 
transformation and with it brought about a fundamental cultural 
and technological shift in the U.S. Army--a difficult challenge 
for an institution as large, diverse, and steeped in history 
and tradition as the United States Army.
    Four years after assuming your duties as Chief of Staff of 
the Army, the term ``transformation'' not only encompasses 
plans and programs for building the Army's future force, but 
the term is now synonymous with the efforts of the entire 
Department of Defense as it seeks to enhance its capabilities 
to fight and win wars in the 21st century.
    Congratulations General on a long and decorated career, and 
thank you for your service to the Army and to the country. 
Although you are retiring this June, this committee hopes and 
plans to continue to call on you for your counsel.
    Gentlemen, since our last hearing, the Army continues to 
play a critical role in the global war on terrorism, while at 
the same time transforming its forces for the 21st century.
    Our Nation's soldiers are busy--mobilization of the Army 
Reserve and Guard has reached 210,000 with forces deployed 
around the world to combat terrorism, to honor our commitments 
in Bosnia, Kosovo, the Sinai, and Saudi Arabia, and to prepare 
for a potential war with Iraq. Gentlemen, we need you to tell 
us how long we will be able to sustain these deployments and 
mobilizations, and whether you have sufficient forces to meet 
these requirements.
    I look forward to hearing about these issues and how the 
Army's fiscal year 2004 budget request supports the Army's 
current and future missions.

    Senator Stevens. Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, thank you for calling this 
hearing. Secretary White, I want to commend you for your 
service both as a soldier and as a Secretary, and General 
Shinseki, we know what you mean to the Army. We know what you 
mean to the Nation, and I appreciate that very much. I look 
forward to both of your testimony here today, especially on the 
eve of the impending conflict.
    Senator Stevens. Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, let me thank the Secretary 
for being here, and let me thank General Shinseki, and General 
Shinseki, I know that you are slated to retire, and let me echo 
the words of my colleagues in thanking you for your service.
    Senator Stevens. Thank you very much, and I would ask that 
you both turn on your mikes, as I have just turned mine on, and 
I am reminded sitting here of the times that Senator Stennis 
talked to us about changing the Army and about trying to work 
the Guard and Reserve into the total force. I think he would be 
delighted if he were here with us today because if there were 
any pioneer in, really, modernization of the Army, it was 
Senator Stennis.
    I do again thank you very much for the hard work you have 
put into making this Army as good as it is, and as good as the 
world will see it is in the near days. Please proceed with your 
statements, whoever wishes to go first. Mr. Secretary.

                      STATEMENT OF SECRETARY WHITE

    Mr. White. Thank you, Mr. Chairman, and with your 
permission I will submit a statement for the record and keep my 
opening remarks short.
    Senator Inouye, Mr. Chairman, I am grateful for the 
opportunity to talk with you today about the United States 
Army. Our priorities remain the same as they were a year ago, 
win the global war on terrorism, and transform the Army to 
prepare it for future wars.
    First and foremost, I wish to thank this committee for your 
continued support for the Army. The fiscal year 2003 budget has 
allowed us to make significant improvements in many key areas. 
We have structured our budget request for fiscal year 2004 in 
the same fashion as fiscal year 2003, based on our top 
priorities of People, Readiness, and Transformation.
    On the people front, thanks to your support we are making 
significant strides, and this does include a fully funded pay 
raise for all soldiers, targeted pay raises in selective cases, 
significantly reduced soldier out-of-pocket expenses for 
housing, and an accelerated Residential Communities Initiative 
(RCI) to improve on-post quarters for our families.
    This year, we are examining options, under an initiative 
called personnel transformation, to shift away from our 
individual replacement system to a unit manning approach that 
will enhance cohesion and combat readiness of our formations 
while improving the predictability of assignment patterns for 
Army families.
    As you know, we have had over 30,000 National Guard and 
Reserve soldiers on active duty consistently since September 11 
of 2001, some 18 months now, and as of today, we have activated 
over 151,000 soldiers for current and potential future Federal 
operations in addition to over 2,700 soldiers currently 
activated for State service. These Reserve Component soldiers 
are performing magnificently on a ``One Army'' basis, and we 
appreciate the tremendous support they have received from their 
employers as well as the American public. We recognize the 
unique sacrifices made by these citizen soldiers as they step 
up to do their duty as citizens and patriots.
    On the readiness front, the Army is ready for any 
additional operations we are ordered to perform in the future, 
and our great soldiers are successfully meeting our many 
current obligations around the world. With your help in fiscal 
year 2003 and again in our fiscal year 2004 budget request, we 
gave priority to funding training requirements for the force, 
significantly improved our spare parts availability, 
accelerated fielding of soldier support systems and unit 
communications equipment to make our units as ready as 
possible. Having said that, our operations tempo (OPTEMPO) has 
never been higher in my nearly 40 years of experience with the 
Army. We are indeed an Army that is on the move.
    While we have fully funded normal OPTEMPO and training, 
including the full complement of pre-9/11 missions such as 
Bosnia and Kosovo, the Sinai, and Korea, we have many other 
obligations as we pursue the global war on terrorism as part of 
the joint force. Post-9/11 missions of the past 18 months 
include Operations Noble Eagle here at home, Enduring Freedom 
in Afghanistan, as well as operations in the Philippines and 
elsewhere. Finally, we have a significant flow of Army forces 
into the Persian Gulf in support of potential future operations 
to ensure the disarmament of Iraq.
    Given this level of activity, it should come as no surprise 
that supplemental funding in fiscal year 2003 will be required. 
We are working hard to balance our readiness imperative for 
realistic training with our obligation to be good stewards of 
the environment. That balance is reflected in the Department of 
Defense's Range Preservation Initiative that we ask your 
support for. It is essential for us to maintain the balance 
between the use of military lands for their uniquely military 
purposes and the need for environmental protection and species 
preservation.
    The readiness of our soldiers going into harm's way depends 
upon that balance, so we ask for your help with this important 
initiative. We are transforming our Army even as we execute 
combat operations and prepare for future contingencies. This 
simultaneity is not only a necessity, it is an imperative. We 
are transforming the business side of the Army as well as the 
operational force, and we are transforming within the joint 
context, not merely in a service-centric manner.
    We have held steady to the azimuth established by the Chief 
of the Army, General Shinseki, all the way back in 1999, and in 
my personal opinion, one of the reasons we have been successful 
in that Transformation is the courage he showed in laying that 
marker down and then not deviating from that azimuth, and you 
have supported that azimuth consistently since he spoke of it.
    In fiscal year 2004, we request funding for our fourth 
Stryker Brigade to be fielded at Fort Polk, Louisiana, the 
Second Armored Cavalry Regiment, and we remain fully committed 
to fielding six Stryker Brigades on our established time line. 
We remain focused on the Objective Force with the restructured 
Comanche armed reconnaissance helicopter program. We are 
postured to successfully meet acquisition Milestone B in May 
for the Future Combat System (FCS). FCS includes the non-line 
of sight (NLOS) variant and the initial fielding increment 
which will meet the cannon requirement previously addressed by 
the Crusader program. We remain on a glide path to field the 
first Objective Force units in fiscal year 2008 with an initial 
operational capability (IOC) in 2010.
    On the business side of the Army, we fully solicit your 
support for the Department of Defense (DOD) transformation 
package, which will greatly streamline our operations and give 
us the flexibility to manage the Department in the most 
efficient manner. In the same vein, our business transformation 
initiatives are designed to achieve greater value for the 
taxpayer dollar.
    Our Residential Communities Initiative to privatize family 
housing continues to be an enormous success. By fiscal year 
2007, the Army will have established partnerships to bring 
every set of family quarters up to standard. I cannot think of 
a better thing to do for a married Army. We are able to do this 
because with an investment of $620 million we have attracted 
over $7 billion in private capital. This is a tremendous value 
for the taxpayer, and we believe a model of how better business 
practices can help us with noncore functions such as housing.
    We are seeking to apply the same model of public-private 
partnership to the challenge of on-base utilities, for example, 
by consolidating all installation management under one command, 
and by centralizing the Army-wide contracting, for contracts 
over $500,000, in our Army Contracting Agency. We are seeking 
to regionalize utilities contracting, achieving economies of 
scale that were not possible with our previous business 
management structures. Private capital will be required to fix 
the utilities infrastructure on our bases, and we are setting 
the conditions to attract it just as we have with family 
housing.
    Finally, we are conducting what we call our Third Wave 
Initiative, which seeks to eliminate or transfer all noncore 
functions currently consuming Army people and dollars. Rest 
assured, as we progress this initiative, we will pursue this 
business initiative in full consultation with the Congress.
    Now, finally the matter of risk. Balancing the risk 
associated with near-term modernization and mid-term 
transformation has required us to make some tough choices. We 
have had to terminate or restructure numerous current force 
modernization programs to generate the capital to fund 
transformation. In a nutshell, our fiscal year 2004 budget 
submission funds people, readiness, and transformation at the 
expense of some of our infrastructure accounts and current 
force modernization. We made these judgments only after a 
careful balancing of both operational risk and the risk of not 
transforming to provide the capabilities the Army needs to meet 
the obligations of our near-and mid-term strategy.
    In conclusion, I wish to return to those who I mentioned 
first in my remarks, our soldiers. Their performance in 
Afghanistan speaks volumes. In the dead of winter, a landlocked 
country, toughest terrain imaginable, the collapse of the 
Taliban put Al Qaeda on the run and they are still running. It 
has been my privilege to visit them in Afghanistan, see our 
soldiers in Kuwait and Bosnia and Kosovo, all around our 
country. You could never meet a finer group of young Americans. 
They are flat out, in my 40 years, the best soldiers I have 
ever seen, and we are all very, very proud of them. Rest 
assured they stand ready, along with our sister services, to 
accomplish any task ordered by our Commander in Chief.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman, very much for the opportunity to 
discuss the fiscal year 2004 budget submission. I look forward 
to your questions.
    [The statement follows:]
  Prepared Statement of Honorable Thomas E. White and General Eric K. 
                                Shinseki
    Mr. Chairman and distinguished members of the Committee, thank you 
for this opportunity to report to you today on the Posture of the 
United States Army.
    America's armed forces are the most powerful in the world. And 
America's Army remains the most respected landpower to our friends and 
allies and the most feared ground force to those who would threaten the 
interests of the United States.
    Since before the birth of the Nation, American Soldiers have 
instilled hope in a noble dream of liberty. They have remained on point 
for the Nation through nine wars, and the intervals of peace in the 
years between--defending the Constitution and preserving freedom. 
Magnificent in their selfless service, long in their sense of duty, and 
deep in their commitment to honor, Soldiers have kept the United States 
the land of the free and the home of the brave. This is our legacy. Our 
Soldiers who serve today preserve it.
    In October 1999, we unveiled our vision for the future--``Soldiers, 
on point for the Nation, transforming this, the most respected army in 
the world, into a strategically responsive force that is dominant 
across the full spectrum of operations.'' The attacks against our 
Nation on September 11, 2001, and the ensuing war on terrorism validate 
The Army's Vision--People, Readiness, Transformation--and our efforts 
to change quickly into a more responsive, deployable, agile, versatile, 
lethal, survivable, and sustainable force.
    While helping to fight the Global War on Terrorism, The Army is in 
the midst of a profound transformation. Readiness remains our constant 
imperative--today, tomorrow, and the day after. Transformation, 
therefore, advances on three broad axes: perpetuating The Army's legacy 
by maintaining today's readiness and dominance; bridging the 
operational gap with an Interim Force of Stryker Brigade Combat Teams; 
and fielding the Objective Force to fight and win conflicts in the 
years beyond this decade.
    As they have throughout The Army's 227-year history, Soldiers 
remain the centerpiece of our formations. Versatile and decisive across 
the full spectrum of joint missions, land forces have demonstrated time 
and again the quality of their precision in joint operations. Our 
responsibility is to provide Soldiers with the critical capabilities 
needed for the tough missions we send them on.
    After three and a half years of undiminished support from the 
Administration and the Congress, and the incredible dedication of 
Soldiers and Department of the Army civilians, we have begun to deliver 
The Army Vision. With continued strong support, we will win the war 
against global terrorism, meet our obligations to our friends and 
allies, remain ready to prevail over the unpredictable, and transform 
ourselves for decisive victories on future battlefields.
    We have achieved sustainable momentum in Army Transformation; the 
framework is in place to see the Objective Force fielded, this decade.
                   the army--at war and transforming
    The United States is at war, and The Army serves the Nation by 
defending the Constitution and our way of life. It is our nonnegotiable 
contract with the American people--to fight and win our Nation's wars, 
decisively.
    In the weeks immediately following the attacks of September 11, 
2001, Special Operations Forces (SOF) infiltrated Afghanistan, 
penetrated Al Qaida and Taliban strongholds, and leveraged all 
available long-range, joint fires, enabling the Northern Alliance to 
begin dismantling the Taliban. By January 2002, U.S. and Allied 
conventional force reinforcements began to set the stage for Operation 
Anaconda, where Soldiers, demonstrating courage and determination under 
the most challenging conditions, defeated Al Qaida at altitude on the 
escarpments overlooking the Shah-e-kot Valley.
    Today, more than 198,000 Soldiers remain deployed and forward 
stationed in 120 countries around the globe, conducting operations and 
training with our friends and allies. Decisively engaged in the joint 
and combined fight against global terrorism, Soldiers are serving with 
distinction--at home and abroad. Soldiers from both the Active and the 
Reserve Component have remained ``on point'' for the Nation in the 
Balkans for seven years, in Saudi Arabia and Kuwait for 12 years, in 
the Sinai for 21 years, and in Korea and Europe for over 50 years. At 
the publication of the Army Posture Statement, there were more than 
110,000 Reserve Component Soldiers mobilized for active federal service 
in support of Operation Noble Eagle and Operation Enduring Freedom. 
Even as we transform, Soldiers will remain ready to answer the calls of 
the Nation to defeat well-trained, determined, and dangerous 
adversaries who miscalculate in taking on the best led, the best-
equipped, and the best-trained army in the world.
    At war and transforming, The Army is accelerating change to harness 
the power of new technologies, different organizations, and revitalized 
leader development initiatives to remain at the head of the line. To 
accomplish this, Army Transformation advances along three major axes 
towards attainment of the Objective Force. We selectively recapitalize 
and modernize today's capabilities to extend our overmatch in staying 
ready to defend our homeland, keep the peace in areas important to the 
Nation, and win the war against global terrorism. Stryker Brigade 
Combat Teams--our Interim Force--will bridge the current operational 
gap between our rapidly-deployable light forces and our later-arriving 
heavy forces, paving the way for the arrival of the Objective Force. By 
2010, The Army's Objective Force--organized, equipped, and trained for 
ground dominance, cyber-warfare, and space exploitation--will provide 
the Nation the capabilities it must have to remain the global leader, 
the strongest economy in the world, and the most respected and feared 
military force, by our friends and allies and our enemies, 
respectively.
    The surprise attacks against our Nation and Operation Enduring 
Freedom, in response to those attacks, validated The Army Vision and 
provided momentum to our efforts to transform ourselves into an 
instrument of national power that provides full spectrum operational 
capabilities that are strategically responsive and capable of decisive 
victory. In a little over three years, we have begun to realize The 
Army Vision--People, Readiness, and Transformation.
    The transforming Army is enriching as a profession and nurturing to 
families whose sacrifice has borne the readiness of the force for the 
past 10 years. Our Well-Being initiatives are our commitment to reverse 
this trend by giving our people the opportunity to become self-reliant; 
setting them up for personal growth and success; aggressively investing 
in family housing; and revitalizing Single-Soldier living space in our 
barracks. Our manning initiatives have filled our line divisions and 
other early deploying units to dampen the internal turbulence of 
partially filled formations and help put a measure of predictability 
back into the lives of our families.
    The Army has carefully balanced the risk between remaining ready 
for today's challenges and preparing for future crises. With unwavering 
support from the Administration, the Congress, our Soldiers, and 
Department of the Army Civilians, The Army has made unprecedented 
progress in its efforts to transform.
    We will achieve Initial Operating Capability (IOC) for the first 
Stryker Brigade Combat Team (SBCT) this summer and demonstrate the 
increased responsiveness, deployability, agility, versatility, 
lethality, survivability, and sustainability that SBCTs provide to 
Combatant Commanders. In a little over three years from initial concept 
to fielded capability, the SBCTs will allow us to glimpse the potential 
for acquisition reform in paving the way for delivery of the Objective 
Force.
    We have constructed the framework for achieving the Objective Force 
this decade: a Transformation Campaign Plan with Roadmap; the Objective 
Force White Paper; the Operational and Organizational plans for the 
Objective Force Unit of Action; and the Operational Requirements 
Document for the Future Combat System of Systems.
    Additionally, The Army is poised to fill ground maneuver's most 
critical battlefield deficiency--armed aerial reconnaissance--with 
Comanche, a capable, survivable, and sustainable aircraft that is a 
cornerstone of the Objective Force.
    All along the way, we have tested our concepts in wargames and 
experiments, checked and rechecked our azimuth to the Objective Force 
weekly and monthly, and look forward to a successful Future Combat 
System Milestone B Defense Acquisition Board decision in May of this 
year.
    However, we cannot accelerate Army Transformation without 
transforming the way The Army does business--from transformation of 
logistics and acquisition to personnel and installation transformation. 
Revolutionizing Army business management practices achieves the best 
value for taxpayers' dollars; conserves limited resources for 
investment in People, Readiness, and Transformation; enhances 
management of personnel systems, installations and contracting; and 
augments our potential to accelerate arrival of the Objective Force. 
Changing The Army is first about changing the way we think, and better 
business practices represent practical application of common sense 
initiatives that best serve The Army and our Nation.
    We are proud of our progress. We are grateful for the strong 
Congressional support that has helped put The Army on its approach 
march to the Objective Force. The Army 2003 Posture Statement describes 
our tremendous progress in Transformation--an orchestrated campaign, 
synchronized with OSD and Joint Transformation, to achieve the 
Objective Force and keep America's Army the dominant landpower in the 
world.
          strategic environment--the requirement to transform
    During the last two decades of the 20th Century, information-age 
technologies dramatically changed the political, economic, and military 
landscapes. Desert Shield, Desert Storm, and operations in Kuwait, 
Bosnia, and Kosovo illustrated the requirement for transforming our 
forces to meet the evolving, strategic requirements of our Nation. 
Survivable and extremely lethal, our heavy forces effectively met the 
requirements for which they were designed; yet, they were slow to 
deploy and difficult to sustain. Conversely, our light forces were 
rapidly deployable, but they lacked the protection, lethality, and 
tactical mobility that we seek across the spectrum of military 
operations. We were successful in winning the Cold War and, as a 
result, smaller than we had been in 40 years. The Army no longer had 
the luxury of specialized forces built to confront a single and 
narrowly defined threat like the Warsaw Pact countries.
    Today's challenges are more complex; threats are elusive and 
unpredictable. The fight against international terrorism has 
overshadowed, but not eliminated, other potential crises. Tension 
between India and Pakistan persists; stability between China and Taiwan 
is tenuous; and concern over North Korea escalates. Threats of 
transnational terrorism and the proliferation of weapons of mass 
destruction (WMD)--often financed by organized crime, illicit drug 
transactions, trafficking in women and children, and the sale of arms--
further complicate the security environment. Geopolitical trends such 
as scarce resources, youth population-spike in underdeveloped 
countries, aging populations in developed countries, and the growth of 
mega-cities, among others, presage a future strategic environment of 
diverse and widely distributed threats.
    Fully appreciating the internal and external difficulties that 
profound change engenders, we assessed the operational challenges of 
the new century against the capabilities of our Cold War Army, 
recognized the opportunity to leverage the inherent combat power of the 
technological revolution, and set a clear path ahead--The Army Vision.
    The 2002 National Security Strategy (NSS) reaffirms our military's 
highest priority--defending the United States. To do this effectively, 
we assure our allies and friends; dissuade future military competition; 
deter threats against U.S. interests, allies, and friends; and 
decisively defeat any adversary, if deterrence fails. The NSS directs 
the military to transform to a capabilities-based force ready to 
respond to unpredictable adversaries and security crises. The Objective 
Force meets these NSS requirements, and Army Transformation will 
enhance our ability to conduct rapid and precise operations, achieve 
decisive results at the time and place of our choosing, and safeguard 
the Nation's ability to exercise our right of self-defense through 
preemption, when required.
    The 2001 Quadrennial Defense Review describes a capabilities-based 
approach to defense planning that provides broader military options 
across the operational spectrum, from pre- to post-conflict operations. 
The force-sizing construct--1-4-2-1--takes into account the number, 
scope and simultaneity of tasks assigned the military: it sizes the 
force for defense of the U.S. homeland (1), forward deterrence in four 
critical regions (4), the conduct of simultaneous warfighting missions 
in two regions (2)--while preserving the President's option to call for 
decisive victory in one of those conflicts (1)--and participation in 
multiple, smaller contingency operations.
    the army--serving today, balancing risk, managing transformation
    Soldiers are the most precise and responsive means to strike and 
then control enemy centers of gravity on the ground--where people live, 
work, and govern. American Soldiers are disciplined, professional, and 
trained for success in diverse missions; they are the foundation of a 
flexible force that accomplishes its missions in the non-linear 
battlespace by integrating new, innovative technologies and techniques 
with current systems and doctrine. Our people adapt under the harshest 
conditions, whether in the deserts of Kuwait and the Sinai, the 
mountains and rice paddies of Korea, or the tropics of the Democratic 
Republic of Timor-Leste.
    These demanding commitments mean we must nurture a balance between 
current and near-term readiness and our Transformation to meet future 
challenges. The Army has accepted reasonable operational risk in the 
mid-term in order to fund our Transformation to the Objective Force. To 
avoid unacceptable risk, we are monitoring closely the current 
operational situation as we support the Combatant Commanders in the war 
against terror, conduct homeland defense, and prosecute the long-term 
effort to defeat transnational threats. We have designed and 
implemented the Strategic Readiness System (SRS) to provide a 
precision, predictive tool with which to monitor The Army and make 
appropriate adjustments to preserve current readiness. Our surge 
capacity in the industrial base further reduces current risk by keeping 
production lines warm and responsive. And our first Stryker Brigade 
Combat Team will provide the Combatant Commanders with a new capability 
to further mitigate operational risk--even as we transform to the 
Objective Force.
    realizing the army vision--people, readiness, and transformation
    In 1999, The Army announced its vision to transform into a more 
strategically responsive force, dominant across the full spectrum of 
military operations. The Army Vision addresses three essential 
components: People, Readiness, and Transformation. Soldiers are the 
heart of The Army, the centerpiece of our formations, and the 
foundation of our combat power. Readiness remains our overarching 
imperative; it is the means by which we execute our nonnegotiable 
contract with the American people--to fight and win our Nation's wars, 
decisively. To preserve readiness while rapidly changing, 
Transformation advances on three major axes: preserving our Army legacy 
by maintaining readiness and dominance today; bridging the operational 
gap with Stryker Brigades--the Interim Force; and fielding the 
Objective Force this decade to keep The Army dominant in the years 
beyond this decade.
    Realizing The Army Vision requires the concerted effort of the 
entire Army, across all components--from warfighting to institutional 
support organizations. The Army published its Transformation Campaign 
Plan in April 2001 to synchronize and guide this complex undertaking. 
The November 2001 Objective Force White Paper describes the advanced 
capabilities and core technologies needed to build the Objective Force. 
The Army's June 2002 Army Transformation Roadmap defines Transformation 
as a continuous process--with specific waypoints--that increases our 
contributions to the Joint Force while achieving the six Department of 
Defense (DOD) critical operational goals. The result will be a more 
strategically responsive and full spectrum dominant force capable of 
prompt and sustained land combat operations as a member of the joint 
force.
    In support of the emerging joint operational concepts and 
architectures, The Army--as the major landpower component--continues to 
develop ground concepts for a full spectrum, and multidimensional 
force. These concepts are producing a Joint Force that presents 
potential enemies with multiple dilemmas across the operational 
dimensions--complicating their plans, dividing their focus, and 
increasing their chances of miscalculation.
    In future joint operations, Objective Force units will be capable 
of directing major operations and decisive land campaigns with Army 
headquarters. Objective Force headquarters at all levels will provide 
the Joint Force Commander (JFC) with seamless, joint battle command and 
decision superiority. The modularity and scalability of our Objective 
Force formations will provide an unprecedented degree of flexibility 
and adaptability to the Combatant Commander--providing the right force 
at the right time for decisive outcomes.
                   people--our most valuable resource
    The Army Vision begins and ends talking about people. People are 
central to everything else we do in The Army. Platforms and 
organizations do not defend this Nation; people do. Units do not train, 
stay ready, grow and develop leadership--they do not sacrifice and take 
risks on behalf of the Nation. People do. Institutions do not 
transform; people do. People remain the engine behind all of our 
magnificent moments as an Army, and the well-being of our people--the 
human dimension of our Transformation--is inextricably linked to Army 
readiness.
    In our Vision, we recommitted ourselves to doing two things well 
each and every day--training Soldiers and civilians and growing them 
into competent, confident, disciplined, and adaptive leaders who 
succeed in situations of great uncertainty. We are dedicated to 
preparing our Soldiers to lead joint formations, to enabling our 
headquarters to command and control joint forces, and to providing to 
those joint formations the capabilities only The Army can bring to the 
fight: the ability to control terrain and populations.
Manning the Force
    The objective of our manning strategy is to ensure we have the 
right people in the right places to fully capitalize on their 
warfighting expertise--this is The Army's commitment to the Nation, 
Army leaders, Soldiers, and our families. Correctly manning our units 
is vital to assuring that we fulfill our missions as a strategic 
element of national policy; it enhances predictability for our people; 
and it ensures that leaders have the people necessary to perform their 
assigned tasks. In fiscal year 2000, we implemented a strategy to man 
our forces to 100 percent of authorized strength, starting with 
divisional combat units. The program expanded in fiscal year 2001 and 
fiscal year 2002 to include early deploying units. In fiscal year 2002, 
we maintained our manning goals and continued to fill our Divisions, 
Armored Cavalry Regiments, and selected Early Deploying Units to 100 
percent in the aggregate, with a 93 to 95 percent skill and grade-band 
match. We remain on target to accomplish our long-term goal of filling 
all Army units to 100 percent of authorized strength.
Recruiting and Retaining the Force
    In 1999, The Army missed its recruiting goals for the Active 
Component (AC) by about 6,300 inductees, and for the Reserve Component 
by some 10,000. Our recruiting situation was simply unacceptable, and 
we committed ourselves to decisive steps and reversed that trend.
    In fiscal year 2002, The Active Component achieved 100 percent of 
its goal in recruiting and retention--for the third consecutive year. 
The Army exceeded its AC 79,500 enlisted accession target in fiscal 
year 2002 and exceeded our aggregate fiscal year 2002 retention 
objective of 56,800 Soldiers in all three categories by 1,437. We are 
poised to make the fiscal year 2003 accession target of 73,800, and we 
expect to meet our Active Component fiscal year 2003 retention target 
of 57,000. The fiscal year 2004 accession target is set at 71,500.
    The Army Reserve has met mission for the last two years, and its 
recruiting force is well structured to meet fiscal year 2004 
challenges. The Army Reserve continues to maintain a strong Selected 
Reserve strength posture at 205,484 as of January 17, 2003--over 100.2 
percent of the fiscal year 2003 End Strength Objective. Overcoming many 
recruiting and retention challenges in fiscal year 2002, the Army 
National Guard (ARNG) exceeded endstrength mission, accessions were 
104.5 percent of goal, and we exceeded reenlistment objectives.
    To ensure that we continue to recruit and retain sufficient 
numbers, we are monitoring the current environment--the global war on 
terrorism (GWOT) and frequent deployments--to determine impact on 
morale, unit cohesiveness, combat effectiveness, and support of Well-
Being programs that draw quality people to The Army. We continue to 
examine innovative recruiting and retention initiatives. The challenges 
we face in fiscal year 2003 and 2004 are two-fold: increase recruiter 
productivity and recruiting resources necessary to maintain recruiting 
momentum when the economy becomes more robust. Resourcing recruiting 
pays dividends well beyond accessions in the year of execution. For 
example, Army advertising in fiscal year 2002 influenced not only 
fiscal year 2002 accessions, but also potential recruits who will be 
faced with enlistment decisions in fiscal year 2003 and beyond.
               reserve component full-time support (fts)
    Today, more than 50 percent of our Soldiers are in the Reserve 
Component (RC). The GWOT and Homeland Defense are significant 
undertakings that demand a high level of resourcing. The RC has been 
key to our success in these operations. To ensure The Army's RC 
continues to meet ever-increasing demands with trained and ready units, 
The Army plans to increase Full-Time Support authorizations 2 percent 
each year through fiscal year 2012, increasing the FTS from the current 
level of 69,915 to a level of 83,046. The Army recognizes additional 
Full-Time Support authorizations as the number one priority of the Army 
National Guard and Army Reserve leadership.
                           civilian component
    As a comprehensive effort to consolidate, streamline, and more 
effectively manage the force, The Army has begun an initiative to 
transform our civilian personnel system. High quality, well-trained 
civilians are absolutely essential to the readiness of our force and 
our ability to sustain operations today and in the future. Recruiting, 
training, and retaining a highly skilled, dedicated civilian workforce 
is critical in meeting our obligations to the Combatant Commanders and 
the Nation. Aggressive transformation of our civilian force--in which 
projections through fiscal year 2005 indicate a 16 percent annual 
turnover due to retirements and other losses--will ensure we continue 
to meet those obligations.
    As of fiscal year 2002, The Army employed 277,786 civilian 
personnel. To forecast future civilian workforce needs with precision, 
we developed the Civilian Forecasting System, a sophisticated 
projection model that predicts future civilian personnel requirements 
under various scenarios. The Army is working closely with the Office of 
the Secretary of Defense (OSD) and other federal agencies to 
demonstrate the power of this system so they can fully leverage its 
capabilities, as well.
    The Civilian Personnel Management System XXI (CPMS XXI) has 
identified the reforms necessary to hire, train, and grow a civilian 
component that supports the transforming Army. To achieve this, we have 
redefined the way civilians are hired, retained, and managed. Mandatory 
experiential assignments will become the vehicle by which we develop 
future leaders. CPMS XXI fully responds to current mandates in the 
President's Management Agenda and incorporates the results of the Army 
Training and Leader Development Panels. For example, two initiatives 
for recruiting well-trained civilians are:
  --The Army Civilian Training, Education, and Development System--a 
        centrally managed program that accesses and trains civilian 
        interns and grows a resource pool of personnel who can accede 
        to senior professional positions.
  --The DOD Appropriations Act for fiscal year 2002 and fiscal year 
        2003 provided Direct Hire Authority for critical, hard-to-fill 
        medical health care occupations and enabled the reduction in 
        average fill-time for these positions to 29 days.
                            army well-being
    The readiness of The Army is inextricably linked to the well-being 
of our people, and Army Well-Being is the human dimension of our 
Transformation. Well-Being responds to the physical, material, mental, 
and spiritual needs of all Army people--Soldiers, civilians, retirees, 
veterans, and their families. We recognize the fundamental relationship 
between Well-Being programs and institutional outcomes such as 
readiness, retention, and recruiting. To support mission preparedness 
as well as individual aspirations, Well-Being integrates policies, 
programs, and human resource issues into a holistic, systematic 
framework that provides a path to personal growth and success and gives 
our people the opportunity to become self-reliant. We recruit Soldiers, 
but we retain families--Well-Being programs help make The Army the 
right place to raise a family. And when our families are cared for, 
Soldiers can better focus on their mission--training, fighting, and 
winning our Nation's wars, decisively.
    Soldiers appreciate the Nation's devotion to them, and they are 
grateful for the country's recognition of their service and sacrifices. 
Recent improvements to the Montgomery GI Bill, Tricare for Life, 
Tricare Reform, Retired Pay Reform, the 4.1 percent general pay 
increase, and additional pay increases in 2003, are all important to 
Soldiers and their families. These initiatives have helped The Army 
respond to the well-being needs of our people. Army voluntary education 
programs improve our combat readiness by expanding Soldier skills, 
knowledge, and aptitudes to produce confident, competent leaders. Other 
Well-Being initiatives include:
  --Spouse Employment Summit.--The Army is developing partnerships with 
        the private sector to enhance employment opportunities for Army 
        spouses and provide improved job portability for them.
  --Spouse Orientation and Leader Development (SOLD).--SOLD connects 
        Army spouses and enhances their opportunity to serve as valued 
        leaders who contribute to the readiness and future of The Army 
        and our Nation.
  --Army University Access Online.--Army offers Soldiers access to a 
        variety of on-line, post-secondary programs and related 
        educational services. www.Army.com is a comprehensive web-
        portal widely accessible to Soldiers, including those in 
        Afghanistan, Bosnia, and Kuwait.
  --In-State Tuition.--To level the playing field for access to 
        education opportunities, The Army is working to encourage 
        states to grant in-state status for military personnel and 
        families at public colleges and universities in their Soldier's 
        state of legal residence and state of assignment.
  --High School Senior Stabilization.--This policy enhances 
        predictability by allowing families to request stabilization at 
        their sponsor's current duty location if they have a child who 
        will graduate from high school during that year.
  --Secondary Education Transition Study (SETS) Memorandum of Agreement 
        (MOA).--Facilitated by The Army, this agreement among 
        participating school superintendents is their commitment to 
        partner and improve high school transitions for DOD children. 
        Currently, over 110 school superintendents have signed the SETS 
        MOA.
   leader development--training soldiers and civilians, and growing 
                                leaders
    The Army is a profession--the Profession of Arms. Conducting 
decisive ground combat operations in defense of the United States and 
its interests is a core competency of this profession. The development 
of each member of The Army is the foundation of lifelong devotion to 
duty--while in uniform and upon returning to the civilian sector.
    By its nature, our profession is extraordinarily complex and 
dangerous. The American people entrust The Army with the sacred 
responsibility to apply lethal force in defense of U.S interests. As 
such, the Profession of Arms must remain firmly grounded in 
constitutional values and must constantly change and grow to preserve 
its competitive advantage in an evolving strategic environment. At all 
levels, our leaders--military and civilian--must apply their 
professional knowledge in increasingly varied and unique situations 
that are characteristic of today's strategic environment. Ultimately, 
we must grow professional Army leaders who provide wise and discerning 
military judgments founded on long experience and proven professional 
expertise. This capacity is developed only through a lifetime of 
education and dedicated service--in peace and in war.
    Soldiers serve the Nation with the full realization that their duty 
may require them to make the supreme sacrifice for others among their 
ranks. Soldiers fighting the war on terrorism today, those who will 
fight our future wars, and those who have fought in our past wars are 
professional warfighters and a precious national asset. To ensure we 
remain the greatest landpower in the world defending the greatest 
country in the world, The Army and the Nation rely upon their unique 
and hard-earned experiences and skills. To develop the operational 
skills required to defend the Nation, training must remain our number 
one priority.
    The evolving strategic environment, the gravity of our 
responsibilities, and the broad range of tasks The Army performs 
require us to review and periodically update the way we educate, train, 
and grow professional warfighters. The Army's strategic 
responsibilities to the Nation and Combatant Commanders now embrace a 
wider range of missions. Those missions present our leaders with even 
greater challenges than previously experienced. Therefore, leader 
development is the lifeblood of the profession. It is the deliberate, 
progressive, and continuous process that trains and grows Soldiers and 
civilians into competent, confident, self-aware, and decisive leaders 
prepared for the challenges of the 21st Century in combined arms, 
joint, multinational, and interagency operations.
    In June 2000, we convened the Army Training and Leader Development 
Panel (ATLDP). The ATLDP's purpose is to identify skill sets required 
of Objective Force Soldier and civilian leaders. Further, ATLDP 
assesses the ability of current training and leader development systems 
and policies to enhance these required skills. In May 2001, The Army 
Training and Leader Development Panel Phase I (Officer Study) 
identified seven strategic imperatives and generated 89 
recommendations. With those, we validated the requirement to transform 
our Officer Education System (OES)--from the Officer Basic Course 
through the Command and General Staff Officer Course. Additionally, the 
panel reconfirmed the value of Joint Professional Military Education II 
(JPME II) in preparing our leaders for joint assignments. The most 
significant product of the officer ATLDP is our OES Transformation.
    ATLDP Phase I (Officer Study) identified three high-payoff 
institutional training and education initiatives for lieutenants, 
captains, and majors. The first of these is the Basic Officer Leader 
Course (BOLC). BOLC will provide a tough, standardized, graduate-level, 
small-unit leadership experience for newly commissioned officers. The 
second of these initiatives is the Combined Arms Staff Course for staff 
officers, and the Combined Arms Battle Command Course for company 
commanders. Both courses will capitalize on advanced distributed 
learning and intensive resident training methods. The third initiative, 
Intermediate Level Education (ILE), will provide all majors with the 
same common core of operational instruction, and it will provide 
additional educational opportunities that are tailored to the officer's 
specific career field, branch, or functional area. Beyond ILE, Army 
officers continue to attend Joint or Senior Service Colleges to develop 
leader skills and knowledge appropriate to the operational and 
strategic levels of the profession.
    Completed in May 2002, the ATLDP Phase II (NCO Study) resulted in 
78 findings and recommendations extending across six imperatives--Army 
culture, NCO Education Systems (NCOES), training, systems approach to 
training, training and leader development model, and lifelong learning. 
Among others, the ATLDP Phase II recommended building new training and 
leader development tools for NCOs to replace current methods, as 
required. The ATLDP Phase III (Warrant Officer Study) culminated with 
63 recommendations extending across four crucial imperatives. 
Recommendations included clarifying the warrant officer's unique role 
in The Army and improving the Warrant Officer Education System to 
ensure timely training and promotion. The Civilian Training and Leader 
Development Panel (Phase IV) study results are complete, and we are 
forming the Implementation Process Action Team (I-PAT). I-PAT will 
identify actions The Army must take to increase the professional 
development of our civilian workforce. At the senior leader level, The 
Army initiated the Army Strategic Leadership Course (ASLC). The program 
is aimed at teaching principles of strategic leadership, with emphasis 
on visioning, campaign planning, leading change, and Transformation. To 
date, we have completed twelve of the foundation courses and three 
alumni courses, training the majority of The Army's general officers.
                  readiness--winning our nation's wars
Homeland Security (HLS)
    Defending our Nation--abroad and at home--against foreign and 
domestic threats is fundamental to The Army's legacy, and our 
warfighting focus provides capabilities relevant to HLS requirements. 
HLS missions range from traditional warfighting competencies that 
defeat external threats to the non-combat tasks associated with 
supporting civil authorities in domestic contingencies. Operation Noble 
Eagle mobilized over 16,000 Army National Guard Soldiers to protect 
critical infrastructure. These Soldiers assisted the Department of 
Transportation in securing our Nation's airports while also playing a 
vital role in securing our Nation's borders. The Army is moving forward 
to provide one Civil Support Team to each state, as required by the 
National Defense Authorization Act for fiscal year 2003. The Civil 
Support Teams support Incident Commanders and identify Chemical, 
Biological, Radiological, Nuclear, and Explosive (CBRNE) agents and 
substances, assess current and projected consequences, advise on 
response measures, and assist with appropriate requests for additional 
support. To date, OSD has certified 30 of 32 teams, and The Army is 
working to establish additional teams. Collectively, the certified 
teams have performed 890 operational missions since September 11, 2001. 
The Army remains committed to HLS, dedicating Active Component (AC) and 
Reserve Component (RC) staffs to focus on training, doctrine, planning, 
and execution of DOD missions in support of civil authorities.
Missile Defense
    Robust Missile Defense is a vital warfighting requirement that 
protects both our homeland and our deployed forces. Missile Defense 
includes far more than a reactive capability to shoot down missiles in 
their reentry phase. Missile Defense requires a coherent system of 
sensors; battle command; weapons systems; and active, passive, 
proactive, and reactive operational concepts, all aimed at destroying 
enemy missiles--not only during their reentry phases. Missile Defense 
must also be able to destroy enemy missiles on the ground, before they 
launch or during their boost phase once launched. Missile Defense is 
inherently a joint capability to which The Army is a major contributor.
    The Army is deploying and employing Ground Mobile Defense assets to 
contribute to this warfighting capability, accelerating the fielding of 
the Patriot Advanced Capability 3 (PAC3) system, and developing 
directed energy weapons that will bring new defense measures to The 
Army and the Nation. We are postured to assume control of the Medium 
Extended Air Defense System (MEADS) program in fiscal year 2003 and 
intend to begin fielding by fiscal year 2012.
    MEADS is a transformational program of Objective Force quality and 
a significant improvement on Patriot's capabilities. It will be more 
mobile and more deployable (C-130 capable) than Patriot and cover a 
360-degree radius to Patriot's 120 degrees. It will be effective 
against low radar, cross section cruise missile targets; and require 
only 30 percent of Patriot's manpower. And MEADS will be more accurate 
and more sustainable than Patriot.
Chemical Demilitarization
    In Section 1412 of Public Law 99-145, Congress directed the DOD to 
destroy the United States' chemical weapons stockpile. In turn, the 
Secretary of Defense delegated management of all chemical munitions 
disposal to the Department of the Army. On November 29, 2000, the 
Johnston Atoll Chemical Agent Disposal System, using incineration-based 
technology, completely destroyed the last stockpiles stored at the 
Atoll, and closure operations began in January 2001. The Tooele 
Chemical Agent Disposal Facility has incinerated 44 percent of the 
chemical agents and 81 percent of the munitions stored there. Disposal 
operations at these two sites destroyed 30 percent of the total U.S. 
chemical weapons stockpiles. Construction of incineration facilities at 
Anniston, Alabama; Umatilla, Oregon; and Pine Bluff, Arkansas, is 
complete. Systemization activities are on-going at Aberdeen, Anniston, 
Umatilla, and Pine Bluff. The plan to accelerate the disposal of bulk 
agents using a neutralization process at Aberdeen, Maryland, and 
Newport, Indiana, has been approved. Anniston and Aberdeen are 
scheduled to start destruction in second quarter fiscal year 2003, and 
Newport is scheduled to begin in first quarter fiscal year 2004.
    To comply with treaty agreements and the Congressional mandate, we 
must complete the destruction of these weapons by 2007. The treaty 
allows for a one time, five-year extension to this deadline. With 
continued funding and minimal schedule changes, we will safely destroy 
the U.S. stockpile of lethal chemical agents and munitions at eight 
existing CONUS sites.
Training the Force
    In October 2002, The Army released Field Manual (FM) 7-0, Training 
the Force. Synchronized with other field manuals and publications being 
updated to respond to changes in Army, joint, multinational, and 
interagency operations, FM 7-0 is the capstone doctrinal manual for 
Army training and leader development. It provides the developmental 
methodology for training and growing competent, confident Soldiers, and 
it addresses both current and future Objective Force training 
requirements.
    We are transforming the way we fight future wars, and The Army is 
participating fully in a DOD-sponsored program to transform how forces 
train to fight. This effort involves four major initiatives: building 
upon existing service interoperability training; linking component and 
joint command staff planning and execution; enhancing existing joint 
training exercises to address joint interoperability; and studying the 
requirement for dedicated joint training environments for functional 
warfighting and complex joint tasks. The Army is scheduled to host the 
first joint National Training Center (NTC) event at Fort Irwin, 
California, in May 2003. During June 2003, the U.S. Army Forces Command 
will execute the second joint NTC event--JCS exercise Roving Sands.
    During the late 1990s, funding for the recapitalization and 
modernization of The Army's Combat Training Centers was reduced, 
eroding their capability to support their critical missions. 
Additionally, the Multiple Integrated Laser Engagement System equipment 
and current force instrumentation systems have become difficult to 
maintain. The Army's Combat Training Center modernization program will 
ensure that our premier training areas (NTC at Fort Irwin, Combat 
Maneuver Training Center in Germany, the Joint Readiness Training 
Center (JRTC) at Fort Polk, and the Deep Attack Center of Excellence 
near Gila Bend, Arizona) are modernized to provide high quality, 
realistic, full-spectrum joint training. To address these problems, The 
Army will invest nearly $700 million over the next six years to 
modernize these training centers.
OPTEMPO
    In accordance with Congressional directives, The Army developed a 
new methodology to prepare budget requests that accurately reflect 
Operations and Maintenance requirements. In the report submitted in 
July 2002, The Army outlined updated processes that ensure consistency 
in reporting of tank miles and reflect requirements and execution with 
more precision. Management controls initiated in fiscal year 2001 to 
prevent migration of OPTEMPO funds to other areas were highly 
successful and remain in effect.
    The Army's combined arms training strategy determines the 
resourcing requirements to maintain the combat readiness of our forces. 
For the Active Component, The Army requires 800 ground OPTEMPO miles 
per year for the M1 Abrams tank and corresponding training support; the 
Active Component flying hour program requires an average of 14.5 live 
flying hours per aircrew each month. Both Army National Guard and the 
Army Reserve aircrew training strategies require 9.0 hours per crew 
each month. The ARNG ground OPTEMPO requirement is a composite average 
of 174 miles in fiscal year 2004, and the Army Reserve (USAR) ground 
OPTEMPO requirement is 200 tank-equivalent miles in fiscal year 2004.
    While this describes The Army's training strategy, actual execution 
levels from unit to unit have varied depending upon factors such as on-
going operations, safety of flight messages, and adequate manning of 
combat formations. To this end, The Army has fully funded its AC ground 
OPTEMPO requirement, while its AC flying program is funded to its 
historical execution level of 13.1 flying hours. The RC air and ground 
OPTEMPO are similarly funded to their execution levels, rather than 
their requirement. Although The Army has not always been able to 
execute the training strategy, we have taken steps to have all units 
execute the prescribed training strategy in fiscal year 2003, fiscal 
year 2004, and beyond.
Force Protection and Anti-terrorism
    Force protection consists of those actions to prevent or mitigate 
hostile actions against Department of Defense personnel and includes 
family members, resources, facilities, and critical information. In the 
war on terrorism, the area of operations extends from Afghanistan to 
the East Coast and across the United States. Naturally, Force 
Protection and Antiterrorism measures have increased across Army 
installations in the Continental United States (CONUS) and overseas.
    Findings from the Cole Commission, the Downing Report on the Khobar 
Towers bombing, and Army directives to restrict access to installations 
have all led to thorough assessments by the Department of the Army 
Inspector General, the Deputy Chief of Staff for Operations, and 
commanders. Our efforts focus on improved force protection policy and 
doctrine; more rigorous training and exercises; improved threat 
reporting and coordination with national intelligence and law 
enforcement agencies; enhanced detection and deterrence capabilities 
for Chemical, Biological, Radiological, Nuclear, and Explosive (CBRNE) 
threats; increased capabilities and protection for access control; and 
expanded assessments of Major Commands (MACOM) and installation force 
protection programs. Both operational and installation environments 
rely upon secure, networked information infrastructure to execute daily 
enterprise-wide processes and decision-making, so the parameters of 
force protection include contemporary and evolving cyber threats, as 
well.
    The Army's Information Systems Security Program (ISSP) secures The 
Army's portion of the Global Information Grid, secures the digitized 
force, and supports information superiority and network security 
defense-in-depth initiatives. ISSP provides the capability to detect 
system intrusions and alterations and react to information warfare 
attacks in a measured and coordinated manner. To the greatest extent 
possible, it protects warfighters' secure communications--from the 
sustaining base to the foxhole.
    Soldiers, Active and Reserve, are heavily engaged in force 
protection and anti-terrorism missions. Soldiers guard military 
installations, nuclear power plants, dams and power generation 
facilities; tunnels, bridges, and rail stations; and emergency 
operations centers. During the 2002 Winter Olympics in Salt Lake City, 
Utah, nearly 1,500 ARNG Soldiers provided security, and Soldiers 
guarded key infrastructure sites during Super Bowl XXXVII in January 
2003. Over 12,500 Reserve Component Soldiers are currently mobilized 
for Operation Noble Eagle to fulfill Force Protection requirements, and 
in February 2003, over 8,000 Army National Guard Soldiers will support 
Air Force security requirements--a requirement that could reach 9,500 
Soldiers. Security of detention facilities and detainees at Guantanamo 
Bay Detention--a long-term detainee mission--requires approximately 
1,500 Army personnel, 50 percent of whom are Military Police. Army 
Reserve Internment and Resettlement battalions on 6-month rotations 
impact military police availability to CONUS Force Protection 
requirements.
Sustainment
    The Army is revolutionizing its logistics process. One initiative, 
the Single Stock Fund (SSF), redirected more than $540 million worth of 
secondary items from stocks to satisfy customer demands between May 
2000--SSF inception--and November 2002. During that same period, we 
redistributed more than $218 million worth of secondary items from the 
authorized stockage levels to meet higher priority readiness 
requirements. By extending national visibility of stockage locations 
and capitalizing inventories into the Army Working Capital Fund, we 
reduced customer wait time by an average of 18.5 percent. The SSF will 
continue to reduce inventory requirements and generate even more 
savings for The Army by creating greater flexibility for the management 
of inventories.
    Another initiative, the National Maintenance Program (NMP), 
enhances weapon system readiness, reliability, and availability rates 
by bringing Army Class IX repair parts to a single national standard. 
Ultimately, increased reliability will reduce overall weapon system 
Operating and Support cost. Additionally, the NMP centralizes the 
management and control of Army maintenance activities for components 
and end items. NMP will produce appropriately sized Army maintenance 
capacity that still meets total maintenance requirements.
Strategic Readiness Reporting
    The National Defense Authorization Act for fiscal year 1999 
requires the Secretary of Defense to implement a comprehensive 
readiness reporting system that objectively measures readiness to 
support the NSS. The Army's Strategic Readiness System (SRS) responds 
to and provides a baseline in achieving this critical initiative.
    SRS is a precision readiness measurement tool that provides Army 
leadership with accurate, objective, predictive, and actionable 
readiness information to dramatically enhance resource management 
toward one end--strategic readiness to defend the United States. The 
Army Scorecard--a product of SRS--will integrate readiness data from 
the business arena and the operating, generating, and sustaining forces 
of both the Active and Reserve Component. Army Scorecard methodology 
focuses on four critical areas: People--investing in Soldiers and their 
families; Readiness--maintaining the support capability to the 
Combatant Commanders' operational requirements; Transformation--
transforming The Army into the Objective Force; and application of 
sound business practices.
    SRS markedly improves how we measure readiness. It gathers timely 
information with precision and expands the scope of the data 
considered. We are further developing this system to leverage leading 
indicators and predict trends--solving problems that affect readiness 
before they become problems, from well-being to weapons platforms. SRS 
will help enable The Army preserve readiness to support Combatant 
Commanders, invest in Soldiers and their families, identify and adopt 
sound business practices, and transform The Army to the Objective 
Force.
Installations
    Army installations are our Nation's power projection platforms, and 
they provide critical training support to The Army and other members of 
the joint team. Additionally, Soldiers, families, and civilians live 
and work on Army installations. The quality of our infrastructure 
directly affects the readiness of The Army and the well-being of our 
Soldiers, families, and civilians.
    The Army has traditionally accepted substantial risk in 
infrastructure to maintain its current warfighting readiness. However, 
a decade of chronic under funding has led to a condition in which over 
50 percent of our facilities and infrastructure are in such poor 
condition that commanders rated them as ``adversely affecting mission 
requirements.'' Our facilities maintenance must improve. Over the past 
two years, with the help of the Administration and Congress, The Army 
has begun to rectify this situation with significant increases in 
funding and innovative business practices. These efforts have been 
dramatically successful as we continue to correct a problem that was 10 
years in the making. Thus, in an effort to prevent future degradation 
of our facilities, The Army has increased its funding for facilities 
sustainment to 93 percent of requirement beginning in fiscal year 2004.
Transformation of Installation Management (TIM)
    Recognizing the requirement to enhance support to commanders, the 
Secretary of the Army directed the reorganization of The Army's 
management structure. On October 1, 2002, The Army placed the 
management of Army installations under the Installation Management 
Agency (IMA). IMA is a new field-operating agency of the Assistant 
Chief of Staff for Installation Management (ACSIM). Its mission is to 
provide equitable, efficient, and effective management of Army 
installations worldwide to support readiness; enable the well-being of 
Soldiers, civilians and family members; improve infrastructure; and 
preserve the environment. This new management approach eliminates the 
migration of base operations funds to other operational accounts below 
the HQDA level. It also enables the development of multi-functional 
installations to support evolving force structure and Army 
Transformation needs. The Army is poised to capitalize on opportunities 
TIM gives us to provide excellence in installations.
    Two programs that significantly increase the well-being of our 
Soldiers and their families are the Barracks and the Family Housing 
programs. The Army established the Barracks Upgrade Program (BUP) in 
the late 1990's to improve single Soldiers' housing conditions. Through 
2002, we have upgraded or funded-for-upgrade 70 percent of our 
permanent party barracks to Soldier suites that consist of two single 
bedrooms with a shared bath and common area. The Army will continue the 
BUP until all permanent party barracks achieve this standard.
    With the strong support of Congress, The Army established the 
Residential Communities Initiative (RCI) for our families. This program 
capitalizes on commercial expertise and private capital to perform a 
non-core function for The Army--family housing management. The program 
provides greater value to The Army by eliminating the housing deficit 
at our first eleven sites, while leveraging a $209 million Army 
investment into $4.1 billion of initial private development. The Army's 
privatization program began with four pilot projects and will expand to 
18 active projects by the end of fiscal year 2003. Pending OSD and 
Congressional approval, 28 projects are planned through 2006 that will 
impact over 72,000 housing units or 80 percent of Army Family Housing 
in the United States. By the end of 2007, we will have the programs and 
projects in place to meet the OSD goal of eliminating inadequate family 
housing. We will accomplish this goal through RCI and increased Army 
investment in family housing Military Construction (MILCON) at non-
privatized installations. The Reserve Component (RC) enhances RCI 
through real property exchange authority that is only available to the 
RC. This legislative authority allows the exchange of RC owned property 
with public or private entities and has a tremendous potential to 
improve future Reserve Component infrastructure at no governmental 
cost.
    The Army has also aggressively reduced its financial burden and 
physical footprint by disposing of 34 percent of its facilities from a 
1990 high of 116 billion square feet. The Army anticipates that the 
Congressional fiscal year 2005 Base Realignment and Closure (BRAC) 
authority will permit additional appropriate reductions. BRAC will 
enable The Army to dispose of excess infrastructure and realign the 
remaining facilities with the requirements of the transforming Army and 
the Objective Force. BRAC will also allow The Army to re-allocate 
resources from closed or realigned installations to other high priority 
requirements.
    The Army continues to improve its utilities infrastructure by 
divesting itself of non-core utility systems' operation and maintenance 
through privatization. As of December 2002, we had privatized 64 of the 
351 systems in the program, and we have an additional 104 presently 
under negotiation.
    As part of our Army Knowledge Management (AKM)--described later in 
more detail--we are modernizing our Installation Information 
Infrastructure--infostructure--to support a network centric, knowledge-
based Army. The Installation Information Infrastructure Modernization 
Program (I\3\MP) executes a multi-year, $3.2 billion program for 
upgrades to optical fiber and copper cable, installation of advanced 
digital equipment, and upgrades to Defense Global Information Grid 
gateways. This program will ensure worldwide, high-speed data 
connectivity at Army installations. To date, we have completed 22 of 95 
CONUS installations and initiated upgrades at four installations 
outside of the continental United States (OCONUS). We plan to complete 
I\3\MP in 2009.
Transformation--Changing the Way we Fight
    The Army is fundamentally changing the way we fight and creating a 
force more responsive to the strategic requirements of the Nation. We 
are building a joint precision maneuver capability that can enter a 
theater at the time and place of our choosing, maneuver at will to gain 
positional advantage, deliver precise joint fires and, if necessary, 
close with and destroy the enemy.
    The Objective Force is an army designed from the bottom up around a 
single, networked, integrated C\4\ISR architecture that will link us to 
joint, interagency, and multi-national forces. It will be a rapidly 
deployable, mounted formation, seamlessly integrated into the joint 
force and capable of delivering decisive victory across the spectrum of 
military operations. Consolidated, streamlined branches and military 
operational specialties comprised of professional warfighters will be 
poised to transition rapidly from disaster relief to high-end 
warfighting operations.
    The Objective Force and its Future Combat System of Systems will 
leverage and deliver with precision the combat power of joint and 
strategic assets. It is a capabilities-based force that rapidly 
responds to the requirements of the strategic environment in which our 
Soldiers will be the most strategically relevant and decisively capable 
landpower--no matter the mission, no matter the threats, no matter the 
risks.
    In the final analysis, The Army's combat power does not wear tracks 
or wheels--it wears boots. No platform or weapon system can match a 
Soldier's situational curiosity and awareness. It is the Soldiers' 
ability to discern and to think, their ingenuity and resourcefulness, 
their endurance and perseverance, and their plain grit that make them 
the most reliable precision weapon in our inventory. Soldiers remain 
the centerpiece of our formations.
    To help guide our Transformation efforts, The Army leverages 
lessons-learned from extensive experimentation and wargaming. We are 
working to harness the power of knowledge, the benefits of science and 
technology, and innovative business solutions to transform both the 
Operational and Institutional Army into the Objective Force. The Army's 
annual Title 10 Wargames provide critical insights for developing the 
Objective Force. Likewise, results from joint experiments--Millennium 
Challenge 2002 and other service Title 10 Wargames like Global 
Engagement, Navy Global, and Expeditionary Warrior, to name a few--also 
inform these efforts.
    The Army is fully committed to joint experimentation as a means to 
examine and assess Objective Force contributions to the strategic, 
operational, and tactical levels of joint warfare. The Army has 
established a joint/Army Concept Development and Experimentation (CD&E) 
Task Force to ensure that Army CD&E efforts are synchronized with joint 
CD&E. This task force makes certain that joint experiment lessons-
learned inform the design and development of the Objective Force. This 
year, The Army's Title 10 Wargame--co-hosted by Commander, Joint Forces 
Command--will focus on the Joint Force that will fight the next battle. 
Linked to Joint Forces Command's Pinnacle Impact 03 experiment, it will 
be conducted within the context of a future 1-4-2-1 global scenario and 
the emerging Joint Operations Concept. The Army is committed to these 
efforts, and in this budget we have nearly doubled last year's funding 
of these exercises.
    Joint, interagency, multinational, and Army warfighting experiments 
provide invaluable opportunities for The Army to experiment with 
innovative approaches to warfighting and to test new tactics, 
techniques, procedures, organizations, processes, and technology. In 
Millennium Challenge 2002, the largest joint experiment in U.S. 
history, The Army demonstrated four vital capabilities it brings to the 
joint fight: the ability to attain and maintain information superiority 
(knowledge); the ability to conduct decisive maneuver to enable 
dominant joint maneuver; the ability to defeat the opposition in an 
anti-access environment through rapid entry and employment 
capabilities; and the ability to support and sustain rapid combat power 
efficiently by reducing the operational and tactical logistics 
footprint
    To evaluate the effectiveness of the Stryker Brigade Combat Team 
(SBCT) concepts for battalion and company operations in a Joint Force, 
The Army employed a SBCT unit during Millennium Challenge. Less than 
four weeks after Stryker vehicles were delivered to the first unit at 
Fort Lewis, the unit demonstrated rapid air and sealift deployability 
and integrated into the exercise well. Additionally, when given a 
mission on short notice to support a Marine Corps unit in ground 
operations, the SBCT unit demonstrated its agility and versatility.
Balancing Risk as we Manage Change
    Balancing risk is integral to Army Transformation. To maintain 
current readiness while we transform, we are managing operational risk: 
risk in current readiness for near-term conflicts with future risk--the 
ability to develop new capabilities and operational concepts that will 
dissuade or defeat mid- to long-term military challenges. The Army has 
accepted risk in selective modernization and recapitalization, and we 
continue to assess these risks as we balance current readiness, the 
well-being of our people, Transformation, the war on terrorism, and new 
operational commitments. Since 1999, The Army has terminated 29 
programs and restructured 20 others for a total savings of $12.8 
billion. These funds were reallocated to resource the Stryker Brigades 
and essential Objective Force research and development.
    In Program Budget 2004 and its associated Five-Year Defense Plan 
(FYDP), The Army has generated an additional $22 billion of savings by 
terminating 24 additional systems and reducing or restructuring 24 
other systems. To accelerate achieving the Objective Force capabilities 
and mitigating operational risk, The Army reinvested these savings in 
the development of transformational capabilities in these and other 
programs:
  --Future Combat System--$13.5 billion
  --Precision Munitions--$3.2 billion
  --Sensors and Communications--$2.3 billion
  --Science and Technology--$1.1 billion
  --Missile and Air Defense--$1.1 billion.
    The operational risk associated with the decreased funding for 
certain current programs is acceptable as long as we field Stryker 
Brigades on schedule and accelerate the fielding of the Objective Force 
for arrival, this decade. We will continue to reassess the risk 
associated with system reductions and related organizational changes 
against operational requirements and the strategic environment.
An Information Enabled Army
    Achieving the full spectrum dominance of the Objective Force 
requires changing the way we fight. Changing the way we fight requires 
a holistic transformation of Logistics, Personnel, Installation 
Management, Acquisition, Aviation, business practices--every aspect of 
The Army must transform. The Objective Force requires innovative 
changes and out-of-the-box ingenuity in the way we take care of our 
people and manage the information and material that enhances their 
readiness and answers their needs--both personal and professional, at 
home and in the short sword warfight at foxhole level. Simply put, we 
cannot achieve the Objective Force capabilities without leveraging the 
full potential of the technological advances that our Nation's 
industrial base and science and technology communities are developing. 
The Army has consolidated management of Information Technologies (IT) 
into a single effort--Army Knowledge Management (AKM). AKM capitalizes 
on IT resources unique to our Nation and harnesses them for 
Transformation, for The Army, and for the Combatant Commanders.
    Information management is critical to achieving The Army Vision, 
and Army Knowledge Management supports Transformation through the 
development and implementation of a network-centric, knowledge-based 
Army architecture interoperable with the joint system. AKM will 
accelerate the Detect-Decide-Deliver planning processes and enable 
warfighters to see the adversary first--before our forces are detected; 
understand the Common Relevant Operating Picture first; act against 
adversaries first; and finish the warfight with decisive victories--see 
first, understand first, act first, finish decisively. AKM will provide 
knowledge at the point of decision for all leaders--from the factory to 
the foxhole.
    Enabling collaborative mission planning and execution among widely 
dispersed locations around the globe, Army Knowledge Management will 
provide a rapid and seamless flow and exchange of actionable 
information and knowledge. The Network-centric operations that AKM 
enables will decrease our logistic footprint and enhance sustainability 
of the Objective Force through multi-nodal distribution networks--
reaching forward to the theater and back to installations. Advanced 
information technologies will dramatically enhance Battle Command. 
Command, Control, Communications, and Computer (C\4\) decision tools 
seamlessly linked to Intelligence, Surveillance, and Reconnaissance 
(ISR) assets produce a radically improved Common Relevant Operating 
Picture (CROP) and enable Battle Command.
    AKM will dramatically enhance the warfighter's ability to 
distribute, process, fuse, and correlate unprecedented amounts of 
actionable data into information--securely, reliably, and quickly 
enough to enable leaders to synchronize and mass effects for decisive 
results. Network-centric operations enable information awareness, 
information access, and information delivery.
    The Army Knowledge Enterprise (AKE) construct describes The Army's 
process to enable improved strategic and tactical information 
distribution and collaboration. In short, AKE leverages the ingenuity 
and resourcefulness of our people in shaping the environment to achieve 
dominance and helps leaders achieve decision superiority and mission 
efficiencies.
    Integration and refinement of existing Army networks is the first 
step in achieving a network-centric, information-enabled force that 
creates efficiencies and provides secure, reliable, actionable 
information communications. To this end, The Army activated the Network 
Enterprise Technology Command (NETCOM). NETCOM is The Army's single 
authority assigned to operate, manage, and defend The Army's 
information infrastructure. NETCOM has assumed technical control of all 
Army networks--Active, Guard, and Reserve. This new policy allows 
NETCOM to evaluate any system, application, or piece of equipment that 
touches The Army Networks. NETCOM will improve the capacity, 
performance, and security of our networks at every level.
    Among others, one tangible product of NETCOM is the consolidation 
and removal of redundant servers across The Army. This example of 
better business practice will harvest significant savings in 
resources--both dollars and managers--while increasing the 
effectiveness of the network. Since the first quarter fiscal year 2002, 
we have reduced the number of servers Army-wide by 16 percent--311 in 
the National Capitol Region alone.
    Army Knowledge Online (AKO) begins to allow The Army to 
decentralize the management of information. AKO is The Army's secure, 
web-based, internet service that leverages The Army's intellectual 
capital to better organize, train, equip, and maintain our force. It 
gives our people a means to collaborate, to improve their situational 
awareness, and to access their personnel data. Already, hard-copy 
processes that formerly took days and weeks can now be accomplished 
almost instantly--from pay to personnel actions to assignments, to name 
a few. And AKO is just an early glimpse of the potential capabilities 
of a Network-centric, knowledge based organization that harnesses the 
potential of the global infostructure.
                            operational army
The Objective Force
    The Army is actively engaged in global operations supporting 
Combatant Commanders today, but it is our obligation to prepare for the 
future, as well. The Objective Force is The Army's future full-spectrum 
force that will be organized, manned, equipped and trained to be more 
strategically responsive, deployable, agile, versatile, lethal, 
survivable and sustainable than we are today--across the full spectrum 
of military operations as an integral member of a cohesive joint team.
    The Nation will continue to face adaptive, asymmetric threats that 
capitalize on the power of information. To dominate and maintain 
superiority over these emerging challenges, The Army is changing the 
way we fight--a paradigm shift more significant than the 20th Century's 
introduction of the tank and the helicopter. The Army is changing from 
sequential and linear operations to distributed and simultaneous 
operations. The Objective Force--characterized by networks of people 
enabled with systems that provide actionable information and decision 
superiority--will dissuade, deter or decisively defeat our adversaries 
anytime, anyplace, and anywhere.
    The Objective Force will consist of command structures scaled to 
meet Joint Force Commander requirements and modular combined-arms units 
tailored according to each situation. Objective Force integrated, 
mobile, air-ground teams will conduct mounted and dismounted operations 
and employ both manned and unmanned platforms to achieve decisive 
victories. Capable of forcible entry and operations in austere 
environments to address the spectrum of military operations--from 
humanitarian assistance to warfighting--the Objective Force will 
conduct simultaneous combat and stability operations and master 
transitions between phases of operations. It will be an offensively 
oriented, multi-dimensional force enabled by advanced information 
technologies that give Soldiers real-time intelligence and actionable 
information.
    The Objective Force will arrive in theater combat capable--
deployment will be synonymous with employment. The Objective Force will 
be strategically responsive and rapidly deployable on the U.S Air Force 
family of inter-theater and intra-theater aircraft. An Objective Force 
Unit of Action (UA) will deploy on approximately one-third the number 
of aircraft required to deploy a heavy brigade combat team today. It 
will be operationally deployable and capable of operational maneuver 
over strategic distances by air, land, or sea. Soldiers will overcome 
anti-access and area denial strategies and environments through 
precision maneuver and decision superiority.
    Equipped with new systems designed to meet the needs of The Army's 
future fighting formations, the Objective Force will be a networked 
system of systems. This system of systems includes Soldiers equipped 
with the Land Warrior system; a family of 18 integrated, synchronized, 
manned and unmanned Future Combat Systems (FCS); and critical 
complementary systems such as the Comanche and the Future Tactical 
Truck System. The components of the FCS are being synchronously 
developed and fielded as a complete family to achieve the warfighting 
capabilities the Nation requires to defeat adaptive, asymmetric 
conventional and unconventional adversaries.
    Soldiers are the centerpiece of The Army's formation--not 
equipment. And Soldiers of the Objective Force will leverage dominant 
knowledge to gain decision superiority over any adversary. They will 
seamlessly integrate Objective Force capabilities with the capabilities 
of joint forces, Special Operations Forces, other federal agencies, and 
multinational forces. The Objective Force Soldiers will enable the 
United States to achieve its national security goals in a crisis, 
rather than simply inflict punitive strikes on an adversary. Employing 
FCS capabilities in formations called Units of Action (UA) and Units of 
Employment (UE), Objective Force Soldiers will provide campaign quality 
staying power--that means precision fire and maneuver to control 
terrain, people, and resources, without having to resort to 
indiscriminate collateral damage. The Land Warrior system will 
integrate individual Soldiers in the network while providing them 
increased protection and lethality. And FCS will give Soldiers the 
capability to destroy any adversary in any weather and environment with 
smaller calibers, greater precision, more devastating target effects, 
and at longer-ranges than available today.
    Joint C\4\ISR--a network-centric information architecture nested 
within the Global Information Grid--will connect the Objective Force's 
system of systems. Capitalizing on the synergistic power of the 
information network enterprise, every Objective Force Soldier and 
platform will be capable of sensing and engaging the enemy while 
maintaining situational awareness of friendly forces. Advanced 
information technologies and C\4\ISR decision tools and assets will 
enhance the Common Relevant Operating Picture (CROP). The Objective 
Force will identify, locate, and engage critical targets with lethal or 
non-lethal affects and assess battle damage on those targets. The joint 
C\4\ISR linkages will enable the attack of targets with whatever joint 
or Army assets are available for immediate employment, whether the 
force is in contact or out of contact. Similarly, enhanced situational 
awareness will facilitate multi-layered active and passive defense 
measures--including both offensive and defensive counter air against 
air and non-air breathing, manned and unmanned aerial vehicles.
    The CROP and Network centric operations will enhance sustainability 
of the Objective Force through multi-nodal distribution networks that 
reach forward to the area of operations or reach back to the Home 
Station Operations Center. Increased reliability through equipment 
design and commonality among the FCS family of systems will enhance 
sustainability while reducing logistics demands. Advanced technologies 
will enable robust Objective Force operations while shrinking the 
logistics footprint and lift requirements of deployed forces.
    The FCS is a transformational approach to meeting this Nation's 
requirements for the Objective Force. We designed and will field the 
FCS family in a carefully balanced manner to avoid optimizing a 
component at the expense of sub-optimizing the overarching capabilities 
of Objective and joint forces. The acquisition and requirements 
development processes are being updated to accommodate the Department 
of Defense's (DOD) direction to field a networked system of systems 
rapidly through spiral development and an open architecture that allows 
maturing technological insertions as they occur.
    The Army embraces the ongoing DOD and Joint Staff Capabilities and 
Acquisition processes reform efforts to achieve revolutionary 
capabilities in the fielding of a new generation of equipment. This 
collaborative DOD and JCS effort enables The Army to design new 
information-age capable organizations holistically, use evolutionary 
acquisition strategies to equip those organizations, and see the 
Objective Force fielded before the end of this decade.
Science and Technology--Moving Toward the Transformed Army
    Preempting our adversaries' technological surprises over the past 
three years, Army Science and Technology investments are already 
providing America's Army with sustained overmatch in all materiel 
systems. And The Army has increased and focused its Science and 
Technology (S&T) investments. We are demonstrating the enabling joint 
interoperable technologies essential for Objective Force capabilities 
and accelerating their arrival. Our S&T program is pursuing a wide 
spectrum of technologies for unmanned air and ground systems that will 
expand the range of joint warfighting capabilities, reduce risk to 
Soldiers, and reduce the logistics footprint of the force. Realizing 
the full potential of unmanned systems requires technological 
development in sensors that improve navigation and mission performance, 
in intelligent systems for semi-autonomous or autonomous operation, in 
networked communications for manned-unmanned teaming, and in human-
robotic interfaces, among many others.
    The Defense Advanced Research Projects Agency (DARPA) and Army 
partnership contracted for a Lead Systems Integrator (LSI) to 
accelerate the transition of FCS to the System Development and 
Demonstration (SDD) Phase, with a Milestone B decision in May 2003. The 
Army is on track to achieve first unit equipped in 2008 and an initial 
operating capability of one Objective Force Unit of Action (UA) in 
2010. To accelerate development and in partnership DARPA, the focus on 
key transformation technologies for the FCS has been narrowed to the 
systems with the most promise. Our highest priority S&T efforts remain 
technological advances for the Future Combat System (FCS).
    The Army will field FCS as a family of systems built on information 
age technologies embedded in manned and unmanned air and ground 
platforms. Integral to joint fires, the family of systems will 
integrate long-range air- and ground-based sensors with long-range 
cannon and missile precision munitions. The family of systems will also 
provide increased joint capabilities to conduct battle command, 
reconnaissance, mounted combat operations, dismounted combat 
operations, medical treatment and evacuation, and maintenance and 
recovery. To provide decisive lethality, FCS will employ networked, 
precision and loitering attack munitions fired from modular, easily 
transportable containers. Finally, FCS will leverage embedded, real-
time interactive, virtual, distributed, collaborative, joint 
simulations for training and mission rehearsal.
Enabling the Objective Force Soldier
    Eighteen systems, both manned and unmanned; the Objective Force 
Soldier; and C\4\ISR, together, comprise the Future Combat System. 
Manned and unmanned reconnaissance capabilities are part of the FCS 
Family of Systems' interdependent networked air- and ground-based 
maneuver, maneuver support, and sustainment systems.
    There are 10 Unmanned Systems: Unmanned Aerial Vehicles (UAV) 
Classes 1, 2, 3, and 4; Unmanned Ground Vehicles (UGV)--the 
Multifunction Utility/Logistics and Equipment (MULE), the Armed Robotic 
Vehicle (ARV), and the Small (manpackable) Unmanned Ground Vehicle 
(MUGV); Unattended Ground Sensors (UGS); and Unattended Munitions--the 
Non-Line-of-Sight (NLOS) Launch System (LS) and Intelligent Munitions 
Systems (IMS).
    There are eight manned systems: the Infantry Carrier Vehicle (ICV); 
Command and Control Vehicle (C\2\V); Reconnaissance and Surveillance 
Vehicle (RSV); Line-of-Sight, Beyond-Line-of-Sight Mounted Combat 
System (LOS/BLOS MCS); NLOS-Mortar; Medical Vehicle (MV); the FCS 
Recovery and Maintenance Vehicle (FRMV); and the Non-Line-of-Sight 
(NLOS) Cannon.
    Decisive warfighting is about fires and maneuver: fires enable 
maneuver, and maneuver enables fires. Joint and organic close, 
supporting, indirect fires destroy the enemy, suppress the enemy's 
capabilities, protect our forces and enable ground units to maneuver. 
The ICV, the Unattended Munitions NLOS-LS, IMS, C\2\V, MCS, NLOS-
Mortar, and NLOS Cannon are important elements of the FCS that will 
enable the Objective Force to conduct distributed and simultaneous 
joint combat operations. With joint fires, the NLOS cannon is critical 
to support and protect our land forces in hostile environments. NLOS-LS 
NetFires is a platform-independent family of missiles with precision 
attack and loitering capability. Both Precision Guided Mortar Munitions 
and Excalibur precision cannon munitions will enhance organic maneuver 
fires. A new, joint fire support, battle command and fire support 
architecture will allow rapid engagement of targets by any Army or 
joint asset.
    For over 227 years, Soldiers have remained the centerpiece of our 
formations. The Land Warrior program--another key S&T initiative--
responds to this legacy and enhances our Soldiers combat power 
generation capability. The Land Warrior program will develop a 
lightweight, low observable, enhanced-armor protection, fighting 
ensemble for the individual Objective Force Soldier. Through networked 
connectivity to the FCS-equipped, maneuver Unit of Action, Land Warrior 
Soldiers will enable revolutionary lethality, mobility, survivability, 
and sustainability for the individual warfighter while reducing 
logistics demands.
    Future Combat Systems are networked in the joint C\4\ISR 
architecture--including networked communications, networked options, 
sensors, battle command systems, training, and both manned and unmanned 
reconnaissance and surveillance capabilities. These networked systems 
will dramatically enhance situational awareness and understanding and 
operational level synchronization well beyond today's standards. 
Improved C\4\ISR capabilities will enable network-centric Objective 
Force operations. The results of the investments will allow leaders to 
capitalize on sensor and processing technology to see, understand, and 
shape the battlespace before the enemy can react--increasing combat 
force effectiveness and survivability. The S&T program will develop and 
demonstrate real-time, continuous situational understanding by 
integrating data from manned and unmanned air- and ground-based 
sensors.
    S&T investments in military logistics are an important enabler for 
the Objective Force. We are placing our emphasis on sustainment's big 
drivers--fuel, ammunition, maintenance, and water--to dramatically 
reduce our logistics footprint and lift requirements in these areas. 
Key technologies include on-board water generation, real-time logistics 
command and control processes and distribution management, enhanced 
multi-purpose munitions and packaging, efficient propulsion and power 
technologies, real-time diagnostics and prognostics, and Micro-Electro 
Mechanical Systems (MEMS).
Transformational Systems
    Several transformational systems were under development prior to 
announcement of The Army Vision in October 1999. The Army has completed 
an extensive analysis to identify those systems that complement FCS and 
the Objective Force system of systems.
    The Comanche Helicopter is the centerpiece of the Aviation 
Modernization Plan (AMP) and represents the first new system to reach 
Initial Operational Capability (IOC) within The Army's Objective Force. 
Comanche is our armed reconnaissance platform with attack capabilities. 
It will leverage the situational awareness and situational curiosity of 
a scout augmented with revolutionary, state-of-the-art Intelligence, 
Surveillance, and Reconnaissance (ISR) technologies. Comanche supports 
vertical and horizontal maneuver as an integral part of network centric 
operations and extends human eyes and decision-making beyond the ground 
maneuver force. Utilizing stealth technologies, it will network with 
all joint C\4\ISR and joint weapons systems. Comanche will leverage 
maximum effect of future standoff precision weapon systems such as the 
Common Missile and allow us to maneuver ground formations based upon 
full knowledge of the situation. Augmented with armed or unarmed 
Unmanned Aerial Vehicles (UAVs), Comanche will fill ground maneuver's 
most critical battlefield deficiency--armed aerial reconnaissance--with 
a capable, survivable, and sustainable aircraft. The Comanche program 
is already well on its way to giving The Army a capability pivotal to 
transforming the way we will fight.
    Several other transformational systems will empower the Objective 
Force with the knowledge dominance and battle command to provide 
decision superiority across the spectrum of operations. The Warfighter 
Information Network-Tactical (WIN-T) System, Medium Extended Air 
Defense System (MEADS), the Joint Tactical Radio System (JTRS), and The 
Army Airborne Command and Control System (A\2\C\2\S) will enable 
Objective Force joint C\4\ISR capabilities. These programs will provide 
the tactical enterprise level networks that will ensure seamless, 
secure, digital connectivity between the Objective, Interim, and 
today's forces. The Distributed Common Ground System-Army (DCGS-A) 
architecture provides Army network-centric ISR connectivity from 
national agencies to joint systems to Objective Force Units of Action 
as part of the integrated Department of Defense DCGS architecture. 
DCGS-A will enable interoperable tasking, processing, and exploitation 
capabilities. The Aerial Common Sensor brings improved signal 
intelligence collection and precision geolocation capabilities, as well 
as imagery intelligence (IMINT) and measurement and signals (MASINT) 
sensor packages. Another system, Prophet, uses communications 
intelligence to depict the battlespace and further enhance situational 
awareness. These C\4\ISR systems greatly enhance the Objective Force's 
ability to gain actionable information superiority and decision 
dominance over all adversaries and expand the range of options for the 
joint force Combatant Commanders.
    Transformational systems will provide the Objective Force with 
strategic and tactical maneuver capabilities. The Theater Support 
Vessel will support rapid intra-theater lift requirements, provide the 
capability to conduct operational maneuver and repositioning, and 
enable units to conduct enroute mission planning and rehearsal. The 
Future Tactical Truck System will have commonality with FCS and will 
support the Objective Force by enabling command, control, and 
transportation of cargo, equipment, and personnel. And the Tactical 
Electric Power (TEP) generators will provide power to Objective Force 
units where fixed power grids are not available.
    Transformational systems provide the Objective Force with other 
important capabilities, as well. Chemical, Biological, Radiological, 
Nuclear and Explosive (CBRNE) effects systems support the Objective 
Force across the spectrum of military operations and improve 
capabilities to conduct Homeland Security activities. Engineer, civil 
affairs, and psychological operations vehicles will enable mobility and 
enhance civil affairs and PSYOPs capabilities. The Up-Armored High 
Mobility Multi-purpose Wheeled Vehicle (HMMWV) will improve Objective 
Force Soldier survivability and lethality. The Multi-Mission Radar will 
provide the capability to detect and track aircraft, artillery, and 
other projectiles, then queue appropriate weapons systems and airspace 
synchronization systems. The High Mobility Artillery Rocket System 
(HIMARS) is a lighter weight, more deployable multiple rocket launcher 
capability that will integrate into the joint fires network.
Bridging the Capabilities Gap--Stryker Brigade Combat Teams
    Announcing our intent to field an Interim Force in October 1999, 
The Army responded to a capabilities gap between its lethal, 
survivable, but slow-to-deploy heavy forces and its rapidly deployable 
light forces that lack the protection, lethality, and tactical mobility 
that we seek. Just two-and-a-half years later in 2002, The Army began 
fielding the first Stryker Brigade Combat Team to bridge that gap. In 
2003--less than four years after the announcement--we are on track to 
achieve IOC with the first SBCT at Fort Lewis, Washington. Stryker 
Brigades will provide the Combatant Commander vastly increased 
operational and tactical flexibility to execute fast-paced, 
distributed, non-contiguous operations.
    Stryker Brigade Combat Teams respond to Combatant Commander 
requirements across the spectrum of military operations. Optimized for 
combat in complex and urban terrain, the Stryker Brigades will be 
decisive in other major combat operations, as well. The SBCT 
Reconnaissance, Surveillance, and Target Acquisition (RSTA) Squadron 
provides both organic human intelligence capabilities and UAVs embedded 
at the brigade level. Its military intelligence and signal companies--
working through a digitally enabled battle command bridge--leverage 
theater and national assets to create an information-enabled force. 
SBCTs will use this enhanced joint C\4\ISR capability to revolutionize 
combat paradigms from ``make contact, develop the situation, maneuver 
the forces'' to ``understand the situation, maneuver the forces, make 
contact at the time and place of your own choosing, and finish 
decisively.''
    Moreover, leveraging platform commonality, enhancing logistics 
practices and enablers, and reorganizing logistics formations, the SBCT 
is vastly more deployable and sustainable than our heavy forces, while 
significantly increasing combat power generating capabilities. 
Augmented for sustained operations, the SBCT requires 37 percent fewer 
CSS personnel than a digitized heavy brigade. While capitalizing on 
these advantages, developing and available technologies allow us to 
mass effects--rather than massing formations--and create a robust, 
reliable capability to conduct operational maneuver over strategic 
distances.
    Finally, SBCTs provide an invaluable means of spearheading 
Transformation. The SBCT trains junior officers and noncommissioned 
officers--tomorrow's commanders and command sergeants major--in the 
tactics, techniques, and procedures that will inform employment of the 
Objective Force.
    The Army has resourced six Stryker Brigade Combat Teams to 
contribute to fulfilling the 1-4-2-1 defense construct and national 
security requirements; however, at this time, the Secretary of Defense 
has only authorized the procurement of the first four brigades. The 
Army will provide the Secretary of Defense with a plan for Stryker 
Brigades 5 and 6.
    Fielding of the SBCTs affects the entire Army: Active and Reserve 
Components; heavy and light forces; CONUS and OCONUS. And current 
fielding timelines will enhance the Nation's ability to fight and win 
the GWOT and conduct major combat operations. The transformation of 
four Active Component brigades to SBCTs provides a rotational base with 
three of the SBCTs focused on the Pacific theater. One of the two SBCTs 
fielded at Fort Lewis will be forward-based in Europe not later than 
2007. The Stryker Cavalry Regiment will support the XVIII Airborne 
Corps' critical need for robust, armed reconnaissance. The conversion 
of a Reserve Component brigade to an SBCT will enhance our strategic 
reserve and support the GWOT, Smaller Scale Contingencies, and Homeland 
Defense missions. Additionally, SBCT stationing provides rapid, 
strategic responsiveness through power projection platforms capable of 
supporting four critical regions described in the 1-4-2-1 defense 
construct. The first SBCT will attain Initial Operational Capability in 
the summer of 2003.
Preserving The Army's Legacy
    Today's force guarantees The Army's near-term warfighting readiness 
to fight and win our Nation's wars, decisively. Because The Army 
bypassed a procurement generation, The Army's Combat Support and Combat 
Service Support systems now exceed their 20-year expected life cycle, 
and 75 percent of our critical combat systems exceed their expected 
half-life cycle. To maintain operational readiness while preserving 
resources for Transformation, The Army is recapitalizing and 
selectively modernizing a portion of the current force. The 
modernization program addresses the critical issue of AC and RC 
interoperability and serves as a bridge to mesh these two components 
seamlessly. In general, The Army increased funding for programs that 
are clearly transformational and support the Defense transformation 
goals, sustained funding for high priority systems that will transition 
to the Objective Force, and reduced funding for systems not essential 
to Army Transformation. The Army remains committed to its 17-system 
recapitalization program, but we have reduced the prioritized 
recapitalization program from three-and-one-third divisions to two 
divisions.
    Army Special Operations Forces are an indispensable part of The 
Army and will continue to provide unique capabilities to the Joint 
Force and Land Component Commanders. In response to the increasing 
requirement for Special Operations Forces in support of joint campaign 
plans, The Army has validated and resourced growth in its SOF 
structure. The recent initiatives will transfer 1,788 manpower spaces 
to Major Force Program-11 beginning in fiscal year 2003. Since the 
commencement of Army Special Operations Forces operations in support of 
the GWOT, the U.S. Army has provided over $1.4 billion in new equipment 
to enhance Special Operations Forces firepower, communications, and 
ground and air mobility.
    The Army will remain the largest user of space-based capabilities 
among the Services. Army space assets are providing tangible support to 
the war on terrorism and Operation Enduring Freedom--they ensure Army 
and Joint Force Commanders optimize communications, satellite 
intelligence, global positioning system, imagery, weather, missile 
warning, and other space-based capabilities in every aspect of planning 
and operations. We are working diligently with the joint and 
interagency space community to ensure that Army and joint space systems 
continue to provide their essential capabilities now and for the 
Objective Force.
Aviation Transformation and Restructuring
    Aviation Transformation further demonstrates The Army's hard 
choices in balancing risk to resource Transformation. Our interim 
plan--now in progress--lowers operating and sustainment costs while 
posturing aviation for arrival of the Objective Force by 2010. Apache 
modernization is an integral part of the Army Aviation Transformation 
Plan. The AH-64D Longbow heavy attack team will enhance domination of 
the maneuver battlespace and provide the ground commander with a 
versatile, long-range weapon system against a range of fixed and moving 
targets. The UH-60 Blackhawk continues to be the assault workhorse of 
Army Aviation, executing over 40 percent of The Army's annual flying 
hours. We are extending the life of the UH-60 while providing it with 
capabilities required of the future battlespace. Similarly, The Army is 
fully committed to the CH-47F Chinook program. Its heavy-lift 
capability is invaluable to transforming The Army. As we restructure 
and standardize attack and lift formations across the force, we will 
also adjust the stationing and alignment of Reserve Component aviation 
units to mitigate the near-term risk.
    Army National Guard Aviation comprises almost 50 percent of The 
Army's aviation force and is one of the Nation's most valuable assets 
both for wartime and for peacetime missions. Essential for successful 
execution of the Nation's military strategy, the ARNG currently has 
aviation units deployed in Afghanistan, Kuwait, Bosnia, Europe, and 
Saudi Arabia, as well as Central and South America.
Army National Guard Restructuring Initiative (ARNGRI)
    ARNGRI seeks to transform a sizeable portion of ARNG combat 
structure into more deployable, flexible fighting forces to support 
Army requirements at home and abroad. ARNGRI will introduce two new 
organizations into the force structure: Mobile Light Brigades and 
Multi-Functional Divisions. These organizations will provide full 
spectrum capabilities in support of Combatant Commanders. The Mobile 
Light Brigades will operate as a subordinate unit to the Multi-
Functional Divisions, which will also contain two combat support/combat 
service support brigades and be capable of supporting either major 
combat or homeland security operations.
Army Reserve Transformation Initiatives
    By providing responsive force generating capability and technically 
trained individuals, the USAR facilitates our capability to conduct 
extended campaigns in multiple theaters and to sustain joint 
operations. Army Reserve initiatives ensure the USAR is missioned, 
organized, and equipped to provide interoperability across the full 
spectrum of military operations. Transformational organizations include 
experimentation forces and information operations, joint augmentation, 
network security, and interagency units.
    The Readiness Command Restructuring initiative and Federal Reserve 
Restructuring Initiative will help the USAR fulfill these new mission 
requirements. These initiatives lend greater flexibility to efforts 
that enhance responsiveness to America's foreign and domestic 
protection needs. Regional Readiness Commands will focus on individual 
and unit readiness, leader development, training and growth which will 
demand a new personnel system that achieves holistic life-cycle 
management for Army Reserve Soldiers.
                           institutional army
Transforming the Way we do Business
    We have made great strides in revolutionizing our business 
management practices by starting at the very top. Last year, we 
realigned our headquarters by reorganizing and realigning 
responsibilities of the Secretariat and the Army Staff--streamlining 
coordination, tasking, and decision-making--resulting in a more 
responsive and efficient organization. This initiative allowed us to 
eliminate unnecessary functions and redistribute 585 manpower spaces to 
accomplish core competencies.
    As previously discussed, The Army has addressed the management of 
its installations, personnel systems, and contracting in its 
Transformation of Installation Management (TIM). We are aggressively 
pursuing efforts to outsource non-core functions. The Army will reap 
substantial dividends in efficiency and effectiveness through these 
strategic realignments of human and physical capital.
Personnel Transformation
    The Secretary of the Army's key management initiative is personnel 
transformation. Its goal is to modernize and integrate human resource 
programs, policies, processes, and systems into a multi-component force 
that includes civilians and contractors. We will evaluate our processes 
and implement the most efficient program, policies, and organizations 
to support the Objective Force.
    The centerpiece of Personnel Transformation is a comprehensive 
effort focused on a potential Army-wide implementation of unit manning 
and unit rotation. We are aggressively examining the feasibility of a 
unit manning and rotation system that would better support the new 
national defense strategy, improve cohesion and combat readiness within 
the operational Army, provide highly cohesive well-trained units to 
Combatant Commanders, and improve well-being for families by providing 
greater stability and predictability in assignments. The Army currently 
uses unit rotations in support of operational missions in the Balkans, 
Sinai, and Afghanistan. The Army is studying the use of unit rotations 
for other locations and in the war on terrorism. Units would know of 
these rotations well in advance, providing families with greater 
predictability and enabling focused preparation, both of which 
contribute to increased combat readiness of the unit.
    Unit manning seeks to synchronize the life cycle of a unit with the 
life cycle of the Soldier within that unit. All Soldiers and leaders 
would be stabilized, resulting in a significant increase in cohesion 
and combat readiness over our present individual replacement system. 
Such a system has significant second and third order effects across the 
force--training and leader development, recruiting and retention, unit 
readiness levels, and total Army endstrength, among others. All of 
these are being studied intensively, and we anticipate senior Army 
leadership decisions on unit manning and unit rotation in July 2003.
Third Wave
    Because we operate in an environment in which there are increasing 
demands for military capabilities--the Secretary of the Army's Third 
Wave initiative seeks to ensure that we are achieving the best value 
possible for our taxpayers' dollars.
    There are three phases to the Third Wave process. First, we 
determined what activities were core or non-core to The Army's mission. 
In the second phase, we are validating the breakout between core and 
non-core functions by determining if any non-core functions should be 
exempted. This phase has an anticipated completion date of mid- to late 
February 2003. Upon completion, The Army leadership will notify 
Congress of the results of this phase. In the third phase, key Army 
leaders will assess appropriate plans to execute non-core functions, 
select the best means to proceed, and develop implementation plans. At 
this time, we do not know how many of the 214,000 jobs identified as 
potentially non-core functions in Phase I will be included in 
implementation plans. Although implementation plans will target 
execution in fiscal years 2005-2009, some implementation plans may be 
delayed beyond that period.
    The implementation of competitive sourcing of non-core functions 
will adhere to OMB Circular A-76 and related statutory provisions. 
Exceptions to the requirement for public-private competition are 
limited, such as where 10 or fewer civilian employees perform the 
function or where legal restrictions against using the A-76 process 
apply to the function. To lower costs for taxpayers and improve program 
performance to citizens, OMB has undertaken major revisions to the 
processes and practices in OMB Circular A-76 to improve the public-
private competition process.
Acquisition Transformation
    The Army is leading the way in acquisition reform within DOD's 
broad transformation of defense acquisition policies and procedures. 
The Army's FCS program may prove to be the largest DOD acquisition 
effort that fully embraces the concepts of evolutionary acquisition and 
spiral development--leveraging the potential of rapid advancement 
within individual technologies by allowing for changes within programs 
as technologies mature.
    The FCS program is evolutionary in its design and incorporates 
periodic blocked improvements within its 19 systems--the Objective 
Force Soldier and 18 manned and unmanned systems. Within these 19 
systems are 540 spirally developing technologies. The Army's use of a 
Lead System Integrator (LSI) enables a ``best of the best'' approach to 
selection from competing industry efforts. Our unprecedented 
partnership with DARPA ensures the FCS effort leverages that agency's 
DOD-wide perspective and resources to produce the best capability and 
value for the Joint Force.
    The Army continues to revise its acquisition policies and 
applicable regulatory guidance. On October 3, 2001, The Army approved 
an acquisition reorganization that transferred control of all 
acquisition program management to the Army Acquisition Executive (AAE) 
and eliminated duplication of effort in two major Army commands. 
Effective October 2002, twelve Program Executive Officers (PEO) report 
to the Army Acquisition Executive, and their subordinate PEOs assumed 
management of all Army acquisition programs, regardless of Acquisition 
Category. The plan ensures that there is only one chain of authority 
for acquisition programs within The Army. In addition, the plan clearly 
holds Program Managers responsible and accountable for the life cycle 
management of their assigned programs.
    We have also transformed the way we conduct business through the 
organization of the Army Contracting Agency (ACA) that realigns our 
previously decentralized installation and information technology 
contracting processes into one organization. Responsible for all 
contracts over $500,000 and tasked to eliminate redundant contracts, 
ACA leverages Army-wide requirements to achieve economies of scale. ACA 
supports Army Transformation efforts by aligning all base support 
contracting into a single organization that best supports installation 
management transformation. All of these initiatives use information 
technology to leverage enterprise-wide buying capabilities. 
Additionally, ACA will act as the single coordinating element and form 
the base from which to deploy contingency-contracting, operational 
support to the warfighting commands. The Army Contracting Agency and 
other contracting activities will continue to support small business 
awards in the outstanding manner it did in fiscal year 2002.
Logistics Transformation
    We cannot transform The Army without a transformation in logistics. 
We must incorporate the logistician's view into the design of our 
systems even before we begin to build platforms. Collaboration between 
the acquisition and logistics communities will give the Objective Force 
the rapid deployability and sustainability we demand--by design--
without compromising warfighting capability.
    Designing the right logistics architecture--systems, business 
processes, enterprise, for example--is fundamental to success. The 
Army's Logistics Transformation will focus on creating an overarching 
corporate logistics enterprise that employs industries' best business 
practices. Within this enterprise, The Army established three principal 
goals for Logistics Transformation: enhance strategic mobility and 
deployability; optimize the logistics footprint; and reduce the cost of 
logistics support without reducing readiness or warfighting capability.
    The Army's mobility and deployability goals for the Objective Force 
are to deploy a combat brigade within 96 hours after lift off, a 
division on the ground in 120 hours, and a five-division corps in 
theater in 30 days. To achieve this strategic responsiveness, the Army 
Strategic Mobility Program (ASMP) serves as a catalyst to bring about 
force projection changes both in The Army's and in our Sister Services' 
lift programs. Platforms like the Intra-Theater Support Vessel (TSV) 
and Inter-Theater Shallow Draft High Speed Sealift (SDHSS) provide 
transformational capabilities for operational and strategic maneuver 
and sustainment of Army formations.
    Because strategic air and sealift cannot meet deployment 
requirements, Army Prepositioned Stocks (APS) ashore and afloat 
continue to be a critical component of Army power projection. The Army 
is currently participating in a joint-led Worldwide Prepositioning 
Study to determine if location, mix, and capabilities in existing 
stocks of combat, combat support, and combat service support require 
adjustments to meet the Defense Strategy more effectively.
    The Objective Force requires The Army to optimize its logistics 
footprint to produce a smaller, more agile, responsive, and flexible 
sustainment organization. To achieve this goal, we will leverage 
technology and innovative sustainment concepts. The Army is already 
developing and integrating key enablers to provide a transformed, 
corporate logistics enterprise. Some of these enablers include embedded 
diagnostics and prognostics, tactical logistics data digitization 
(TLDD), serial number tracking, and the Global Combat Service Support--
Army (GCSS-A) system that utilizes a commercial Enterprise Resource 
Planning (ERP) solution. The ERP approach changes The Army's logistics 
automation systems strategy from one of custom code development for 
unique Army requirements to adoption of a commercial off-the-shelf 
(COTS) product.
    The selective use of the Logistics Civil Augmentation Program 
(LOGCAP) to augment military logistics force structure provides 
commanders with the flexibility to reallocate manpower, resources, and 
materiel by adding contractors to the equation of logistics support. In 
addition to providing services and some supply support, these 
contractors can quickly deploy to establish base camps, receive and 
process Soldiers as they begin arriving in theater, and reverse the 
process when Soldiers go home.
    Current initiatives that help reduce costs without reducing 
readiness or warfighting capability include the National Maintenance 
Program and the Single Stock Fund (SSF). As previously discussed, 
programs provide two basic building blocks for a revolutionary change 
in logistics business practices.
Advanced Medical Technology
    Congress designated The Army as the lead agent for DOD vaccine, 
drug, and development programs for medical countermeasures to 
battlefield threats. This includes vaccines against naturally occurring 
infectious diseases of military significance, combat casualty care, 
military operational medicine, and telemedicine research. The program 
also funds Food and Drug Administration requirements for technology 
transition to advanced development.
    The medical force provides the requisite medical intervention and 
care for the Joint Force deployed around the globe. With its Medical 
Reengineering Initiative (MRI), The Army Medical Department has 
transformed 28 percent of its Corps, and echelon above Corps, force 
structure to an organizational structure that promotes scalability 
through easily tailored, capabilities-based packages. These packages 
result in improved tactical mobility, reduced footprint, and increased 
modularity for flexible task organization. MRI supports both the 
current forces and the Stryker Brigades, and is the bridge to the 
Objective Medical Force. We have implemented innovative strategies make 
the most efficient use of our budget. Medical modernization, which 
includes the acquisition of current medical equipment and technology, 
is partially funded within MRI units.
Business Initiatives Council
    In June 2001, the Secretary of Defense established the Department 
of Defense Business Initiatives Council (DOD BIC). The DOD BIC's goal 
is to improve business operations and processes by identifying and 
implementing initiatives that expand capabilities, improve efficiency 
and effectiveness, and create resource savings in time, money, or 
manpower.
    The Army has aggressively explored ways to improve its internal 
business practices, and has established The Army BIC, under the 
leadership of the Secretary and the G-8. Effective November 13, 2002, 
the Secretary of the Army has approved a total of 35 initiatives under 
The Army BIC. Subsequently, The Army submitted a number of the 
initiatives through the formal DOD BIC process for implementation 
across the Services and other DOD activities. The BIC process has 
helped to create a culture of innovation and inter-service cooperation. 
The superb level of cooperation across the military departments, the 
Joint Staff and OSD has made this possible.
                       a commitment to the future
    With the continued strong support of the Administration, the 
Congress, our Soldiers, and our Department of the Army civilians, and 
the greatest industrial base and science and technology communities in 
the world, The Army will field the Objective Force--this decade.
    By 2010, we will have fielded the first operationally capable 
Objective Force unit equipped with the Future Combat Systems. Our 
Stryker Brigade Combat Teams will be providing to Combatant Commanders 
capabilities not currently available--enhanced strategic responsiveness 
and the ability to operate in a distributed, non-linear battlespace. 
Through selective recapitalization and modernization of systems that 
enable our Soldiers to preserve our legacy today, we will have 
sustained a decisive-win capability at a high state of readiness as an 
integral part of the Joint Force. And we will have significantly 
improved the well-being of our people and sustainment of Army 
infrastructure.
    We remain committed to our legacy--preserving America's freedoms. 
In peace and in war, The Army's Soldiers serve the Nation with 
unmatched courage, indomitable will, pride, and plain grit--as they 
have for over 227 years. Soldiers will continue to fight and win the 
Nation's wars, decisively--it is our sacred duty and our non-negotiable 
contract with the American people.
    [Clerk's Note.--The United States Army Posture Statement, 2003, can 
be found on the world wide web at: www.army.mil.]

    Senator Stevens. General, do you have any statements to 
make?

                 STATEMENT OF GENERAL ERIC K. SHINSEKI

    General Shinseki. Just a short opening statement if you do 
not mind, Mr. Chairman.
    Mr. Chairman, Senator Inouye, distinguished members of the 
committee, it is an honor to be back here before the committee 
and, along with Secretary White, to report to you on the 
posture and the readiness of the Army and in many ways what we 
will report on this morning is what we have been about for the 
last 3\1/2\ years. It is your support, and the generosity of 
your time and attention and the generosity of your support that 
has put us in the situation we are in today.
    It is also a great privilege for me to sit here with 
Secretary Tom White. In a very short period of time Secretary 
White has provided us tremendous focus, leadership, and 
guidance and gotten momentum in achieving what we described 
3\1/2\ years ago as the Army Vision, and he and I have served 
side-by-side in other lives, so it is great to be sitting here 
together in final testimony with him.
    As the Secretary has indicated and as the chairman has 
noted, soldiers are serving magnificently today as members of 
the joint team and, you know, just the Army alone, as remarked 
by the chairman, 262,000 of our soldiers are forward-stationed, 
forward-deployed in operations today, 151,000 of our Reserve 
Component mobilized in support of operations. They are fighting 
this war against terrorism. They are honing and fine-tuning 
their combat skills as they await orders for potentially 
another major operation, and they are poised to respond to 
still other contingencies in regions of the world that our 
country has declared important.
    The Army is ready. That is the purpose of the Secretary's 
and my appearance here today. We are the best Army in the world 
because of our soldiers, not the biggest, but the best. Their 
determination and their commitment are as firm as I have seen 
in all my years of service. They are immensely proud to serve 
this Nation. They will take any objective, and they will 
accomplish any mission we assign them.
    We would like to project the same kind of confidence in 
their competence, and the same statement of readiness not just 
today, but into the future, and to do so, we declared 3\1/2\ 
years ago that we would field a more responsive, a more 
deployable, a more agile and versatile, certainly more lethal 
force than we have today in survivable formation, but a lot 
more sustainable than even the Army that we have today.
    We knew then that there was a war in our future, and we 
said so. We just did not know when, where, or against whom. 
Though we did not anticipate exactly this scenario, where we 
are fighting a global war on terrorism in Afghanistan, standing 
by for another major operation, and looking with a little bit 
of concern at Northeast Asia, the relative predictability of 
the Cold War had already, even 3\1/2\ years ago, given way to a 
continuing chaos of unpredictability, and voices inside and 
outside the Army and voices in this committee encouraged us to 
be bold, to take some steps and begin the process of change, 
and with your support we have come a long way towards 
transforming our formations to be more capable of handling 
future crises.
    As the Secretary has indicated, there is always inherent 
risk any time any institution undertakes not just change, but 
fundamental and comprehensive change, as the Army declared it 
would 3\1/2\ years ago. To mitigate that risk, the Army 
structured its transformation on three broad, mutually 
supporting axes, and I will describe then as near-term, mid-
term, and long-term responsibilities.
    In the near term, we preserved the readiness of today's 
legacy fighting force. In the mid-term, we are fielding six 
Stryker Brigade Combat Teams (SBCT) to give us much-needed 
operational capabilities, even as we design our future 
Objective Force, and it is on that third and final long-term 
axes that we are developing future concepts and technologies 
that will provide consistent capability overmatched throughout 
the middle of the next century, and that is the intent of the 
Army.
    Our Future Combat System Milestone B Defense Acquisition 
Board decision, the first acquisition milestone for the Future 
Combat System that is scheduled for May of 2003, just a few 
months from now, puts us on a path to begin fielding our future 
Objective Force by fiscal year 2008. That is a significant and 
an important milestone.
    As Secretary White notes, balancing these requirements 
between all three priorities, near-term, mid-term, and long-
term requires some difficult choices, and the Army has had to 
make them, carefully weighing the operational demands of 
today's missions while preparing for the future. Your support 
remains vital to our continued success in managing that risk, 
and the Army's fiscal year 2004 budget strikes that essential 
balance to maintain readiness throughout the Program Objective 
Memorandum (POM) and the years beyond.
    We are already seeing dividends from our investments in 
future readiness, technologies that are coming online early 
because we invested aggressively early. Superior body armor 
today, robots in caves and antitank warheads on unmanned aerial 
vehicles today, unprecedented Blue Force tracking capabilities 
today, and last summer, during the largest joint exercise in 
our history, Millennium Challenge 2002, with the help of the 
Air Force we air-delivered a Stryker platoon onto a dirt strip 
out in the National Training Center in California. Just 3 years 
after the Army described that requirement for an interim force, 
we demonstrated the increased strategic, operational, and 
tactical versatility that Stryker Brigade Combat Teams will 
provide to combatant commanders.
    This summer, the first SBCT, the first Stryker unit will 
join us in the war on terrorism, so it is not just about 
capabilities that we intend to begin fielding in fiscal year 
2008. It is about better capabilities that we are fielding even 
today for our soldiers.
    People remain the centerpiece of our formations. The 
Secretary has said it in his proud statement about our 
soldiers, and I echo it here. They are the centerpiece of our 
formations, and their well-being is inextricably linked to Army 
readiness. Your help with pay raises, health care, retirement 
benefits, housing, and other well-being programs allow us to 
take better care of our people. Soldiers, our civilians, our 
retirees, and our veterans and their families all appreciate 
the support more than I can say, that they have received out of 
the Congress.
    Mr. Chairman, for almost 4 years now I have had the 
privilege of working with members of this committee. You have 
supported the Army and helped us do what was best for the 
national security. I am grateful for your steady and bipartisan 
leadership, and most importantly for your unwavering devotion 
to our soldiers. You have kept us the most respected land force 
in the world today, and that will continue into the future.
    Mr. Chairman, thank you for this opportunity to make those 
remarks, and I look forward to your questions.
    Senator Stevens. Thank you very much, General. I am going 
to defer my questions until later to allow other Members to ask 
questions, but I do have one statement to start off with.

                    FIFTH AND SIXTH STRYKER BRIGADES

    I joined, or rather my good friend and cochairman here 
joined me in sending a letter to Secretary Wolfowitz about the 
way the Department plans to handle the fifth and sixth Stryker 
Brigades. The fiscal year 2003 Defense Appropriations Act 
directed the Army and the Department of Defense to fund six 
Stryker Brigades, and we felt that was the direction. The 
President signed that bill, and now I understand that there is 
some indication that the Office of the Secretary of Defense 
would terminate, or change the deployment of the fifth and 
sixth Stryker Brigades. Can you tell us, Mr. Secretary, what is 
the situation with regard to those two brigades?
    Mr. White. Mr. Chairman, the Secretary has directed us to 
conduct a study of brigades five and six that is aimed at 
determining whether the structure as it is currently proposed 
for those brigades is optimal, whether there are other things 
that we could add, other capabilities that would be appropriate 
to add like, say, aviation.
    In addition to that, he has asked us to study the 
stationing of brigades five and six, which as you pointed out 
are currently in Hawaii, and then the Pennsylvania Army 
National Guard. We will complete the study in the near future. 
In the meantime, the money for brigades five and six has stayed 
in the program. It is where we programmed it, and it is where 
the Secretary has agreed to leave it, and we will get the study 
done as quickly as we can.
    Senator Stevens. Well, I hope our letter is responded to 
sometime soon, and it is my judgment that if the Army wants 
more Stryker Brigades, they should request more funds. We 
funded those on the basis that they would be deployed to Hawaii 
and the Pennsylvania National Guard, and unless that law is 
changed, we expect that direction to be complied with.
    Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman. I am 
glad you brought up the question of the Stryker Brigade.

                        GLOBAL WAR ON TERRORISM

    I would like to ask a general question on the budget. If my 
calculation is correct, the Army is spending approximately $700 
million per month to fight the global war on terrorism, is that 
correct?
    Mr. White. Yes, sir, it is.
    Senator Inouye. Now, where does this money come from, 
because there is no item for fighting global terrorism.
    Mr. White. Right now, Senator, we are cash-flowing, as we 
call it, principally in the military personnel accounts for the 
additional mobilization and in the operations and maintenance 
account's third and fourth quarter money to pay these 
additional costs above the budget in the early part of the 
fiscal year.
    Senator Inouye. So we are using monies that were intended 
for some other purpose?
    Mr. White. That is correct.
    Senator Inouye. In addition, there is not anything in the 
budget that I can see that faces reality, which all of us have 
assumed that sometime in this fiscal year we would be in Iraq. 
How are we going to cope with that?

                       SUPPLEMENTAL APPROPRIATION

    Mr. White. Senator, I believe it is the intent of the 
Department or the President to request a supplemental to cover 
the funds for the war on terrorism.
    Senator Inouye. The next question is, when will the 
supplemental reach us?
    Mr. White. Sir, to use an expression by the Secretary of 
Defense, it is above my pay grade. We have had our discussions 
with the Office of Secretary of Defense. I know they have had 
deliberations with the Office of Management and Budget, but as 
we discussed yesterday, the supplemental has not yet been 
submitted.
    Senator Inouye. I can assure you, sir, that we are looking 
forward to receiving that, because in a situation of this 
nature, it would be an understatement to say that to keep the 
troops ready is an urgency.
    Mr. White. Yes, sir.
    Senator Inouye. And with the funds as they come in, in 
driblets, it will not help the situation.
    Senator Stevens. Would the Senator yield?
    Senator Inouye. Yes. I would be very happy to.
    Senator Stevens. I might state to the Senator and the 
committee that I had a discussion last night with Mitch 
Daniels, an informal conversation, and I am informed we should 
get that supplemental early next week, and it will contain not 
only monies for defense, but homeland defense, and some moneys 
to start planning for the post-conflict era in Iraq.
    Senator Inouye. Well, I thank you very much. His pay level 
is higher than mine.
    Senator Stevens. Not so.

                              END STRENGTH

    Senator Inouye. General Shinseki, you have been quoted many 
times saying that the Army does not have the required end 
strength to meet current and future military obligations. Can 
you elaborate on this?
    General Shinseki. Yes, sir. I have testified, Senator, for 
3\1/2\ years now that the mission profile that the Army was 
carrying even 3 years ago was larger than the inventory of 
formations we had, and I suggested that end strength was a 
concern. 3\1/2\ years ago we were not recruiting as well as we 
wanted, and so we had to go fix that first. The last 3 years we 
have made our recruiting targets. Our retention has always been 
very good.
    The missions in the last 3 years have gone up. End strength 
continues to be a concern, and it is revealed, I think, in the 
amount of routine mobilization of the Reserve Component that we 
see day to day. Many of those missions used to be carried by 
Active Component formations, so these are some of the 
manifestations of what my concerns were.
    Secretary White has asked us--even as we made our concerns 
public--has asked that the Army take a look at itself, and this 
is what is sort of caught up in the Third Wave discussions, to 
make sure that even as we talked about end strength, that the 
Army had done the right things about ensuring that soldiers 
were in soldiers' positions, and so we are doing that, and the 
results of that study are forthcoming.
    I will review them and provide my advice to the Secretary, 
but I think all things considered, when this operation, this 
crisis is over, we need to take a good hard look at right-
sizing the Army, right-mixing the Army between Active and 
Reserve Component, and even as some of the combatant commanders 
are already beginning to describe, right-stationing the Army, 
and I think all of this is important to take up now.

                               RECRUITING

    Senator Inouye. That leads me to the next question. How are 
we doing in recruiting?
    General Shinseki. Our recruiting for the last 3 years has 
just continued to get better. In the Active Component, last 
year I could have told you very early in the recruiting year 
that we would make our recruiting targets. We were doing that 
well.
    I can do the same thing again this year in active 
recruiting, but for the first time here this month, in the 
Reserve Component recruiting, both the National Guard and the 
Army Reserve missed their monthly targets. That happens from 
time to time. We look at a year-long objective that we go 
after, but our attention was caught by the fact here last month 
that both Reserve Components missed by a margin their monthly 
targets.
    Some of that is driven by the fact that our Active 
Component soldiers who normally leave the Active Component and 
are available to transition into Reserve Component formations, 
right now, because of the standby for potential operations in 
Southwest Asia, we have stop-loss personnel decisions in place, 
so the flow of Active Component soldiers out of active units 
available for Reserve Component units, that has very much 
diminished, and that is part of what is at work here, but 
recruiting for the last 3 years, Senator, has been very, very 
strong, retention even better.

                           SOLDIER DEPLOYMENT

    Senator Inouye. To give the citizens who may read the 
transcript a better idea of personnel problems, how many 
troops, men and women, Reserve and Active, are now overseas in 
places like Bosnia, Afghanistan, Korea, et cetera, and Kuwait?
    General Shinseki. Well, overseas, both forward stationed 
and forward-deployed, the number is 262,000 today. That number 
changes day to day as we begin to look at potential operations 
in Southwest Asia.
    Senator Inouye. That leaves how many here?
    General Shinseki. Well, that 262,000 is a combination of 
Active and Reserve Component. The Active Component formations, 
I can give you a more finite number, but the Active Component 
formations are not totally deployed, but much of the Active 
Component is on standby, prepared for deployment, so if those 
orders are executed, a good portion of the active force will be 
overseas.
    Senator Inouye. I have always maintained what some would 
consider a rather naive concept, that the best way to avoid war 
would be to be prepared for war. In order to be prepared for 
war, we need proper personnel and proper equipment. It is no 
secret that the Navy has 12 carrier battle groups. One carrier 
is always for training purposes. One carrier is always in 
transit. That leaves 10. Six are now in the gulf area, in the 
Mediterranean, the Red Sea, or the Persian Gulf itself, and one 
more is in transit. That is nine, and I believe one more 
carrier group is going to go to that area. That leaves two for 
the rest of the world.
    I recall it was not too long ago when we were sitting here 
and we were told that we were ready for two-and-a-half wars. Is 
that concept still being discussed?
    General Shinseki. Senator, I think the two-and-a-half major 
combat operation discussion, it has now been translated into a 
strategy that talks about homeland defense, four critical areas 
of the world that we have to continue to focus on, two 
potential major combat operations, one of which can be a major 
operation that requires decisive force. That is the sizing 
construct around which we organize our discussions, and like 
the Navy, we have a good portion of our Active Component force 
focused on this major operation.
    Senator Inouye. I will wait for my second round, but before 
I do, I would like to thank you, sir, for the service you have 
rendered to this country throughout your youth and at the 
present time. It has been a magnificent service record, and 
personally I hate to see you go, but such is the nature of this 
business.
    General Shinseki. Sir, it is.
    Senator Inouye. And I am always grateful to you and to the 
Secretary for having prepared our men and women so that they 
can carry out the missions they are ordered to carry out.
    General Shinseki. Thank you very much, sir.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you.
    General Shinseki, your statement a few minutes ago was 
rather profound and reassuring. You said, the Army is ready, 
and I believe you. I believe the Army is ready.

                   SPACE AND MISSILE DEFENSE COMMAND

    Having said that, I want to focus just for a minute on the 
Space and Missile Defense Command (SMDC) and the missions there 
of space, missile defense, computer network operations for the 
Army, additionally SMDC is the Army component to STRATCOM with 
emerging missions including space, global strike, global 
C<SUP>4</SUP>ISR, global integrated missile defense, global 
information operations.
    You mentioned the important work the Army is doing to 
develop directed energy programs in your testimony. Would you 
discuss the success of the tactical high-energy laser program, 
the challenges that remain in developing and fielding a mobile 
tactical high energy laser (MTHEL) program system and the 
funding the Army plans to commit to MTHEL in fiscal year 2004? 
Do you want to tackle--which one of you?
    Mr. White. Let me start out, and then the Chief can add----
    Senator Shelby. That is a mouthful, I know.
    Mr. White. Oh, I think it is a tremendously successful 
program.
    Senator Shelby. It is.
    Mr. White. We have had successful engagements of both 
rockets----
    Senator Shelby. That is right.
    Mr. White [continuing]. And now artillery shells----
    Senator Shelby. That is right.
    Mr. White [continuing]. Which is extraordinary. This is a 
joint program with Israel, as you know, progressing forward, 
and we have provided over $500 million of funding in our 2004-
2009 POM to support this, so we will continue to push the 
development of it. All of us think it has tremendous potential.
    Senator Stevens. Will the Senator yield for just a second?
    Senator Shelby. I will be glad to yield, Mr. Chairman.
    Senator Stevens. Senator Domenici has to go to the floor. 
He has been called to the floor. Would you mind yielding just a 
moment to him?
    Senator Shelby. I will yield to the Senator, absolutely.
    Senator Domenici. I gave my questions to the chairman to 
ask, Senator Shelby, so he will do that, he will ask my 
questions. Before I left I wanted to join, Chief, in telling 
you that it has been a great pleasure to get to know you and to 
know of your record, and obviously to know of your record is to 
know you. That is the way it seems to me, and I congratulate 
you for what you have done for our country. It is a marvelous 
record. It is too bad that all great things come to an end, but 
that is the way it is.
    I also want to thank you, because of the special help you 
have given me at Walter Reed Army Medical Center. It has been 
rather wonderful care for some of the problems I have had. I 
personally want to thank you for asking about those illnesses 
as I had them, and thank you for your assistance.
    General Shinseki. You are quite welcome, sir.
    Senator Domenici. And good luck.
    General Shinseki. Thank you, sir.
    Senator Stevens. Senator Shelby, thank you very much.
    Senator Shelby. Thank you.
    Both of you, I believe, are aware that I have expressed 
concern about the Army's support for the Space and Missile 
Defense Command. I am pleased that the response, Mr. 
Secretary--from you and the General--I have received from the 
Army, has been so strongly supportive.
    Despite SMDC's current space, missile defense, and computer 
network operations missions, and its emerging missions as the 
Army component of STRATCOM in the area of global strike, global 
integrated missile defense, and global information operations, 
some of us are concerned that the Army has not made sufficient 
investments in technology development.
    We realize, Mr. Secretary, you tried a lot to support some 
of these missions in recent years. I have heard some say that 
the Army has lost its focus, but I told them I am not sure 
about that, because I am aware of what you are doing, and we do 
need more institutional support and funding for the core 
technology program. How would you respond to this, the budget 
request in this area?
    Mr. White. Well, I think it reflects the fact that our 
component command, SMDC, is tremendously important not only to 
the Army, but to the country. The work with the Ballistic 
Missile Defense Agency, where we do a whole bunch of different 
tasks, the mid-course capability that is being established at 
Fort Greely, Kwajalein, all the rest of it that you are very 
familiar with, the component of the Strategic Command, we have 
fundamental interest in space operations as an Army. They are 
tremendously important to us.
    So I think that the contribution that SMDC makes across, as 
you pointed out, a significant range of important aspects to us 
is very, very important, and so I am an avid supporter of the 
Space and Missile Defense Command.
    General Shinseki. May I just add, Senator, that both the 
Secretary and I take a very keen interest in Space and Missile 
Defense Command's contributions here, but you know, the Army 
has a longstanding history in missile work, I mean, one that 
goes beyond most recollections.
    What we have suggested to General Cosumano and the rest of 
the Army that deals in the doctrine and conceptual thinking is 
that if we talk about missile defense as a series of catchers' 
mitts trying to deal with someone else's initiative, it is 
essentially a defensive-oriented strategy, and we needed to 
think more holistically, more broadly about this, as we do with 
all of our other war-fighting concepts, that you have to have 
an offensive as well as a defensive piece.
    This is important, but we needed to think about all the 
capabilities that allow us to deal with threats on someone 
else's soil that can project capabilities against the homeland, 
and when you do that, of course, you get into the mid-course 
business and the boost phase, but you also talk about 
capabilities to forcibly enter someone else's territory and, in 
fact, take down those capabilities, as opposed to continuously 
react to someone else's actions, so we have included Space and 
Missile Defense Command into this larger discussion of 
capabilities.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman. I will wait another round.
    Senator Stevens. Thank you. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman, and I will join 
with my colleagues, General, in wishing you the very best in 
your next career. You can certainly look with pride on this 
career.

                       AGING HELICOPTER INVENTORY

    Yesterday's Wall Street Journal had an article on the 
military's aging helicopter inventory, and Mr. Chairman, if I 
could submit that Wall Street Journal article for the record. 
Mr. Chairman.
    Senator Stevens. Pardon me?
    Senator Leahy. If I could submit that Wall Street Article 
for the record, please?
    Senator Stevens. Yes.
    [The information follows:]

             [From the Wall Street Journal, Mar. 18, 2003]

                    Fresh Troops . . . Old Choppers
 u.s. military labors to keep aging helicopters airworthy; hazards of 
                            desert landings
      (By Anne Marie Squeo, J. Lynn Lunsford and Nicholas Kulish)
    ON A RECENT episode of the television show ``The West Wing,'' the 
Pentagon's top military commander ordered two Comanche reconnaissance 
helicopters dispatched to rescue three Marines taken hostage.
    When he heard about the fictional deployment, Maj. Gen. John 
Caldwell, head of the Army's acquisition programs, burst out laughing. 
``Those would be the only two we have,'' he said.
    For more than a decade, ambitious plans to replace the U.S. 
military's aging helicopter fleet have been sidelined by funding 
constraints and developmental problems. The imposing-looking Comanche, 
which is supposed to have the ability to fly sideways and backward at 
more than 85 miles an hour, is the fruit of a $48 billion program that 
began in 1983 but isn't expected to become part of the U.S. arsenal 
until 2009 at the earliest. And the V-22 Osprey, a hybrid aircraft that 
takes off and lands like a helicopter but cruises like an airplane at 
more than twice the speed of a conventional helicopter, has been 
grounded for much of the past two years after a string of fatal 
crashes. The V-22 was recently grounded again because of hydraulic-
system problems, and top Pentagon officials say they are prepared to 
finally end the $46 billion program if it doesn't get on track soon.
    So as they assemble for a potential conflict with Iraq, U.S. forces 
are relying on helicopters that in some cases are older than the troops 
they will carry. For example, massive twin-rotored CH-47 Chinook 
helicopters, which can carry dozens of servicemen or hoist heavy loads 
beneath them, remain the workhorse heavy-lifter for the Army, even 
though they were originally delivered before 1975. Most of them have 
been remanufactured by Boeing Co. and are scheduled for further updates 
that could enable them to keep flying for another 35 years, military 
planners say.

    ----------------------------------------------------------------

                         Gray Around the Rotor
    The helicopters the U.S. military plans to use during a war with 
Iraq are showing their age. A sampling:

----------------------------------------------------------------------------------------------------------------
                   Helicopter                                        Primary task                       Avg. age
----------------------------------------------------------------------------------------------------------------
CH-47D Chinook.................................  Carrying troops; hoisting loads.....................     \1\ 15
OH-58D Kiowa Warrior...........................  Light scout/reconnaissance..........................         12
Black Hawk.....................................  Troop carrier.......................................         15
Cobra \2\......................................  Attack, primarily during Vietnam....................         10
UH-1N Huey.....................................  Carrying troops.....................................         27
AH-64 A/D Apache...............................  Attack..............................................          9
----------------------------------------------------------------------------------------------------------------
\1\ Average age after refurbishment. Nearly all of the 300 CH-47D Chinooks in use by the military were
  originally delivered before 1975.
\2\ Now retired by Army; Marines using newer versions.
 
Source: WSJ reporting

    ----------------------------------------------------------------

    For the most part, the Vietnam-era Bell Huey helicopters, which 
flew en masse to drop troops into the jungles, have been replaced with 
larger and more capable Black Hawks. But two-thirds of the Black Hawk 
fleet now exceeds 15 years of age. Apache attack helicopters, developed 
in the 1980s, are the Army's newest choppers, but they haven't 
altogether replaced their Vietnam War predecessor, the Cobra.
    The average life span of a military helicopter is 20 years, 
compared with about 30 years for a commercial one. But the 
circumstances these aircraft fly in, including brutal weather and 
difficult terrain such as the deserts of Iraq and the jagged mountains 
of Afghanistan, take a severe toll.
    Because of the lack of funds to buy new helicopters, an ambitious 
remanufacturing program is under way aimed at improving performance and 
staving off safety problems, military officials say. The aircraft are 
stripped down, then their metal airframes are treated for corrosion, 
engines and rotors are rebuilt, and their cockpits are loaded with new 
digital electronics and radar.
    Manufacturers such as United Technologies Corp.'s Sikorsky Aircraft 
unit, which builds and refurbishes about 65 Black Hawks a year, have 
scrambled since the Gulf War in 1991 to upgrade and modify their craft 
to withstand tough desert conditions.
    All told, the U.S. military is spending billions of dollars to 
update its older copters. But military officials say they are still 
concerned on the eve of a potential conflict about the relative health 
of the fleet. There remains ``a severe aircraft-aging problem in the 
helicopter fleet, causing serious safety and readiness issues,'' says 
Loren Thompson, executive director of the Washington-based Lexington 
Institute, a military think tank.
    Maj. Gen. Joseph Bergantz, program executive director for Army 
Aviation, says: ``Because of the aging, more things are starting to 
fail. Our readiness rates are lower now and are getting lower over the 
years.''
    Still, Gen. Bergantz and other military officials insist that only 
a small percentage of helicopter accidents are attributable to 
equipment failures. A recent Black Hawk crash in upstate New York that 
killed 11 soldiers is being investigated.
    In a war with Iraq, Apaches and Cobras would be expected to take 
out Iraqi ground troops that might attempt to head off U.S. forces 
moving in from Kuwait. Black Hawks and Hueys would be the main vehicles 
to swiftly ferry platoons of soldiers and marines into fighting 
position.
    The other services often use similar aircraft, outfitted for their 
special needs. The Air Force and Navy, for example, plan to use the V-
22, but in a more limited way than the Marines--if the V-22 isn't 
scrapped.
    For helicopters operating in the desert, one of the most insidious 
threats is sand. Not only do sandstorms kick up without notice, but an 
improper approach to landing can envelop a chopper in a dust cloud that 
can instantly disorient a pilot.
    Maintenance crews are working overtime to undo the damage done to 
copters by the desert. After a few hours of operation, many of the most 
delicate parts of the jet engines that power helicopters can become 
coated with glass, from sand ingested into the compressor sections.
    Since the Gulf War, the helicopter manufacturers have developed new 
intake filters that better strain the air sucked into the engines. They 
also have developed a clear tape that is applied to the leading edges 
of rotor blades to cut down on the sandblasting damage caused by the 
rotors whirling through dust clouds.
    For now, to minimize the risk that a combination of aging aircraft 
and tough climactic conditions will result in fatal mishaps, Marine 
pilots have been drilling at their high-desert base near Twentynine 
Palms, Calif., and near their temporary headquarters in the Middle 
East. One Cobra pilot with the call sign ``Weasel'' says, ``there's a 
lot more emphasis'' at present on repeatedly practicing takeoffs and 
landings to get a feel for conditions and how their choppers respond.
    At their base near Iraq, the 3rd Marine Airwing of the 1st Marine 
Expeditionary Force are reminded daily of the odds. Beneath the flight 
schedule hung on the wall in the mess hall, a posting declares, ``In 
the Gulf War, 18 aircraft were destroyed. Only 3 were a result of 
direct enemy action.'' The squadron's commanding officer made it even 
clearer in a briefing last week for his pilots. ``The enemy ain't going 
to kill you, probably. It's going to be these landings,'' he said.
    The 3rd Marine Aircraft Wing's safety officer, Maj. Bruce Laughlin, 
says in the 1991 Gulf War more than a third of Marine helicopter 
mishaps--from minor equipment damage to fatalities--were a result of 
brownout conditions or other weather-related visibility problems. He 
says in Afghanistan--where he flew 75 hours in Cobras made by Textron 
Inc.'s Bell Helicopter, of Forth Worth, Texas--the numbers followed a 
similar trend.

    Senator Leahy. This talked about how our helicopter fleet 
is aging. There is one thing I would point out. We added funds 
in the budget so that the 101st is slated to equip many of its 
Black Hawk helicopters with the Health and Usage Monitoring 
System (HUMS), the integrated mechanical diagnostic health and 
usage monitoring system. I have to read out the actual words 
for it, but this basically does continuous diagnostics on all 
of our helicopters. If they are so equipped, they come back, 
you can instantly download which helicopters are ready to go, 
which ones have problems, and so forth. Does the Army plan to 
move forward with this technology, either in the fleet they 
have now or in subsequent fleets?
    General Shinseki. I think philosophically the answer to the 
question is, absolutely yes, that having this ability to 
trouble-shoot our equipment without having to do it with purely 
manual labor is the way we intend to go, both with our 
investments in future systems, and where we can to insert those 
capabilities into our current inventory.
    Some of that inventory is not conducive to applying----
    Senator Leahy. I understand.
    General Shinseki [continuing]. The new technologies, but 
where we can, that is very much in our interest.
    Senator Leahy. I would also think in a wartime situation, 
where you do not have a great deal of time to do diagnostics, 
when the helicopters come back, for the field commander to at 
least be able to say, number 1, 5, and 12 are ready to go, but 
this one is not, and be able to know it instantly, would be 
awfully helpful to you.
    General Shinseki. Right.
    Mr. White. Let me add, Senator, if you do not mind----
    Senator Leahy. Yes, Mr. Secretary.
    Mr. White. We laid out several years ago an aviation 
modernization program that will result in a reduction in the 
overall size of the fleet by about 1,000 helicopters, but will 
wash out of the fleet all the Cobras, the Vietnam-era aircraft, 
the Cobras first, which are going now, and Hueys by fiscal year 
2004. I think the picture in the Wall Street Journal article 
was of a Marine Corps twin-engined Huey.
    Senator Leahy. It was.
    Mr. White. In the meantime, we are investing in all of our 
primary helicopters Apache Longbow, Black Hawk, both newer 
aircraft and conversions and then, of course, conversions of 
our Chinook fleet. However, even with that modernization, 
though, we do not meet our standard of having the average fleet 
life of helicopters below the half-life of the aircraft, below 
10 years. The only fleet we make that in is Apache, and we are 
above that in Black Hawk, and we are above that in Chinook, and 
that is why the funding of the modernization lines on all those 
aircraft are so important, because obviously we are flying them 
right now.
    Senator Leahy. I agree with that, but keep an eye on the 
HUMS.
    Mr. White. I will do that.
    Senator Leahy. I have a parochial interest, but I also have 
just an interest in thinking it is probably going to save us a 
lot of money in the future, and I realize retrofitting is one 
issue. As you modernize fleets, it is another.

                           SOLDIER EQUIPMENT

    We also have, when the United States (U.S.) Special Forces 
and the 101st and 82nd went to Afghanistan they were given an 
advanced combat helmet. I have talked to the troops. I have 
actually got E-mails. They said they like the--it is lighter 
weight, added protection and so on. One soldier apparently took 
a couple of AK-47 rounds in the head during Operation Anaconda 
and kept on fighting, so it is pretty impressive, impressive 
for the equipment, also pretty impressive for the soldier, 
too----
    General Shinseki. Absolutely.
    Senator Leahy [continuing]. Under a circumstance like that.
    Are these going to be done in other--I mean, are we going 
to continue to get this helmet out to the troops.
    General Shinseki. Yes, sir.
    Senator Leahy. Do you need more money? Do you need more 
money, General? Here is your chance. Do you need more money in 
this budget for that?
    General Shinseki. Senator, 2 years ago we did something we 
should have done probably a long time ago, and you know, in our 
programs we talk about systems, whether they are tank or 
aviation. We declared a system for soldier equipment, and 
instead of buying individual pieces, we talked about the entire 
ensemble a soldier deploys to combat with, whether it is 
uniforms, whether it is ballistic protection for the chest and 
the head, and by the way, they have ballistic protection for 
the body as well, and it works as well as that helmet you 
describe.
    I ran into a youngster here a few weeks ago who was 
carrying around the plate he was wearing and wanted to show me, 
this thing had hit about an inch off the margin and I asked him 
what he thought. He said, make it a little bit bigger, it will 
be fine.
    What we have been able to do, because we focused on 
equipping the solder as a system--and assume that our 
environment is sort of out there in the outdoors. If it is hot, 
we wanted equipment that would aerate him or her, if it was 
wet, keep them dry, if it was cold, keep them warm, and 
whatever we gave them had to give them better protection than 
the uniform they wore.
    As a result, we are fielding to the units going into 
Afghanistan, the 82nd and following that the 101st, but Ranger 
Regiment as well, a new kit that does a lot of the things you 
describe, and so for about $12 million a brigade formation we 
are doing that, and we will continue to do that, and more money 
will help us to go faster.
    Senator Leahy. Including the helmet?
    General Shinseki. The helmet is part of that.

                               LAND MINES

    Senator Leahy. General, let me ask you one question, too. 
Last September, the General Accounting Office (GAO) issued a 
report--they did quite an intensive investigation. You and I 
have discussed some of this before, and they did their 
investigation based on DOD data, the effectiveness of land 
mines in the first gulf war.
    The GAO found no evidence, none, that our mines, either 
antipersonnel or antitank mines, had any positive military 
effect. They did say, and I have heard this from commanders in 
the field, they impeded the mobility of our own forces. About 
2,000 of our self-destruct mines did not self-destruct as 
advertised, and the Department, which commented on this report, 
did not disagree.
    Current U.S. land mine policy calls for the elimination of 
antipersonnel mines, including self-destructing mines, outside 
of Korea by fiscal year 2003. Do you have any plans to use 
antipersonnel mines--I am talking about other than man the 
loop. I have no problem with man-the-loop antipersonnel mines, 
but do you have plans to use antipersonnel mines in the war 
with Iraq?
    The reason I ask is, I know that Great Britain, Spain, and 
Australia, who are there with us, have banned these from their 
own arsenals.
    General Shinseki. Senator, when you say, antipersonnel 
mines without manning the loop, you are talking about what we 
refer to as the dumb mines, once laid they are----
    Senator Leahy. Including, apparently, these 2,000 of our 
so-called self-destruct mines did not, so they are kind of 
dumb, too.
    General Shinseki. Yes. Well, the performance of the self-
destruct mines, of course, it is not perfection, but there is a 
very high confidence factor in their ability to be destroyed or 
to self-destruct.
    Senator Leahy. But it is not a man the loop. I mean, 
Claymore has man the loop, but these do not.
    General Shinseki. Well, the mines that are laid out there 
that can be destroyed would have a man in the loop in terms of 
setting the amount of time they are there, whether it is 4 
hours, 15 hours, or days, or self-destruct on command, as 
opposed to the mines that you and I are familiar with, having 
been laid in Korea, and they are essentially there until 
removed.
    I do not know what plans commanders have for the employment 
of mines on operations. It is something that commanders reserve 
for those situations in which they have to make that decision, 
but those decisions are made at a significantly high level on 
whether or not the authority to dispose of and employ mines, 
but there are a set of circumstances in which a commander's 
formations are at risk, and it has to be protected flanks, or 
they find a force that is a significant threat that they want 
to fix and expose for attack by other service joint fires. 
There are situations in which mines are useful, and I am sure 
that commanders have that decision set in their consideration.
    I am not aware that there are any dumb mines that will be 
employed. In fact, I am confident that there are not.
    Senator Stevens. Thank you very much.
    I have failed to note that we have a new staff director, 
gentlemen, Sid Ashworth, a former Army civilian who has a son 
in OCS, Officers Candidate School now, and I believe she is the 
first woman to ever head a staff of a defense appropriations 
subcommittee in the Congress, so we are pleased to have one of 
your former members of your Army with us.
    General Shinseki. Thank you. Of course, the chairman and I 
did not miss the fact that you had a new staff director, Mr. 
Chairman.
    Senator Stevens. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, let me wish Sid well and 
welcome her to her new position.

                       FUTURE REQUIREMENTS COSTS

    General Shinseki, you have used some candor recently in 
testimony that turned out to be painful for you and refreshing 
for some of us, and I do not want to get you in trouble today, 
but I do want to ask some questions about costs.
    This subcommittee appropriated about $365 billion for 
funding for this fiscal year, and that will increase when we 
receive the supplemental, so this subcommittee wants to 
appropriate, I think everyone on this subcommittee, we want to 
appropriate sufficient money to meet the needs of the men and 
women who serve this country. In order to do that, we need to 
try to have some understanding of what future requirements are.
    Now, this budget that we are having a hearing on today is 
for fiscal year 2004, beginning October 1, and the supplemental 
that we will receive apparently in a week or so will be to 
cover costs for this fiscal year, fiscal year 2003. Is the 
budget that we are discussing now a so-called, ``peacetime 
budget,'' which does not include the costs of a potential 
occupation of Iraq? I guess that is my first question.
    General Shinseki. That is correct. It is a budget that does 
not carry any funding for the contingencies we are now dealing 
with, either Afghanistan or in Iraq.
    Senator Dorgan. I understand. Does it carry funding for the 
war against terrorism? There was a previous question asked of 
the Secretary about the cost of the war against terrorism, and 
that apparently is being funded out of other accounts, so we 
will make that up in the supplemental, but with respect to 
October 1 and beyond, in the coming fiscal year, does the 
budget request that we are now considering include money for 
the war on terrorism?
    General Shinseki. It does not.
    Mr. White. No.
    Senator Dorgan. So what I am trying to understand is this. 
We are having a hearing to try to think through what will our 
obligation be beginning October 1, 2003, for fiscal year 2004. 
In order to understand that, we need to understand what all of 
the costs and obligations will be. We know for a certainty 
this, that we will continue the war on terrorism. That is a 
certainty.
    We know for a near certainty, I suspect, that we will have 
some costs and responsibilities with respect to Afghanistan, 
and we know for a near certainty that we will have 
responsibilities and costs with respect to Iraq, and if what 
happens at the end of the week is what we expect will happen, 
my guess is that will be some kind of an occupation force for a 
period of time.
    Those are three areas all of which we have some reason to 
want to quantify as a subcommittee in order to evaluate what 
our obligation might be for fiscal year 2004, beginning October 
1. Can you help us with any three of those areas, not with 
respect to the supplemental. I am talking about with respect to 
the new fiscal year budget and the appropriation request that 
we are going to want to be considering.
    General Shinseki. I can only apologize Senator, that when 
the fiscal year 2004 budget was put together the data that you 
are asking about was not refined enough to be able to be 
included in it, and any potential discussion about what the 
operation--an operation in Iraq or any follow-on probably is 
undefined at this point, and I think once commanders understand 
what that mission will require and state then what it will take 
to do that, those numbers will become clearer, but I do not 
think either the Secretary or I are able to provide any more 
clarity on it today, with respect to Iraq.
    Senator Dorgan. Well, that is certainly true with respect 
to Iraq, but it is not likely true with respect to Afghanistan 
and the war on terrorism. Can you address at least those two, 
and then let me come back to Iraq?
    Mr. White. The Afghanistan operation and the war on 
terrorism, because we have been conducting it for 18 months, 
assuming that, the rough cut number that--and I think this came 
up in front of previous committees--that we asked for for the 
non-Iraq tasks was about $6 billion for fiscal year 2003, and 
we got a part of that covered in the omnibus spending bill for 
fiscal year 2003, which provided, I think, $10 billion, six of 
which went to defense and about, a little under $2 billion came 
to the Army, so that partially covers that increment, but that 
is roughly what that is.
    Senator Stevens. Would the Senator yield to me?
    Senator Dorgan. I would be happy to yield.
    Senator Stevens. Realizing this question would come up, I 
asked the Congressional Research Service (CRS) to give us a 
memo to review how the United States has budgeted for wars in 
the past, and I have just received that, a copy of that.
    Based on an examination of the previous CRS reviews of 
funding for wars and other major military operations, it 
appears, with one possible exception, that Presidents have not 
requested and Congress has not provided funding for wars in 
advance of the start of the operations. Rather, administrations 
have requested fundings after the operations have begun, and 
Congress has subsequently appropriated monies to meet 
specifically documented budget requirements.
    That one exception was in the case of President Johnson, 
but the discussion I had last evening was, we will get a 
request once these new operations have commenced.
    We do intend to cover the war against terrorism and the 
balance of this year as far as the supplemental is concerned in 
a document we should receive next week.
    Senator Dorgan. Well, you make a fair point, and the point 
I was trying to make is that with respect to the war on 
terrorism, and Afghanistan, that, the cost of that I assume 
will be built in routinely for the coming fiscal year budgets 
for the appropriations requirements.
    Senator Stevens. To the contrary. They will be built into 
supplementals that are associated with it, and we have funded 
Afghanistan on a supplemental basis. We are funding now the 
ongoing, continued operations of the Department of Defense in 
terms of structural requirements of the Army and other 
agencies.
    Senator Dorgan. I do not understand that, because at least 
with respect to those hostilities that are over with respect to 
Afghanistan, those are longer-term recurring obligations, and 
we just as well plan for them, but I accept the point you make 
how it has been done previously, and I accept the point on 
Iraq. Hostilities have not yet begun there.
    At some point I assume planning has been underway for an 
occupying force and we will be alerted to what the costs are. 
General Shinseki, you were candid before another committee, and 
I will not ask you questions about that now, because I 
understand that created quite a furor inside the Department of 
Defense, but I would just say, as one member of the Committee, 
we are going to fund what is required to be funded to support 
our military, but I would also think it would be helpful for us 
to be involved in some of those discussions. I do not think it 
is detrimental to have those numbers out there as the planning 
ensues, but let me ask one additional question.

            ACTIVE COMPONENT (AC)/RESERVE COMPONENT (RC) MIX

    We have a lot of men and women of the Guard and Reserve who 
have been called up, citizen-soldiers. They have left their 
jobs and their families, and they are serving this country 
admirably. When you talked about end strength earlier, I 
believe you were responding to a question from Senator Inouye. 
I think one of the questions for this Congress perhaps, and you 
especially, is what kind of call-ups and deployments are 
required, to the best that you could estimate, in the next 
several years as we begin contemplating occupying forces here 
and there?
    Do you need an increase in end strength? Do you intend to 
continue to rely more heavily on call-ups of Guard and Reserve, 
because all of that I think plays a role in the longer-term 
discussions about what kind of permanent funding is necessary 
and what size of an Army do we need? Can you respond to that?
    General Shinseki. As I have testified before, Senator, I 
think end strength of the Army is an issue, and the fact that 
even before the build-up for a potential Iraq, we were carrying 
something on the order of 20,000 to 30,000 Reserve Component 
soldiers routinely mobilized for Sinai, for Bosnia, and 
missions of the sort, and imposing a requirement, intensity of 
OPTEMPO on the Reserve Component, and suggesting that there is 
an issue here about taking some of those day-to-day missions 
off the Reserve Component and sort of preserving them for these 
large emergencies that we have to deal with.
    That is all part of the discussion, the study that the 
Secretary has us focused on, but I do think in the final set of 
study outputs, the end strength of the Army is smaller than the 
mission set we are asked to carry. Now, you can reduce the 
missions, you can increase the Army end strength to be able to 
accommodate, but some place in there, adjustments will be 
required.
    Mr. White. The other dimension of this, if I might, 
Senator, the other dimension, as the Chief said, is the Active 
Component-Reserve Component mix of units. There are some 
Reserve Component units, military police (MP) units, for 
example, that have been constantly mobilized and appear to be 
in high demand, and so if that is the case, you ask yourself, 
why don't you have them in the Active Component if you are 
constantly mobilizing Reserve Components, so one of the things 
that Dr. Chu is running a study on that we are all actively 
participating in is, is the balance between AC and RC correct 
not only in the quantity of units, but in types as well.
    Senator Dorgan. Well, I think that is a very important 
question, and I hope you will keep us informed of this study, 
because I am not asking on behalf of people who do not want to 
serve. They are members of the Guard and Reserve. They 
understand deployments. Many of them have been deployed a 
number of times, but I think the longer-term question is, 
should in some of these circumstances there be active duty end 
strength increases.
    Let me make one final point relative to something the 
chairman said. It is my belief that the war against terrorism, 
unlike other classic wars where we have had battles that occur 
and then recede, and there are surrenders and agreements and so 
on, the war against terrorism, I think, will be with us for a 
long, long time. It is my expectation that 5 and 10 years from 
now we will talk about the cost of continuing to pursue the war 
against terrorism.
    For that reason, I think we would be wise at least to think 
through the proposition of that piece being a part of what we 
decide and what we plan for the strength of our Armed Services 
to be in order to meet those obligations, rather than to do 
that on a supplemental basis year after year.
    That is the point I was trying to make, Mr. Chairman.

                   SPECIAL OPERATIONS COMMAND (SOCOM)

    Senator Stevens. If the Senator would yield, the committee 
just went down to the Special Forces Command and visited them 
in Tampa. There has been a reorganization of the military for 
that purpose, and we expect to see funding through that 
organization for most of the contingencies that relate to the 
war on terrorism. That used to be a support command. It is now 
an operational command and will have units of its command in 
several other commands throughout the country.
    You are right, I think we are on that course now, but so 
far the war on terrorism has been funded through supplementals, 
and I think when we get--this is an overview of the overall 
budget of the Army. When we get the individual components here, 
you will see how that is starting to work into the projections, 
but I do not think we have a full funding yet for the war on 
terrorism in the fiscal year 2004 budget.
    General Shinseki. Mr. Chairman, may I just add to your 
observation here? In the fiscal year 2004 budget, the Army in 
support of our Special Operations Forces in SOCOM are adding 
something in the order of, I think, 1,800 additional personnel 
spaces. We put an additional $1.1 billion out of Army resources 
into Special Operations Command.
    Our entire fiscal year 2004 CH-47 production line of 16 
aircraft are being provided to Special Operations Command to 
replace and to augment the capabilities they have, so the 
Army's production of CH-47s next year are all going to SOCOM. 
We are taking a year sort of a break before we can get----
    Senator Dorgan. As a final point, General, if later this 
week your soldiers are ordered to military action, you know 
that the prayers of all Americans go with them as you and the 
Secretary and others issue those orders.
    General Shinseki. We certainly know that.
    Senator Dorgan. Thank you very much.
    Mr. White. Thank you.
    Senator Stevens. Thank you, Senator. Senator Hutchison.

                     STATEMENT OF SENATOR HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman.
    First I want to say that my loss is your gain with Sid 
Ashworth, and she did a wonderful job on military construction, 
and I love my replacement, but I sure always will miss her, and 
I am very pleased that you did promote her.
    I also want to say, the first time I met General Shinseki 
was on a runway in Bosnia, and you were really overseeing the 
beginning of the ramp-up there, and the first time I went into 
Bosnia was with Senator Stevens and Senator Inouye, and we were 
in helmets and flak jackets, and they were shooting at us from 
the hills, so we very much feel that you have served our 
country so well, and I do wish you well, and I want to say I 
think you have done a terrific job.
    General Shinseki. Thank you, Senator.
    Senator Hutchison. And I also want to say, Secretary White, 
I really enjoyed working with you, and you have been honest and 
straight up with me in all of our dealings, and I appreciate 
your service very much.
    Mr. White. Thank you.

                            TRAINING CENTERS

    Senator Hutchison. As you know, I am chairman of the 
Military Construction Subcommittee, and we have talked about 
looking at the foreign bases, and as I have visited many 
foreign bases with my colleagues here I have found training 
constraints, I have found artillery range constraints, air 
constraints, and as a matter of fact, in Germany, for instance, 
Grafenwoehr, one of the premier training areas in Germany, only 
has 18,000 acres.
    And yet I look at the capabilities that our own bases in 
America provide, I look at the National Training Center in 
California, which has almost 500,000 acres, Fort Bliss has a 
million acres, and I just want to ask you, are you looking for 
new training locations in other places in Europe? Are you 
looking at bringing some of the training capabilities home to 
America? Are you looking at Fort Bliss in particular as a 
reinvigorated maneuver training area? What are you looking at 
to try to, in your transformation, make sure that we are not 
looking at these continued training constraints?
    General Shinseki. Well, Senator, we are doing all of the 
above. Even Grafenwoehr today is not the Grafenwoehr Secretary 
White and I trained in many years ago, and we have augmented 
the capabilities there because of that very small footprint.
    We are trying to stay in touch with our combatant 
commanders here. They have been asked to take a look at their 
regions and decide what Army capabilities they need forward and 
where should they be located, and so we are working with 
General Jones and General LaPorte and Admiral Fargo.
    We have suggested a long-term strategy is helpful. To 
answer the questions about where do we see our interests, the 
advantage for forward presence has a very remarkable effect 
because of our ability to engage other armies, so there is a 
return there, but what do the combatant commanders need 
forward, and then we will decide.
    What is not needed forward we will bring back to the 
continental United States and position them where their ability 
to do the things that armies have to do--they have to train 
wherever they go, and they have to train aggressively. They 
have to be able to deploy from wherever they are stationed, and 
then do the best that we can to take care of those soldiers and 
families in terms of their lifestyle, and we are doing all 
those things.
    As one of those youngsters that grew up in the Dona Ana 
Desert there at Fort Bliss, I know it pretty well. It is a 
wonderful training area.

                       DOMESTIC AND FOREIGN BASES

    Senator Hutchison. Well, my question is, are you looking at 
the timing, not only of our fiscal year 2004 budget so that we 
are preparing, but secondly for the fiscal year 2005 Base 
Realignment and Closure (BRAC)? Are we going to know what the 
needs are going to be of our domestic bases in regard to the 
foreign bases before we start shutting down or retooling bases 
here?
    Mr. White. Well, I think you have to. That is why Secretary 
Rumsfeld is pushing the combatant commanders hard to bring in 
their recommendations on what the posture of the force should 
be in their regions, and why we on the Title X side will then, 
and in concert with the combatant commanders, will line up the 
investments that we intend to make and realign the force, which 
is obviously inclusive of the BRAC initiative back here in the 
continental United States, and we do not have much time, in my 
opinion, to figure that out.
    Senator Hutchison. Well, we certainly do not with the 
fiscal year 2004 budget, because we do not want to be putting 
one dime in an overseas base that is not going to be long term.
    Mr. White. Right.
    Senator Hutchison. And we do want to be putting our dimes 
in our bases here, and I want to say, I appreciate your 
emphasis on installation management. I think that is a very 
good sign, because particularly as we begin to look at closing 
bases we want to make sure that the ones that are going to be 
ongoing are well maintained, and we are seeing money go away 
from that into operations, and I know there is always a strain 
on the budget, but I think your emphasis there is well put, but 
I have been pushing now for 2 years to find out what your long-
term strategies are in the foreign bases, and we have a report 
that was due April of last year that still has not come in. I 
do understand, however, that there is a new emphasis----
    General Shinseki. There is.
    Mr. White. There is.
    Senator Hutchison [continuing]. And that it is being pushed 
now, which I think is good.

                      RESERVE COMPONENT RECRUITING

    A second area that I just wanted to talk about, again, in 
talking to so many of the Guard and Reserve units, I am 
concerned, not in a time of war, because our troops will always 
be there giving in a time of war. The cause is there.
    But even back when we were not in a war, I was beginning to 
see a little fraying at the edges with family problems and 
employer problems with our Guard and Reserve because of the 
OPTEMPO, so my question is, are you seeing this? You had a 
little bit in your written testimony, General Shinseki, but I 
would just ask if you are seeing a problem in recruitment of 
Guard and Reserves, and with the heavy reliance that we have on 
them because of the drawing down of our troop strength, are we 
really looking ahead to make sure that we are in the right 
configuration?
    General Shinseki. We are looking ahead, Senator, and I 
think if there is a time when we can get to a good set of 
metrics that says here is what happens to you in a large 
mobilization, both this mobilization for a potential Iraq, the 
mobilization associated with Afghanistan, the global war on 
terrorism, we are going to get some pretty good answers out of 
this, so yes, we are looking at that.
    I, too, have heard anecdotally and in spot cases concerns 
about what the tempo has meant to Guard and Reserve soldiers 
and families. There is, I think, a double effect here, and we 
have worked very hard with employers to suggest to them that 
the service of these military members is important, and we 
intend to look after them, but I have heard some of these 
comments. I am sure there is more out there than I have heard, 
and we are paying attention.
    As I indicated, for the first time we saw a drop in a 
monthly recruiting target, and so we are focused.
    Senator Hutchison. I just hope you will anticipate way 
ahead of a crisis point. I am not worried about getting through 
this this time, but I am talking about 2 years from now.
    Mr. White. Right.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    Senator Shelby.

                           AVIATION TRAINING

    Senator Shelby. Thank you, Mr. Chairman. I will try to be 
as quick as I can. The Army Aviation Training Center, General 
and Mr. Secretary, has developed, as you know, a new training 
aviation strategy called Flight School XXI.
    General Shinseki. Yes, sir.
    Senator Shelby. The program regime focuses on increased 
training for aviators in their so-called go-to-war aircraft. 
Phase 1 of aviation training, the TH-67 training helicopter is 
shortened by 20 weeks here. Phase 2 of the training in the 
aviators' advanced aircrafts of choice has increased in length, 
it is my understanding.
    General Shinseki. That is correct.
    Senator Shelby. This training includes a significant 
increase in time spent in training simulators. Sixty-eight 
million dollars in the fiscal year 2003 budget remain unfunded, 
seriously unfunded, $68 million in fiscal year 2003, $147 
million in unfunded requirements in fiscal year 2004, and 
between fiscal year 2004 and fiscal year 2009 the Army faces a 
Flight School XXI funding shortfall of approximately $1 
billion.
    Flight School XXI obviously is of particular concern here. 
What are your thoughts on that, General?
    Senator Stevens. General, let me interrupt. I have been 
called to a meeting on a matter close to my heart and my State, 
so Senator Inouye has some additional questions. Do you have 
some additional questions, Senator?
    Senator Hutchison. No.
    Senator Stevens. Senator Inouye, will you chair the balance 
of the hearing?
    Senator Inouye. Yes.
    Senator Stevens. Thank you very much.
    Senator Shelby. Thank you, Mr. Chairman. Go ahead, General. 
What are your thoughts on that? I know it is a shortfall. You 
have got an important program.
    General Shinseki. In the fiscal year 2003 budget we are 
looking at Flight School XXI, and we continue to adjust the 
budget to meet the needs here, but as you indicated, we have 
taken a 32-week phase 1, two-phase aviation training, taken a 
32-week program and shortened it to 20 and given more time in 
high-performance aircraft.
    Senator Shelby. Where you need it, right?
    General Shinseki. Where they are needed, and that means 
that aviators are getting to units much better-prepared to 
participate in unit-level training.
    Senator Shelby. So that is the program the way you have 
devised it, is it not?
    General Shinseki. That is correct.
    Mr. White. Yes.
    General Shinseki. That is correct, and that is the way it 
is, and as in all new initiatives, you are not able to fully 
fund it initially, and so we continue to look at the 
adjustments during the budget year. It is in the program as 
well.
    Senator Shelby. I want to help you fund it everywhere I can 
up here with Senator Stevens and Senator Inouye.
    General Shinseki. Sir, I appreciate the help. It is an 
important program for our aviation community.
    Senator Shelby. Mr. Secretary, do you have any comments on 
that?
    Mr. White. No. I am a Fort Rucker graduate, and I 
absolutely agree with the direction, more hours in go-to-war 
aircraft.
    Senator Shelby. Sure.
    Mr. White. Simulation is healthy, produces a better-trained 
aviator to go to the force, and I think that is what we all 
want.

                        LOGISTICS TRANSFORMATION

    Senator Shelby. Thank you. I have one more concern, Army 
logistics transformation. Under the current acquisition 
process, as I understand it, the Army provides requirements to 
an original equipment manufacturer (OEM) who designs the 
system, provides initial provisioning, and hands it off to the 
Government for life cycle support. This as-delivered model then 
drives the Government's spares, manning, and maintenance 
requirements for that system.
    Once the hand-off occurs, it is my understanding that no 
Government agency conducts a methodical and continued analysis 
of the fielded system over time to support what we call an as-
sustained model, the results of which could provide invaluable 
information to the customer and could save huge amounts of 
operations and maintenance dollars. Better system sustainment 
measures--that is, metrics--are needed to improved the Army's 
acquisition and logistics systems.
    For example, I have been told that the AH-64 transmission 
was engineered for 2,500 hours of use, but the actual average 
useful life is about 2,000 hours. This difference affects 
operations at the lowest levels in terms of budgeting, spares 
storage and manning. It affects the institutional Army in terms 
of materiel buys and extended depot lines. The program managers 
(PM) and program executive officers are affected in that they 
now may have a big engineering problem.
    Given the focus here, what is the Army's plan to develop a 
weapons system sustainment model containing robust metrics to 
accurately reflect the true cost of life cycle systems 
sustainment and force readiness? I know that is a mouthful, Mr. 
Secretary, but both of you understand it well.
    Mr. White. Sure.
    General Shinseki. Senator, you have described where the 
Army has come----
    Senator Shelby. Right.
    General Shinseki [continuing]. Over the last 3 years. Three 
years ago, our logistics community sat here and acquisition 
community sat here.
    Senator Shelby. Absolutely.
    General Shinseki. Today the Army G-4, our logistics 
officer, now sits with the acquisition community, and when we 
talk about design of a system, it is the life cycle interest, 
it is not just the design up front and the fielding. It is, how 
do we think this is going to result in sustainment costs and 
retirement costs at the back end of any weapons system, so that 
is a first major piece.
    General Paul Kern is our logistics war-fighter at Army 
Materiel Command, a terrific commander who was missioned to do 
this logistics transformation initiative, and he has pulled 
that together in rather significant ways.
    Senator Shelby. This could save the Army, all of us a lot 
of money in the long run.
    Mr. White. No question.
    General Shinseki. Absolutely.
    Senator Shelby. I know that is what you are----
    General Shinseki. Absolutely.
    Senator Shelby. But you have got to do the metrics here.
    Mr. White. That is right.
    General Shinseki. And he is in the process of putting 
together the metrics for the whole system. When you look at the 
nose cone on an attack helicopter, the Target Acquisition and 
Designation Sight (TAD) Pilot Night Vision System (PNVS) nose 
cone, probably the most expensive piece on the air frame, and 
if you continue, it continues to have problems and you continue 
to replace it, well, that is one approach to it.
    Another approach is, you take it, you redesign it so you 
are not replacing it quite as often, and it reduces the number 
of mechanics and number of inventory parts that you have to 
hold, so all of this is a broad-gauged, a very refreshing 
approach that General Kern is after and I think in the long 
run, there are going to be huge dividends to be paid.
    Senator Shelby. Well, like the name, life cycle is 
important.
    General Shinseki. Absolutely.
    Mr. White. That is right, and we should as a separate 
matter, because you have a strong interest here, get General 
Kern in to talk about logistics transformation, because it 
affects the research and development (R&D) command, as you and 
I have talked about----
    Senator Shelby. Absolutely.
    Mr. White [continuing]. How the logistics operators 
interface not only with the theater support commands on one 
end, but with PMs, Program Management Officer (PMOs), and we 
will come and give you a separate discussion on that.
    General Shinseki. Tied to the depots.
    Senator Shelby. We will follow up on that, but I knew this 
was what you are doing. We have got to go another step, I 
believe, and maybe you are in that process.
    Mr. White. We are.
    General Shinseki. We are.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.

                            STATUS OF FORCES

    Mr. Secretary, the recently released 2002 active duty 
status of forces survey of the Army was issued and showed a 
satisfaction rating of 59 percent. Now, this is much better 
than what it was 3 years ago. I will not go into detail, but 
could you submit to the committee your analysis on whether this 
is good or bad?
    Mr. White. I will do that.
    [The information follows:]
                            Status of Forces
    The Army continually tracks soldier satisfaction with quality of 
life and job satisfaction matters. The satisfaction level with the 
military way of life--59 percent, as reported by the Office of the 
Secretary of Defense July 2002 Status of Forces Survey--is good for 
soldiers, their family members, and the Army. The Army's own survey for 
Active Component soldiers yields similar results. The level of soldier 
satisfaction with the quality of Army life increased from 48 percent in 
1999 to 59 percent in 2002.

                            FORCE PROTECTION

    Senator Inouye. General Shinseki, looking over the fiscal 
year 2004 budget, it appears that the Army will be called upon 
to increase its force protection requirements. For example, you 
will be providing force protection for the Air Force.
    General Shinseki. That is correct.
    Senator Inouye. Now, how will that affect your end strength 
requirements?
    General Shinseki. We have agreed to provide, and I think 
today the number is about 8,500 National Guard soldiers who are 
providing security for Air Force bases, because their air 
police have deployed overseas. To the degree that that is a 
number today, we are prepared to accommodate that, and the 
dollars for that are provided for the Air Force.
    If the Air Force, following this operation, decides they 
are going to increase their air police, whether it is Reserve 
Component or Active, their inventory, it may not have an impact 
on us, but suffice it to say I think in all of these operations 
it is not a precise business, and having capabilities that you 
can draw on is important, and I think this is a good 
demonstration that the end strength business, when you need it, 
you need to have the capability on short notice to stand it up, 
because there are no other alternatives.
    The Air Force requested, we met on this, and we are very 
happy to be able to help them for this short period.
    Senator Inouye. With this program will the Guard and 
Reserve have their own force protection to meet their own 
requirements?
    General Shinseki. They do. Under the homeland security, all 
of us have raised the force protection levels around all of our 
installations to include in the local communities where Guard 
and Army Reserve units reside.

                         AVIATION MODERNIZATION

    Senator Inouye. General, your Transformation program relies 
very heavily upon aviation modernization, and the centerpiece 
is the Comanche. Are you satisfied with its progress?
    General Shinseki. It is. I will defer to the Secretary for 
some of the policy decisions made, because we have just 
recently restructured the program, and I think he is eminently 
qualified to describe it, but the Army's requirement for the 
Comanche is 819 systems.
    As a result of an acquisition board decision we have the 
first 650 of that recognized for the armed reconnaissance 
helicopter. Yet to be determined is the attack version of the 
Comanche, and that will come out in further studies, but we 
have certainly sustained the requirement for this, and the 
Comanche is a key element of our Future Combat System networked 
capabilities.
    Mr. White. Senator, we just went through a Defense 
Acquisition Board cycle on Comanche. We rebaselined the 
aircraft, we focused it squarely on the armed scout version for 
its initial three blocks of fielding. That is our most critical 
need.
    The Kiowa has got to be replaced. We restructured the 
arrangement with the contractors, Boeing and Sikorsky in this 
case, and we brought in outside consultants to look at it, a 
group led by General Larry Watts, former Chief of the Air 
Force, so I am confident that the program is focused correctly 
and now, after 20 years, we have to deliver this aircraft. We 
need it, and so the 2004-2009 POM includes 73 of these 
aircraft. I think the first one for test purposes is 2007, but 
we need to get on with this thing. We will not rebaseline this 
program again.
    Senator Inouye. Some have suggested that the fixed wing 
would do a better job than these helicopters. Do you have any 
response to that?
    General Shinseki. Senator, for the kind of requirements 
that a land force needs in close combat, an armed 
reconnaissance helicopter is important, and just where it has 
to go to operate and what it has to accomplish, and in 
conjunction with unmanned systems, but there is a requirement 
for a manned cockpit some place in the loop here. It is about 
situational curiosity and situational judgment that a manned 
cockpit makes a difference, and for the kind of operations that 
ground forces are involved in, an armed reconnaissance 
helicopter and an attack platform is key to our operations. It 
gets into the close combat support for ground formations.

                           OPERATIONS IN IRAQ

    Senator Inouye. If I may, I would like to make a 
clarification. When I asked the question on volunteerism and 
the Iraq war, I did not want to suggest that our military can 
predict into the future. After all, in a war, there are at 
least two sides. We know what we plan to do and what sort of 
responses we will have, but at this moment, for example we do 
not know what is going to happen to Saddam Hussein--is he going 
to walk, or is he going to do some fighting, and if so, where 
will the fighting be?
    And we read reports in the last 24 hours of his instruction 
to his generals to employ chemical and biological weapons 
systems, and so all of this would obviously have an impact upon 
the cost of war. I realize that it is not possible for the 
military or for anyone here to make any specific requirement or 
predictions. What I think my colleague wanted to note was that 
it would be helpful to us in looking forward as to what the 
costs may be to have some idea of what it would mean in 
addition to our daily work, that is all.

                     ADDITIONAL COMMITTEE QUESTIONS

    And so I would like to--and I speak for other members of 
the committee--submit to both of you questions in writing and 
requests for your response.
    General Shinseki. Certainly.
    Mr. White. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Eric K. Shinseki
               Questions Submitted by Senator Ted Stevens
                       legacy force modernization
    Question. General Shinseki, the Army budget proposes to terminate 
Abrams and Bradley modernization after fielding of modern versions of 
each vehicle to only two divisions. This leaves the 3rd Armored Cavalry 
Regiment, part of the Counterattack Corps, with Abrams and Bradley 
vehicles that are more than 10 years old. Do you believe the Army is 
taking excessive risk in not funding the modernization of the Legacy 
Force?
    Answer. We continue to examine options for the modernization of the 
Counterattack Corps, 3rd Armored Cavalry Regiment included, in order to 
maintain the Corps as a strategic hedge for the future. In the 
meantime, we are gaining irreversible momentum towards transformation 
to the Objective Force. We continue to evaluate the risk in both the 
near term and long term and will propose corrective action if 
appropriate.
                         fcs fielding schedule
    Question. General Shinseki, given the risk associated with the 
Future Combat Systems (FCS), how confident are you that FCS will remain 
on schedule and achieve first unit equipped by 2008, and initial 
operating capability by 2010?
    Answer. We are very confident that we will achieve FCS Increment I 
initial operational capability by 2010 and full operational capability 
by 2012. FCS-equipped units of action will provide Army and Joint force 
commanders with a significant capability that will grow to full 
objective capabilities through spiraling and fielding of subsequent 
increments. There will be two increments of significantly different 
capabilities between 2010 and 2018. Increment I will be fielded in 2010 
to 2018, and in 2018, we begin fielding Increment II. Increment I FCS-
equipped units of action will possess the core capabilities needed to 
execute the ``how-to-fight'' operational concept.
                        fcs/objective force role
    Question. General Shinseki, what gaps do you feel FCS, or the 
Objective Force could be filling in the current conflict in Iraq, if it 
were fielded today?
    Answer. The potential conflict in Iraq reinforces our efforts to 
provide our soldiers and commanders with the best combination of 
equipment, training, leaders, technologies, and organizations that 
together will assure that we can apply decisive and overmatching 
capabilities against any opponent. I am confident that our current 
forces will be quite successful in the event of hostilities in Iraq; 
however, there are a number of ways--at the strategic, operational, and 
tactical level--that the Army's Objective Force could be even more 
effective.
    The ability of the Objective Force, employing enhanced lift 
capabilities, to deploy using multiple unimproved entry points to 
overcome anti-access measures or political boundaries, would have 
reduced problems in staging for operations. For instance, the rerouting 
of the 4th Infantry Division, caused by the unavailability of friendly 
ports near the northern border of Iraq, would have been unnecessary. 
The increased deployability and modularity of Objective Force units, 
coupled with development of advanced air/sea lift platforms not 
dependent on improved air/sea ports will significantly reduce Army 
deployment and employment timelines greatly increasing the Joint force 
commander's flexibility and options. This will increase the chances of 
achieving operational surprise or preemption. Objective Force units 
will be able to begin operations immediately on arrival, requiring 
minimal reception, staging, onward movement, and integration. Moreover, 
projected reductions in sustainment requirements and reliance on 
strategic-to-tactical battlefield distribution will eliminate the heavy 
logistical infrastructures that could hamper operations and constrain 
responsiveness. Overall, these improvements could strengthen the 
strategic and operational speed, agility, and power of the Joint force. 
The Objective Force will allow our combatant commanders to conduct 
operational maneuver from strategic distances.
    The Objective Force will conduct simultaneous and distributed 
operations across the entire Joint operations area. Commanders will 
have the ability to conduct continuous operations with minimal 
operational pauses, controlling an operational tempo that overwhelms 
the enemy's capability to respond. Finally, the Objective Force will 
directly attack enemy decisive points and centers of gravity through 
air-ground maneuver and fires to extend the reach of the Joint force 
commander and expose any part of the enemy force to destruction, 
dislocation, or disintegration.
    The Objective Force headquarters above brigade will be organized, 
designed, trained, and equipped to fulfill command and control 
functions as the Joint task force, Joint force land component 
commander, or Army forces headquarters with minimal augmentation, 
provided by the standing Joint force headquarters and Joint interagency 
coordination group ``plugs.'' These headquarters will possess the 
inherent capability to interact effectively with multi-national forces, 
other agencies, and non-governmental and private volunteer 
organizations. This would be a vast improvement over our current 
operations in support of U.S. Central Command, where our headquarters 
elements required over 2,100 augmentees.
    The Objective Force will also resolve the Army's lack of 
standardized hardware and software in its current communications 
architecture and systems. The Army's Objective Force design will 
integrate seamless Joint command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR) systems with 
linkages to current forces, Stryker Brigade Combat Teams, other 
agencies, and a knowledge-based C\4\ISR architecture as the means for 
achieving situational awareness and battle command--the art and science 
of applying leadership and decision making to achieve mission success. 
This allows for automated spectrum and information dissemination 
management, continuous situational awareness, real-time synchronization 
of fires and maneuver, and the ability to effectively develop the 
situation out of contact. The Objective Force will provide our 
commanders with information-enabled forces capable of distributed and 
simultaneous operations.
    Lessons learned and current operations reinforce that maneuver 
forces require a range of fire support that can provide close, all 
weather, responsive, and accurate fires. The Objective Force possesses 
enhanced lethality through networked fires encompassing Joint fires and 
organic capabilities for line-of-sight, beyond line-of-sight, and non-
line-of-sight fires, deliverable in any conditions of terrain, weather, 
or time. Joint sensor-to-shooter links can rapidly bring lethal effects 
on enemy targets. The Objective Force takes the next step by harnessing 
all-source fires, attack aviation, and intelligence, surveillance, and 
reconnaissance systems to deny the enemy freedom of action, support 
friendly maneuver, and destroy enemy forces and high-value targets.
    The Joint interoperability provided by the Army's Objective Force 
will better complement and enable the capabilities of each of America's 
Armed Services. The Objective Force will provide unparalleled agility 
and versatility by conducting operational maneuver from strategic 
distances and by allowing the combatant commander to open multiple 
fronts. The tailorable command and control headquarters and combined 
arms formations of the Objective Force, with their enhanced 
deployability and reduced logistical footprint, will leverage America's 
strategic reach to address any mission or contingency. In short, the 
Army's Objective Force will hasten the achievement of the combatant 
commander's joint operational objectives throughout the course of 
future campaigns using a combination of speed, power, and knowledge, 
ensuring decisive victory.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                     reconstituting deployed forces
    Question. General Shinseki, today we have a large number of forces 
forward deployed in preparation for a possible war with Iraq, while we 
simultaneously pursue elements of terror globally. Do you believe we 
will be able to reconstitute our deployed forces in an orderly manner 
for a sustained war against terror while meeting our many other 
commitments around the globe?
    Answer. We are confident that we can balance unit reconstitution 
with our global commitments. Army forces will be an integral component 
of coalition efforts in post-conflict Iraq to provide a more secure and 
stable environment that will enable the Office of Reconstruction and 
Humanitarian Assistance to transition the governance of Iraq to an 
interim Iraqi administration. Despite these continuing commitments in 
Iraq and elsewhere in support of the global war on terrorism and other 
directed missions, the Army will undertake a disciplined, orderly 
reconstitution of those forces involved in combat. We will use our 
experience with reconstitution after returning forces from Operation 
Desert Storm, Bosnia, and elsewhere to inform and refine our efforts. 
The Army, in coordination with the Office of Secretary of Defense, the 
Joint Staff, Central Command, and other regional and functional 
combatant commanders will determine the priority and timeline for unit 
reconstitution.
                  reserve component pay consolidation
    Question. I understand the Office of Secretary of Defense would 
like to consolidate the Active, National Guard, and Reserve Military 
Pay Accounts into one Account that would be managed by the Active 
Component. Do you think we can make a significant change like this 
without jeopardizing the integrity of the Guard and Reserve Military 
Pay Accounts?
    Answer. Yes, pending the necessary legislative changes, and 
coordination of accounting processes and related systems. The Reserve 
and National Guard components will continue to have oversight of their 
programs without jeopardizing the integrity of their pay accounts.
                  advanced army rapid emplaced bridge
    Question. Last year, you provided the Subcommittee a response for 
the record concerning favorable progress being made on the Advanced 
Army Rapidly Emplaced Bridge that is also known as the Composite Army 
Bridge. For the record, could you provide an update of your assessment 
of this important program?
    Answer. The Advanced Army Rapidly Emplaced Bridge program continues 
to be a success for the Army. The Rapidly Emplaced Bridging System is 
an interim system designed to support the Stryker Brigade Combat Teams 
(SBCT), which provides tactical bridge support across gaps of up to 13 
meters. Current funding levels in the Program Objective Memorandum will 
purchase the Army acquisition objective of 40 bridges to support the 
SBCTs and provide an interim solution for the Objective Force.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                           white sands/mthel
    Question. The Army and our Israeli partners continue to make 
progress on the Mobile Tactical High Energy Laser (MTHEL) program. I 
was very pleased to see that the Army has given strong support to the 
program in the President's fiscal year 2004 budget request. And I would 
like to take this opportunity to thank the Army for its sound 
management of this program.
    Now that the Army has committed to pursuing MTHEL as its solution 
to rocket and artillery threats, can you update us on the status of 
negotiations with Israel over how to define the system's requirements? 
Has the Army reached agreement with Israel over how to share funding of 
the program?
    Answer. The U.S. Army, in conjunction with the Israeli Ministry of 
Defense and Israeli Air Force, is working to define Israeli MTHEL 
requirements for a combat-effective laser system that can be realized 
within the cost, schedule, risk, and disclosure constraints of the 
MTHEL program. The Army supports the pre-Milestone B development and 
delivery of at least one chemical-based MTHEL prototype for the 
knowledge and understanding we will glean from the process as we work 
to define the directed energy component of our Objective Force enhanced 
area air defense system. However, our long-term focus for directed 
energy is on the development of solid-state laser technology. While 
this requirement process is iterative in nature and complicated by the 
diversity of operational and technical requirements, satisfactory 
progress is being made. The common operational requirements document 
should be completed and sent to the Israeli Ministry of Defense for 
validation and use within their acquisition process within the next 
several weeks.
    The U.S. Army and the Israeli Ministry of Defense have not entered 
into a formal agreement on how to share funding for the MTHEL program. 
Since Israel's involvement in MTHEL will be via a foreign military 
sales (FMS) agreement, the FMS laws under USC Title 22, prohibit the 
MTHEL program from being a formal ``cost-sharing'' or ``cooperative'' 
program. This is a change from the Tactical High Energy Laser (THEL) 
advanced concept technology demonstration (ACTD) memorandum of 
agreement (MOA) which was governed by USC Title 10 and allows 
cooperative research and development efforts and formal cost-sharing 
agreements. However, the Army's intent is to make funding contributions 
to the MTHEL FMS case as provided for under Title 22. Furthermore, the 
Army's intent is for the contributions to equal the FMS funds provided 
by the Government of Israel.
    The MTHEL program will be conducted under Amendment 6 to the THEL 
ACTD MOA. The Defense Security Cooperation Agency general counsel has 
crafted the language in Amendment 6 to ensure it complies with FMS laws 
under USC Title 22. Authority to begin formal negotiations on Amendment 
6 with the Government of Israel will be granted as soon as the 
Department of Defense approves the MTHEL summary statement of intent. 
Again, Amendment 6 does not state a cost-sharing arrangement for MTHEL. 
In order to comply with USC Title 22, Amendment 6 states that Article 5 
(cost-sharing) of the THEL ACTD MOA does not apply, and further states 
that costs will be apportioned, not shared, in a manner to be 
established in the FMS cases.
                           white sands/helstf
    Question. The Army continues to do a good job managing the High 
Energy Systems Test Facility (HELSTF) at White Sands Missile Range. 
HELSTF is the only facility of its kind in the world where state-of-
the-art laser testing and evaluation is conducted. Army, Navy and Air 
Force laser programs continue to make significant strides because of 
this testing capability. But in order to maintain this progress it is 
important that the facility's assets be available for testing as 
scheduled.
    In the last two appropriations cycles combined, Congress has 
designated over $12 million for the Navy to do megawatt laser tests for 
cruise missile defense. Unfortunately, the megawatt MIRACL laser has 
not been available to meet the Navy's needs.
    Can you update us on the status of the MIRACL laser?
    Answer. The Mid Infrared Advanced Chemical Laser (MIRACL) is 
undergoing recertification of its subsystems. This recertification is a 
critical part of a site-wide program to enable the HELSTF to continue 
to provide world-class support to the directed energy weapons 
development programs of all the Services. The MIRACL device itself, its 
optical train, and the Sea-Lite beam director are in good condition and 
ready for use. The pressure vessels and associated piping systems that 
supply reactant gases to the laser are being inspected to insure that 
they can be used safely. This inspection will be completed by mid-May. 
All activity required to enable the safe and effective operation of the 
MIRACL will be completed by July 1, 2003.
    Question. Does the Army have a plan to bring this laser back on 
line so the Navy can move to its next phase of testing?
    Answer. The MIRACL will be exercised on July 1, 2003, in a ``burn-
in'' test to demonstrate that the MIRACL can be operated safely and 
effectively. This test will be conducted at a power level in excess of 
one megawatt of output power. This power level is adequate to meet the 
Navy's test requirements. The test preparations have already started, 
and the Army is confident the system will be available to the Navy in 
mid July after it is refueled.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                            training ranges
    Question. Given the current state of the Army's existing training 
ranges and training centers and the anticipated demands of the Stryker 
Brigade Combat Teams and the proposed Objective Force, are you 
satisfied those ranges and training centers can meet the needs of the 
transformed Army? Does the proposed fiscal year 2004 budget fully fund 
the identified needed upgrades?
    Answer. The Army has a solid range modernization program in place 
that fully supports the training requirements of the Stryker Brigade 
Combat Teams (SBCT). Ranges are under construction, in design, or in 
the Army program that support the transformation of the six SBCTs. We 
have 11 range projects for which the construction contracts will be 
awarded in fiscal year 2003. We have an additional 10 projects that are 
contained in the fiscal year 2004 President's Budget. Other projects 
are programmed for fiscal year 2005. This range modernization effort 
includes a significant improvement to our training infrastructure in 
Alaska and Hawaii. These locations previously had not been modernized 
to the extent of ranges on our installations in the continental United 
States. We are correcting that situation.
    We do, however, have shortfalls in our ability to operate these and 
other ranges Army wide. In fiscal year 2004, our range operations 
shortfall to fund our critical requirements is $5.1 million, Operations 
and Maintenance, Army (OMA); $1 million, Operations and Maintenance, 
Army Reserve (OMAR); and $2.4 million, Operations and Maintenance, Army 
National Guard (OMNG).
    Our Integrated Training Area Management program, that is an 
integral part of range operations, is similarly under-funded in fiscal 
year 2004. The shortfalls are $6.9 million, OMA; $0.3 million, OMAR; 
and $7.7 million, OMNG.
    With regard to our Objective Force ranges, we are still in the 
early stages of defining standard range requirements based on the 
operational capability of the Future Combat Systems (FCS). Our 
definition of those range requirements, combined with stationing plans, 
will determine the specific range requirements for the Objective Force. 
We intend to capitalize on programmed ranges wherever possible by 
adding capability to programmed range modernization projects where 
Objective Force units will be stationed.
    Question. Are you satisfied with the current locations and manning 
of the existing national-level training centers?
    Answer. Although we are satisfied with both the current locations 
and manning levels at all of our combat training centers (CTCs), we 
must continually reevaluate how we replicate and incorporate 
operational lessons learned, technological advances, and asymmetric 
threats into the training program ensuring that our soldiers and units 
are trained to the highest possible standard against emerging threats 
and that our CTCs remain as the Army's premier collective training 
opportunities.
    Based upon lessons learned from previous and current operations, 
the Army is pursuing development of a ``deep-attack'' training 
capability for Army attack aviation units that would offer the same 
degree of realism and standards that the Army provides ground maneuver 
units at CTCs. Our intent is to include the deep operations assets of 
all Services. For aviation units in United States Army Europe, the Army 
conducts an annual deep attack exercise into Poland. For aviation units 
in the continental United States, the Army is looking at conducting 
exercises at either the National Training Center (NTC) in Fort Irwin, 
California, or at the Western Army Aviation Training Site (WAATS) in 
Marana, Arizona.
    A proof-of-principle exercise was conducted at NTC in April 2002, 
and one is planned this year at WAATS. The exercise at WAATS will 
integrate live, virtual, and constructive training capabilities. Live 
forces will use the multi-service training areas in the greater WAATS 
area to include ranges managed by Luke Air Force Base, Marine Corps Air 
Station Yuma, and the Yuma Proving Grounds. Simulations will be 
generated from Fort Hood, Texas. A corps commander will serve as the 
exercise director and will provide the effects coordination cell as a 
player at the operational level. Depending upon the availability of 
headquarters, options are being explored to establish an Air Force air 
operations center to control the air war. Live forces will include an 
aviation brigade headquarters, an attack helicopter battalion, a 
general support aviation company and a Multiple Launch Rocket System 
battalion. Potential Air Force assets include attack aircraft from Luke 
Air Force Base. All live assets that are not available will be 
incorporated through simulations. Based on the outcome of this exercise 
and of the exercise previously conducted at NTC, the permanent training 
location in the United States will be determined.
    Question. Given the need for joint training opportunities, and 
considering the work that the Joint Forces Command is doing in this 
area, do you see any major changes to the tactics, techniques, and 
procedures at the Army's national training centers? If so, what changes 
do you anticipate?
    Answer. The overriding principle governing training at Army major 
training centers is ``train as we fight.'' To this end, the Army 
requires forces participating in training at major training centers to 
perform the tasks they will during operations, with the equipment they 
must use during operations, under the conditions they will face during 
operations, to the standard required for mission success, and with the 
other organizations they must operate. We have worked diligently to 
replicate these operational requirements at each Army maneuver combat 
training center and believe we have been successful for our targeted 
training audience--brigade headquarters and battalion-level units. To 
the extent that these units operate with and accept services from other 
Services, we strive to integrate in training these requirements for 
interoperability tactics, techniques, and procedures. For example, each 
maneuver combat training center incorporates Air Force and/or Navy or 
Marine Corps close air support. When warfighting doctrine evolves, or 
when we discover through operational lessons learned that we need 
different emphasis in our training on interoperability tasks, 
conditions, standards, or participants, the Army aggressively seeks to 
update training at our major training centers. A good example is our 
initiative to adjust training conditions at centers to better replicate 
contemporary operational environments.
    The Army welcomes the work being done by the Joint Forces Command 
to ensure there are adequate venues for forces to train on joint and 
interoperability tasks and that such training offers proper realism. 
This emphasis will undoubtedly improve the realism and rigor of 
interoperability training conducted at Army major training centers.
                                 ______
                                 
                 Questions Submitted to Thomas E. White
               Question Submitted by Senator Ted Stevens
                            industrial base
    Question. Secretary White, the decision not to modernize the 
Counterattack Corps affects not only the Army, but the industrial base 
as well. What steps do you plan to take to mitigate the adverse impact 
on the industrial base as a result of the lack of modernization funding 
in the fiscal year 2004 Army budget?
    Answer. Army Transformation required cancellation of certain 
programs to fund a variety of transformational initiatives to achieve 
greater war fighting capability over the long term. We assessed the 
risks to the industrial base from these program cancellations and, 
where we judged necessary, we have taken steps to mitigate adverse 
impacts. We saw two major risks to the industrial base as a result of 
the decision to not modernize the Counterattack Corps. Both of these 
risks involved maintaining viable armor system production capabilities 
at two production facilities: the Lima Army Tank Plant in Ohio and the 
United Defense combat vehicle production facility in York, 
Pennsylvania.
    The first risk involves the General Dynamics' combat vehicle 
fabrication capability at the Lima Army Tank Plant. We judged that risk 
as unacceptable since Lima initially had an insufficient workload to 
remain viable as a production facility for the fabrication of the 
Marine Corps' Advanced Amphibious Assault Vehicle and the Army's FCS 
ground vehicles. To mitigate this risk, the Army has restructured some 
programs and now has sufficient work to sustain Lima in active 
production until these new programs are brought into production.
    The second risk involved maintaining the United Defense's combat 
vehicle production facility in Pennsylvania. We recognize that this 
facility would also be a likely candidate to manufacture FCS ground 
vehicles in the future. We expect that the production facilities in 
Pennsylvania will remain viable and open through calendar year 2004 
because of a continuation of their current fiscal year 2003 Bradley 
upgrade work. With this expectation and acceptance of risk, we did not 
program fiscal year 2004 funding for Bradley upgrades to protect that 
portion of the industrial base.
    While we cannot guarantee additional work from support for fielded 
systems, foreign sales, and reprocessing vehicles from operations in 
Iraq, the Army is looking hard at workload projections after calendar 
year 2004 and identifying fiscal year 2005 options which might be 
needed to protect any United Defense combat vehicle fabrication 
capability determined essential for future production. Those options 
will consider United Defense work on development of manned FCS non-line 
of sight gun system, unmanned ground systems, foreign sales, and other 
new non-traditional business. All of the other industrial base risks 
from not funding the Counterattack Corps are judged acceptable.
    We expect fiscal year 2003 funding and other work to keep essential 
skills active through the end of calendar year 2004, given that final 
vehicle deliveries are scheduled for June 2005. The program funding for 
system sustainment and technical support will transition in fiscal year 
2006 from procurement to the Operation and Maintenance, Army account. 
We believe United Defense's engineering staff and the Army's own in-
house staff will be able to sustain the vehicles made by United 
Defense.
    The shortage of Bradley upgrade funding is manageable, but there 
are two key issues we must address. The first issue is how we will fund 
the required technical support to the fielded fleet. For fiscal year 
2003, the Army will have to fund the technical support from operations 
and maintenance accounts. That will present a problem for us because we 
will be addressing not only peacetime requirements but also operational 
requirements associated with the global war on terrorism and operations 
in Iraq. Obviously, we will finance the highest priority operational 
requirements first and defer those which are lower priority. A second 
issue is whether key suppliers will abandon the supplier network as we 
reduce requirements. This is a continuing problem, and we will do more 
tradeoff analysis to support decisions, for example, to either 
stockpile components or find alternate suppliers.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                        unmanned aerial vehicles
    Question. Unmanned Aerial Vehicles are proving to be extremely 
valuable to our operations. Are we moving fast enough to procure UAV 
systems that you believe are necessary to perform your missions?
    Answer. The Army is proud to achieve the goal of bringing the first 
Department of Defense UAV program into full-rate production in fiscal 
year 2003 in the Shadow 200 Tactical UAV. The Army is meeting 
deliveries associated with the fiscal year 2003 full-rate production 
contract and is on schedule to complete the procurement of 41 systems 
by fiscal year 2008 to meet the Army acquisition objective. We are 
actively fielding the Shadow UAV systems and their soldiers to the 
Army's divisions and Stryker Brigade Combat Teams. The Army is also 
stationing several additional Hunter UAV units at the corps level and 
as recently as November 2002, stationed its second Hunter company with 
the XVIII Airborne Corps. By the end of this year, a third Hunter 
company will be stationed with the V Corps in Germany. We anticipate 
that Army UAVs will experience a high operational tempo as a key system 
in any operations in Iraq.
    Enlisted soldiers trained at Fort Huachuca, Arizona, operate our 
UAVs. We approach UAV system acquisition as a total package to include 
training, logistics, system design and performance, science and 
technology transition, and life-cycle support. The Army budget for UAVs 
ranges as part of the DOD UAV budget from about 17 percent in fiscal 
year 2003 to an average of about 9 percent in fiscal year 2005-fiscal 
year 2009, demonstrating a highly efficient and productive use of DOD 
funds for UAVs. Use and demand for UAVs from combatant commanders, 
trainers, and soldiers continues to remain high on all counts.
    Question. Is the Army taking advantage of UAV work being undertaken 
by the other Services, such as the Navy's work on Fire Scout, which is 
based on a small, commercially available helicopter?
    Answer. The Navy's Fire Scout program is in the research and 
development phase of program maturity. Senior Army personnel have 
observed the demonstration flights and are encouraged by the system 
developments being undertaken this year, such as conversion of the 
rotor system. The Army is considering various rotor wing technologies 
to fill UAV roles. Programs ranging from the Defense Advanced Research 
Programs Agency A-160 Hummingbird and the unmanned combat armed 
rotorcraft programs, the Fire Scout, and the U.S. Coast Guard Eagle Eye 
tilt rotor system are some of the potential candidates.
    To further support inter-Service cooperation, the UAV program 
office is developing a cooperative development memorandum of 
understanding with the Navy and Air Force to share UAV program 
information. The prime contractor for the Fire Scout, Northrop-Grumman, 
is also the prime for the Global Hawk and the Army Hunter UAV system. 
As the Army is actively converting the Hunter ground control stations 
to the Army's standard production one-system ground control station in 
fiscal year 2003 and fiscal year 2004, a similar conversion for the 
Fire Scout should be affordable and feasible. AAI is the prime 
contractor for the Army's TUAV Shadow system, which entered full rate 
production in fiscal year 2003, and is the prime contractor for the 
USMC Pioneer Improvement Program.
                     oil cleaning/filtering systems
    Question. It is my understanding that the Army changes oil in the 
engines of tanks, personnel carriers and helicopters at fixed 
intervals. There are documented cases of large-scale diesel equipment 
with over 1,000,000 miles of use on unchanged, but filtered, oil. Some 
state National Guard units and state transportation agencies have 
started to adopt this filter technology. Can you comment on the 
applications in the Army that might benefit from an oil cleaning and 
filtering system by Gulf Coast Filters of Gulfport, Mississippi, that 
reduces and may completely eliminate the need for oil changes?
    Answer. Gulf Coast Filters, Inc., has briefed the Army on their 
bypass filter system, and we are conducting a study at Camp Shelby on 
30 five-ton trucks belonging to the Mississippi National Guard. Gulf 
Coast has briefed that their system can reduce services by five fold 
and reduce maintenance failure by supplementing the primary filter and 
using a finer filtration capability. This fine filtration will reduce 
larger physical contaminants such as debris and dirt, but does not 
detect or reduce other contaminants such as fuel, coolant, and water, 
nor will it determine the status of the specified physical property of 
the oil such as viscosity and additives.
    Bypass filters do not detect the source of contamination or wear 
metals caught in the filter. The Army oil change policy eliminates the 
requirement for frequent oil changing based on hours/miles/calendar 
days as specified by many technical manuals and lubrication orders. The 
Army is interested in lubricants and what happens to them in extra 
filtration systems such as Gulf Coast Filters. We are monitoring the 
test at Camp Shelby to capture field data to continue our analysis.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                              fcs vehicles
    Question. Secretary White, the Army's FCS acquisition concept calls 
for competitive and complementary production capabilities of the two 
U.S. ground vehicle producers--General Dynamics and United Defense. 
Both companies are needed to meet the Army's schedule for fielding the 
manned ground variants of the Future Combat System (FCS).
    Preservation of United Defense to produce these vehicles is 
dependent upon whether or not fiscal year 2004 funding is provided to 
it. Currently, no production funding is requested for combat vehicles 
produced by UDLP. Without such funding, United Defense's production 
facilities will shut down two years before FCS low-rate initial 
production begins.
    According to recent press reports, the Under Secretary of Defense 
for Acquisition, Technology, and Logistics was quoted as saying, ``We 
must be able to protect at least two competent, cost-effective 
competitors on every weapon system we have. It's our job to ensure our 
industrial base supports that kind of philosophy.''
    Given this situation, how does the Army intend to ensure that 
United Defense is maintained as a competent, cost-effective competitor 
to General Dynamics as well as a co-producer of the FCS manned ground 
variants, given that almost none of the fiscal year 2004 budget request 
for combat vehicles will go to United Defense and the same is true in 
the out years?
    Answer. Army Transformation required cancellation of certain 
programs to fund a variety of transformational initiatives to achieve 
greater war fighting capability over the long term. We assessed the 
risks to the industrial base from these program cancellations and, 
where we judged necessary, we have taken steps to mitigate adverse 
impacts. We saw two major risks to the industrial base as a result of 
the decision to not modernize the Counterattack Corps. Both of these 
risks involved maintaining viable armor system production capabilities 
at two production facilities: the Lima Army Tank Plant at Lima, Ohio, 
and the United Defense combat vehicle production facility at York, 
Pennsylvania.
    The first risk involves the General Dynamics' combat vehicle 
fabrication capability at the Lima Army Tank Plant. We judged that risk 
as unacceptable since Lima initially had an insufficient workload to 
remain viable as a production facility for the fabrication of the 
Marine Corps' Advanced Amphibious Assault Vehicle and the Army's FCS 
ground vehicles. To mitigate this risk, the Army has restructured some 
programs and now has sufficient work to sustain Lima in active 
production until these new programs are brought into production.
    The second risk involved maintaining the United Defense's combat 
vehicle production facility in Pennsylvania. We recognize that this 
facility would also be a likely candidate to manufacture FCS ground 
vehicles in the future. We expect that the production facilities in 
Pennsylvania will remain viable and open through calendar year 2004 
because of a continuation of their current fiscal year 2003 Bradley 
upgrade work. With this expectation and acceptance of risk, we did not 
program fiscal year 2004 funding for Bradley upgrades to protect that 
portion of the industrial base.
    While we cannot guarantee additional work from support for fielded 
systems, foreign sales, and reprocessing vehicles from operations in 
Iraq, the Army is looking hard at workload projections after calendar 
year 2004 and identifying fiscal year 2005 options which might be 
needed to protect any United Defense combat vehicle fabrication 
capability determined essential for future production. Those options 
will consider United Defense work on development of manned FCS non-line 
of sight gun system, unmanned ground systems, foreign sales, and other 
new non-traditional business. All of the other industrial base risks 
from not funding the Counterattack Corps are judged acceptable.
    Question. If the Army intends to let United Defense shutter its 
combat vehicle manufacturing plant, how does it propose to cost-
effectively support/upgrade the many vehicles manufactured by United 
Defense--Bradley Fighting Vehicles, tank recovery vehicles, self-
propelled howitzers--that are forecast to be in the inventory for many 
years to come?
    Answer. We do not expect that United Defense will close its combat 
vehicle manufacturing plant. We expect fiscal year 2003 funding and 
other work to keep essential skills active through the end of calendar 
year 2004, given that final vehicle deliveries are scheduled for June 
2005.
    The program funding for Bradley system sustainment and technical 
support will transition in fiscal year 2006 from procurement to the 
Operation and Maintenance, Army account. We believe United Defense's 
engineering staff and the Army's own in-house staff will be able to 
sustain the vehicles made by United Defense.
    The shortage of Bradley upgrade funding is manageable, but there 
are two key issues we must address. The first issue is how we will fund 
the required technical support to the fielded fleet. For fiscal year 
2003, the Army will have to fund the technical support from operations 
and maintenance accounts. That will present a problem for us because we 
will be addressing not only peacetime requirements but operational 
requirements associated with the global war on terrorism and operations 
in Iraq. Obviously, we will finance the highest priority operational 
requirements first and defer those which are lower priority. A second 
issue is whether key suppliers will abandon the supplier network as we 
reduce requirements. This is a continuing problem, and we will do more 
tradeoff analysis to support decisions, for example, to either 
stockpile components or find alternate suppliers.
    Question. Doesn't it make sense to preserve United Defense's combat 
vehicle manufacturing capabilities when doing so would simultaneously 
meet equipment modernization requirements of the Army National Guard or 
maintain previously planned upgrades to an additional division of the 
heavy counterattack force?
    Answer. The Army recognizes the industrial base capability and 
contributions of both United Defense and government-owned depot 
facilities. In respect to United Defense, the Army recognizes the 
potential contribution that they could make in support of FCS 
production, projected to begin in the fiscal year 2007 timeframe. The 
Army leadership is currently considering a 3rd Armored Cavalry Regiment 
modernization strategy that encompasses both the Abrams Tank and 
Bradley Fighting Vehicles and intends to provide requested information 
to Congress as soon as possible. As a total force, the Army will 
continue to support Congressional funding focused on Army National 
Guard heavy force modernization.
    Question. Secretary White, in the Army's fiscal year 2004 Posture 
Statement, General Shinseki and yourself noted: ``In general, the Army 
increased funding for programs that are clearly transformational and 
support the Defense transformational goals, sustained funding for high 
priority systems that will transition to the Objective Force, and 
reduced funding for systems not essential to Army Transformation. The 
operational risk associated with the decreased funding for certain 
current programs is acceptable as long as we field Stryker Brigades on 
schedule and accelerate the fielding of the Objective Force for arrival 
this decade.''
    Given the Army's job to preserve competition in the industrial base 
and the risk to the FCS program costs if it is not, is the risk to the 
armored vehicle sector acceptable as long as the Army fields Stryker 
Brigades on schedule and accelerates the initial fielding of the 
Objective Force?
    Answer. The Army judges the risk acceptable. I have asked the Army 
to look hard at those workload projections for current producers and 
identify alternatives which might be needed to protect any combat 
vehicle fabrication capability we determine essential for future 
production. Those options will consider United Defense work on 
development of manned FCS non-line of sight gun system, unmanned ground 
systems, foreign sales, and other new non-traditional business. All of 
the other industrial base risks from not funding the Counterattack 
Corps are judged acceptable.
                   army heritage and education center
    Question. Secretary White, in 2000 the Army leadership made a 
commitment to staff the Army Heritage and Education Center at Carlisle 
Barracks with 79 people when it was completed. In light of that 
commitment, the Cumberland County Commissioners granted 54 acres of 
land for the project and the Commonwealth of Pennsylvania provided $10 
million. At present, the facility is suffering because it is 
understaffed.
    What are the Army's plans for staffing the Army Heritage and 
Education Center?
    Answer. The Army Heritage and Education Center (AHEC) will move 
into their new facility in the spring/summer of fiscal year 2004. There 
is still much work to be done in the meantime. AHEC is hiring 21 new 
employees this year that will bring them up to 54. AHEC has funding for 
54 this year and fiscal year 2004. A U.S. Army Manpower Analysis Agency 
study recommended they hire 18 additional employees for fiscal year 
2004, which will give them 72. The study also recommend AHEC add two 
more positions in fiscal year 2005 and another five in fiscal year 
2006, which would bring AHEC to their recommended total of 79 staff 
members.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                white sands/third wave outsourcing plan
    Question. Mr. Secretary, I have reviewed your testimony regarding 
the Army's Third Wave initiative. And I strongly agree with your 
objective of seeking the best value for our taxpayers' dollar. We all 
want that. But I do have some questions about the process the Army has 
put in place to implement competitive outsourcing.
    First, it seems to me that determining what jobs are core and what 
jobs are non-core is a very difficult thing. Clearly, certain routine 
maintenance duties are not fundamental to the Army's warfighting 
mission. But other activities that are not part of the warfighting 
mission per se have a very close relationship to how the warfighter 
performs.
    For example, many of the engineers and skilled DOD personnel in the 
test and evaluation field provide critical performance data about the 
systems used on the battlefield. To me, this is clearly connected to 
warfighting.
    Would you provide your assessment of where test and evaluation 
activities fit into the Third Wave proposal?
    Answer. The test and evaluation function is exempt from the A-76 
competitive sourcing process. Congress has, in fact, in Section 802 of 
Public Law 96-107, 10 U.S. Code, Section 114, note, barred the use of 
A-76 procedures in connection with the obligation or expenditure of 
research, development, test or evaluation funds, except for the 
operation or support of installations or equipment used for research 
and development (including maintenance support of laboratories, 
operation and maintenance of test ranges, and maintenance of test 
aircraft and ships). OMB Circular A-76 incorporates this statutory 
restriction. These restrictions do not foreclose alternatives to the A-
76 process, and such alternatives may merit further consideration in 
these functional areas. The Department will not pursue those 
alternatives, however, without consulting with Congress and seeking 
enabling legislation where appropriate. At this stage, the decision-
making is still pre-decisional with regard to the test and evaluation 
function with regard to alternatives to A-76.
    Question. Has the Army completed its study of non-core functions 
that are to be exempted from outsourcing? If not, when will these 
exemptions be determined?
    Answer. The Army recently completed the exemption phase of its 
study of non-core functions that are to be exempted from outsourcing. 
The Assistant Secretary of the Army for Manpower and Reserve Affairs 
made 24 exemption decisions. The exemption decisions will be provided 
to the Defense oversight committees as soon as those meetings can be 
scheduled.
    Question. The issue of security is also very important. It is my 
understanding that security personnel and firefighters are exempted 
from the Third Wave plan by law. Can you confirm that guards and fire 
personnel will remain within DOD?
    Answer. Yes, security guards and firefighters are exempted from the 
Third Wave plan by law. Title 10, U.S. Code, Section 2465, generally 
requires government employees to perform security guard and firefighter 
functions at installations located in the United States unless the 
installation becomes a contractor-operated facility. The issue of 
adequate force protection, since 9/11, is a paramount concern. We 
appreciate the limited Congressional relief mitigating somewhat the 
restrictions of title 10, U.S. Code, Section 2465. Section 332 of the 
Bob Stump National Defense Authorization Act for Fiscal Year 2003, 
Public Law 107-314, provides a basis in some circumstances for 
arranging for performance by local municipalities of increased 
security-guard functions since September 11, 2001. The Department will 
comply with these statutes unless Congress provides further relief.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
                       iowa army ammunition plant
    Question. The Iowa Army Ammunition Plant (IAAP) is currently 
undergoing cleanup as a Superfund site due mostly to contamination by 
high explosives from the ammunition. Secretary White, would the Defense 
Department proposals for changes to CERCLA and other environmental laws 
remove IAAP from the Superfund program? If not, please explain why IAAP 
would not be covered by the exemption. If so, please explain why it 
would be beneficial to IAAP and the surrounding community for the site 
to be removed from CERCLA protections.
    Answer. The Defense Department proposals for Readiness and Range 
Preservation would not remove IAAP from the Superfund program. DOD's 
Resource Conservation and Recovery Act (RCRA), and Comprehensive 
Environmental Response, Compensation, and Liabilities Act (CERCLA) 
legislative proposals clarify when RCRA and CERCLA apply at military 
ranges. IAAP is addressing contamination from ammunition assembling 
operations, which is distinct from military range activities.
    Question. The Army is currently conducting health studies of the 
workers and former workers at the IAAP site, alongside similar DOE 
studies of former workers at the nuclear weapons facility at the site.
    Please update me on the status of the studies, of the contracting 
the work, and of release of appropriated funds.
    Answer. In response to 2000 and 2001 legislation, DOD is 
identifying past and current IAAP DOD workers and notifying them of 
possible exposures. The workers have been provided DOD guidance to 
facilitate discussions with appropriate officials and health care 
providers. As directed, a health study of the IAAP workers has been 
developed. The U.S. Army Center for Health Promotion and Preventive 
Medicine (USACHPPM) has contracted with the College of Public Health at 
the University of Iowa (UI) to perform the study. As part of Phase I of 
the DOD study, UI has identified over 38,000 current and former IAAP 
workers. The health study protocol has received Human Subjects 
Institutional Review Board (IRB) approval from UI. In January 2003, 
USACHPPM received the revised health study protocol from UI. As part of 
USACHPPM's contract approval process, USACHPPM reviewed UI's health 
study protocol to ensure it is ethically and scientifically sound, and 
that the research complies with the Health Insurance Portability and 
Accountability Act (HIPAA). USACHPPM also arranged for peer review of 
the health study protocol by the Armed Forces Epidemiology Board and 
the DOE Central Beryllium IRB Committee. The final recommendations of 
the peer review groups are expected by the end of April 2003. USACHPPM 
will then share the recommendations with UI, and incorporate changes 
with the UI researchers. An additional $1 million of Congressional 
funds for fiscal year 2003 has been received by USACHPPM. Modifications 
to the existing contract are underway to incorporate this additional 
funding.
    Question. Congress directed that testing of workers for chronic 
beryllium disease be part of this study. Please update me on the status 
of and plans for conducting this testing.
    Answer. The DOD IAAP study will contain a complete exposure health 
history. Testing for chronic beryllium disease is complex and is under 
evaluation through additional expert peer review. Specific beryllium 
testing will be performed pending the recommendations of this expert 
review.
                          rock island arsenal
    Question. Industrial Mobilization Capacity (IMC, formerly UPC) 
funds are critical to the arsenals to pay for capacity that is 
maintained for national wartime requirements, not for current 
contracts, and thus to keep overhead rates reasonable. Last year 
Congress approved full funding of IMC, including $14.8 million for Rock 
Island Arsenal. Section 8109 of the Defense Appropriations bill did cut 
the working capital funds by 8 percent, but with the proviso ``that 
these reductions shall be applied proportionally to each budget 
activity, activity group, and subactivity group and each program, 
project, and activity within each appropriation account.'' Yet I 
understand that based on this cut, IMC funding for each of the arsenals 
was cut by more than 50 percent.
    Were the reductions in Section 8109 applied proportionally to each 
budget activity, activity group, and subactivity group and each 
program, project, and activity within each appropriation account? If 
not, please explain how the distribution of the cuts meets 
Congressional direction.
    Answer. Section 8109 of the conference report reduced the amount of 
the budget request by $400 million ``to reduce cost growth in 
information technology development.'' The report allocated $148.6 
million of the decrement to Defense Working Capital Fund (DWCF) and 
this reduction was enacted.
    The DWCF appropriation of $1,784.956 million was reduced by $148.6 
million. After protecting the Defense Commissary Agency ($969 million), 
the remaining reduction was spread to all activities. The Army's 
portion of the DWCF funding request was $316 million, which consisted 
of $89 million for war reserves, $100 million for spare parts 
augmentation, and $127 million for IMC funding. Army's share of the 
reduction was $67 million.
    It wasn't feasible for the Army to apply the reduction to the war 
reserves or to the spares augmentation. The war reserve funds had 
already been obligated, and the Army was already experiencing 
shortfalls in spares funding. The Army's only viable alternative was to 
take the reduction in the IMC requirement. The funding reduction was 
allocated pro rata to the IMC requirements of the eight ordnance and 
five depot maintenance activities.
    Question. Does the Army have any plans to restore the IMC funding 
for fiscal year 2003?
    Answer. The fiscal year 2003 DWCF included full funding for the IMC 
requirement, which was $119.7 million for the ordnance activities and 
$7.3 million for the depot maintenance activities. The DWCF 
appropriation was decremented $148 million, in the conference report 
(H.R. 107-732) for the Fiscal Year 2003 Defense Appropriations Act 
(Public Law 107-248, Title V). The Army's share, $67 million, was 
applied to the IMC funding. Given the competing demands for limited 
funds, it is unlikely the Army will be able to restore the reduction.
    The losses from this reduction could be recovered in future 
appropriations; otherwise, the loss will be recovered in the ordnance 
and depot maintenance customer rates for fiscal year 2005.
    Question. Can you ensure us that if Congress approves funding for 
IMC in fiscal year 2004, it will actually be used for that purpose?
    Answer. If Congress appropriates money to the Army Working Capital 
Fund in fiscal year 2004 for IMC, that money will be used for that 
purpose.
           ground services industrial enterprise (gsie) plan
    Question. In recent weeks the arsenals have been moving to 
implement the GSIE plan to rationalize their workload and make them 
more efficient, while keeping them as part of the federal organic base. 
Yet at the same time they have been buffeted by a RAND study that 
reportedly recommended formation of a government corporation, by Third 
Wave plans for privatization, and of course by rumors about the 
impending base closure round. I am concerned that the GSIE initiative 
will not be given time to work before some other privatization or 
reorganization plan is approved. Do you plan to give the arsenals time 
to implement the GSIE plan without making other major changes that 
could interfere with that effort?
    Answer. Formation of the Ground Systems Industrial Enterprise has 
been approved, and the Army leadership will be updated regularly on the 
progress toward operating efficiently without the need for subsidies. 
We are also responding to the Office of the Secretary of Defense on 
this. We do not anticipate that any action will be taken to change the 
GSIE operating structure before the Army has had a chance to assess the 
progress towards this objective.
                    high mobility trailers and waste
    Question. One of the programs I have followed with great interest 
is the purchase of high mobility trailers for the humvees. After many 
years, these trailers have supposedly been fixed. How many of these 
trailers are now in use in the field? How many humvees have been 
modified to pull them?
    Answer. The High Mobility Trailer has been renamed the Light 
Tactical Trailer. Approximately 5,200 trailers have been fielded to 
date, and over 10,500 humvees have been modified to pull them.
    Question. Have there been any problems with the trailers that are 
in use?
    Answer. No. They are operating quite well, as we expected.
    Question. What are your current plans for purchase of additional 
trailers that I understand are still needed?
    Answer. The Army plans to procure 5,094 trailers beginning in 
fiscal year 2004 through fiscal year 2009. In fiscal year 2004, we plan 
to procure 576 for $9.5 million; in fiscal year 2005, 713 for $11.1 
million; in fiscal year 2006, 550 for $8.7 million; in fiscal year 
2007, 1,510 for $22.1 million; in fiscal year 2008, 888 for $13.7 
million; and in fiscal year 2009, 857 for $13.5 million. The contract 
will be a competitive, firm fixed-price contract. The fiscal year 2004 
contract is scheduled for award in March 2004.

                          SUBCOMMITTEE RECESS

    Senator Inouye. And I would like to thank you on behalf of 
all of us for your appearance this morning, and thank you for 
your testimony, and General Shinseki, I think everyone here 
expressed the sentiment that I would say is felt by the Senate. 
We thank you for your service, sir.
    General Shinseki. Thank you, Senator. Obviously, without 
saying, the service in this position has been the high point of 
anyone's service in uniform, but along with that, working with 
the members of this committee and patriots in the Congress on 
other committees has certainly been a very special privilege 
for this soldier, and I thank you all for your support.
    Senator Inouye. In a few weeks I hope to travel to Hawaii, 
where we will have the 60th anniversary of the formation of my 
combat team, the one that I served in, made up of Japanese 
Americans, and I can assure you that the men in the regiment 
are very proud of you, sir.
    General Shinseki. Thank you, sir.
    Senator Inouye. Our next hearing of the Defense 
Subcommittee is scheduled for Wednesday, March 26, at 10 a.m. 
in Dirksen 192. With that, the hearing is recessed. Thank you 
very much.
    Mr. White. Thank you, sir.
    [Whereupon, at 11:43 a.m., Wednesday, March 19, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 26.]

</pre></body></html>
